<html>
<title> - AFGHANISTAN</title>
<body><pre>[Senate Hearing 110-269]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-269
 
                              AFGHANISTAN

=======================================================================


                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2007

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE

40-542 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                  (ii)



                           C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                              Afghanistan

                             march 1, 2007

                                                                   Page

Edelman, Hon. Eric S., Under Secretary of Defense for Policy.....     8
Lute, LTG Douglas E., USA, Director for Operations, J-3, The 
  Joint Staff....................................................    14
Jones, Gen. James L., Jr., USMC (Ret.), Former Commander, United 
  States European Command and Supreme Allied Commander, Europe...    53
Rubin, Hon. Barnett R., Ph.D., Director of Studies and Senior 
  Fellow, Center on International Cooperation....................    58

                                 (iii)


                              AFGHANISTAN

                              ----------                              


                        THURSDAY, MARCH 1, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Reed, 
Bill Nelson, E. Benjamin Nelson, Bayh, Clinton, Pryor, Webb, 
Warner, Inhofe, Sessions, Chambliss, Dole, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Mark R. Jacobson, professional staff 
member; Michael J. Kuiken, professional staff member; Michael 
J. McCord, professional staff member; William G.P. Monahan, 
counsel; and Michael J. Noblet, research assistant.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Paul C. Hutton IV, research assistant; David M. 
Morriss, minority counsel; Lynn F. Rusten, professional staff 
member; and Sean G. Stackley, professional staff member.
    Staff assistants present: David G. Collins, Kevin A. 
Cronin, Jessica L. Kingston, and Benjamin L. Rubin.
    Committee members' assistants present: Sharon L. Waxman, 
assistant to Senator Kennedy; Elizabeth King, assistant to 
Senator Reed; Christopher Caple and Caroline Tess, assistants 
to Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Todd Rosenblum, assistant to Senator Bayh; Andrew 
Shapiro, assistant to Senator Clinton; Lauren Henry, assistant 
to Senator Pryor; Gordon I. Peterson, assistant to Senator 
Webb; John Bonsell and Jeremy Shull, assistants to Senator 
Inhofe; Mark J. Winter, assistant to Senator Collins; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Adam G. Brake, 
assistant to Senator Graham; Lindsey Neas, assistant to Senator 
Dole; and Stuart C. Mallory, assistant to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. First let me 
welcome our witnesses to this morning's hearing on Afghanistan. 
The committee will first hear from Ambassador Eric Edelman, 
Under Secretary of Defense for Policy; and Lieutenant General 
Douglas Lute, Director of Operations, J-3, of the Joint Staff. 
These witnesses will be followed immediately by a second panel 
consisting of General Jim Jones, former Commander, United 
States European Command, and Supreme Allied Commander, Europe; 
and Dr. Barnett Rubin, Director of Studies at the Center for 
International Cooperation at New York University, where he 
heads up the Afghanistan Reconstruction Project.
    Afghanistan under the Taliban provided a haven in which al 
Qaeda planned and trained for the attack on the United States 
on September 11, 2001. While there are deep differences in 
Congress about the way forward in Iraq, I believe there is 
great unity behind doing everything that must be done 
militarily and economically to prevent Afghanistan from again 
providing a safe haven for terrorists.
    The past year, however, has seen several alarming trends in 
Afghanistan and the border area with Pakistan. First, the 
security situation, particularly in the southern and eastern 
regions of Afghanistan, has been steadily deteriorating. 
Overall attacks on coalition forces are up threefold in 2006 
from the year before. The number of roadside bombs has almost 
doubled. Suicide attacks have jumped nearly fivefold from 2005 
and large-scale operations by the Taliban in units of 50 or 
more combatants are up significantly as well. The past year was 
the most violent since 2001, and 2007 is expected to be no less 
violent.
    Just as disturbing is the increase in insurgent attacks on 
coalition forces along the Afghan-Pakistan border. U.S. 
military officials reported a two- to three-fold increase in 
attacks along sections of Afghanistan's border with Pakistan 
within weeks after Pakistan signed an agreement with pro-
Taliban militants in September of 2006 ceding control over 
Pakistan's North Waziristan border region, presumably in 
exchange for ending attacks on government officials and halting 
the cross-border movement of insurgents to Afghanistan. 
Instead, al Qaeda is reportedly establishing training camps 
again for terrorists within the border region.
    A third disturbing trend over the past year is the Afghan 
people's growing loss of confidence in the institutions of 
government at the national level and below. A study by the 
Center for Strategic and International Studies (CSIS) shows 
increasing discontent among the Afghan public with the Afghan 
government and a significant drop in their view of the 
government's legitimacy and effectiveness. The report 
attributes this decline to, ``high levels of corruption and 
nepotism, the perception of the Karzai government as weak and 
ineffective, and the appointment of government officials 
connected to criminal networks, private militias, the drug 
trade, and human rights abuses.''
    A fourth worrisome trend is the growth of the narcotics 
trade and its corrupting influence. General Jones, who will 
testify later on the second panel, said in January that ``The 
narcotics problem is affecting economic revival, it is 
providing money for the insurgency, it is contributing to the 
corruption of public officials, and prevents the emergence of 
the new Afghanistan.'' A November report released by the United 
Nations and the World Bank found that poppy cultivation 
increased 59 percent and opium production by 49 percent over 
the last year.
    I hope our witnesses today can provide answers to a number 
of key questions regarding what we can do to help reverse these 
trends and to restore security, promote reconstruction, and 
build the legitimacy of the Afghan government and its 
institutions.
    The United States, the North Atlantic Treaty Organization 
(NATO), and cooperating nations need to have a comprehensive 
strategy for providing security, stability, and democracy in 
Afghanistan. Secretary Gates at the Munich conference in early 
February stated that ``The NATO allies agreed on the need for a 
comprehensive strategy in Afghanistan, combining a muscular 
military effort with effective support for governance, economic 
development, and counternarcotics.''
    President Bush in a speech on February 15 announced a new 
strategy for Afghanistan focusing on building the capacity of 
Afghan security forces, strengthening NATO forces in 
Afghanistan, improving provincial governance and development, 
countering narcotics, and fighting corruption.
    The question before us is whether this multifaceted 
strategy is sound, whether the United States, NATO, and the 
international community are willing to provide whatever 
resources are required to implement the strategy successfully, 
and if not what resources or policies need to be changed. For 
example, do we have the right plan for countering the growth of 
narcotics production in Afghanistan? Should U.S. and NATO 
forces have an explicit counternarcotics mission? Should the 
Karzai government be doing more?
    Are the United States, NATO, and the international 
community sufficiently committed to the mission in Afghanistan? 
U.S. troop levels in Afghanistan are being increased to around 
27,000, the highest level since 2001. NATO has made an 
unprecedented commitment to the mission in Afghanistan, the 
first major out-of-area operation in the alliance's history. 
Our NATO allies have provided over 20,000 soldiers as part of 
the International Security Assistance Force (ISAF), which is 
deployed under a U.N. mandate. A number of our NATO allies have 
upped their commitment of troops or equipment in theater, 
including recently Britain, Poland, and Denmark. However, 
pledges of other NATO members to provide additional troops or 
equipment have not been met. What will it take to get those 
commitments honored?
    Are restrictions imposed by NATO governments on their own 
troops, on the deployment or use of those troops in 
Afghanistan, hampering NATO operations and if so what more can 
be done to get those restrictions removed?
    Is the reconstruction assistance being provided by the 
United States and our coalition partners sufficient to help the 
government of Afghanistan meet the needs of the Afghan people?
    A final question that I hope our witnesses will address 
this morning is probably the most important question: How to 
address the threats to Afghanistan's security posed by Taliban 
and al Qaeda extremists in Pakistan's border areas? Why is 
Pakistan not doing more to eliminate the havens and the 
training camps? Also, what role is Iran playing in Afghanistan, 
particularly in the Shiite areas of the country? Are there 
regional strategies that should be pursued to promote security 
and stability within Afghanistan?
    Let me conclude by thanking on behalf of the committee our 
service men and women who have served in Afghanistan over the 
last 5\1/2\ years, often on multiple tours. They have served 
courageously to bring security and hope to the Afghan people 
and to prevent that country from returning once again to being 
a haven for terrorists and fanatics. We owe them and their 
families our gratitude and our support.
    [The prepared statement of Chairman Levin follows:]
                Prepared Statement by Senator Carl Levin
    Let me welcome our witnesses to this morning's hearing on 
Afghanistan. The committee will first hear from Ambassador Eric S. 
Edelman, Under Secretary of Defense for Policy; and Lieutenant General 
Douglas E. Lute, Director of Operations, J-3, of the Joint Staff. These 
witnesses will be followed immediately by a second panel, consisting of 
General Jim Jones, former Commander, United States European Command and 
Supreme Allied Commander Europe; and Dr. Barnett Rubin, Director of 
Studies at the Center for International Cooperation at New York 
University where he heads up the Afghanistan Reconstruction project.
    Afghanistan, under the Taliban, provided a haven in which al Qaeda 
planned and trained for the attack on the United States on September 
11, 2001. While there are deep differences in Congress about the way 
forward in Iraq, I believe there is great unity behind doing everything 
that must be done militarily and economically to prevent Afghanistan 
from again providing a safe haven for terrorists.
    The past year, however, has seen several alarming trends in 
Afghanistan and the border area with Pakistan.
    First, the security situation, particularly in the southern and 
eastern regions of Afghanistan, has been steadily deteriorating. 
Overall attacks on coalition forces are up three fold in 2006 from the 
year before; the number of roadside bombs has almost doubled; suicide 
attacks have jumped nearly five fold from 2005; and large-scale 
operations by the Taliban--in units of 50 or more combatants--are up 
significantly as well. The past year was the most violent since 2001, 
and 2007 is expected to be no less violent.
    Just as disturbing is the increase in insurgent attacks on 
coalition forces along the Afghan-Pakistan border. U.S. military 
officials reported a two- to three-fold increase in attacks along 
sections of Afghanistan's border with Pakistan within weeks after 
Pakistan signed an agreement with pro-Taliban militants in September 
2006, ceding control over Pakistan's North Waziristan border region, 
presumably in exchange for ending attacks on government officials and 
halting the cross-border movement of insurgents to Afghanistan. 
Instead, al Qaeda is reportedly establishing training camps again for 
terrorists within the border region.
    A third disturbing trend over the past year is the Afghan people's 
growing loss of confidence in the institutions of government, at the 
national level and below. A study by the Center for Strategic and 
International Studies released on February 23 shows increasing 
discontent among the Afghan public with the Afghan Government and a 
significant drop in their view of the government's legitimacy and 
effectiveness. The report attributes this decline to ``high levels of 
corruption and nepotism,'' the perception of the Karzai Government as 
weak and ineffective, and the appointment of government officials 
connected to criminal networks, private militias, the drug trade, and 
human rights abuses.
    A fourth worrisome trend is the growth of the narcotics trade and 
its corrupting influence. General Jim Jones, who will testify later on 
the second panel, said in January that the narcotics problem is 
affecting economic revival, ``it's providing money for the insurgency; 
its contributing to the corruption of public officials and prevents the 
emergence of the new Afghanistan.'' A November report released by the 
United Nations and the World Bank found that poppy cultivation 
increased 59 percent and opium production by 49 percent over the last 
year.
    I hope that our witnesses today can provide answers to a number of 
key questions regarding what we can do to help reverse these trends and 
to restore security, promote reconstruction, and build the legitimacy 
of the Afghan Government and its institutions.
    The United States, the North Atlantic Treaty Organization (NATO), 
and cooperating nations need to have a comprehensive strategy for 
providing security, stability, and democracy in Afghanistan. Secretary 
Gates at the Munich Conference in early February stated that the NATO 
allies agreed on the need for ``a comprehensive strategy [in 
Afghanistan]--combining a muscular military effort with effective 
support for governance, economic development, and counternarcotics.'' 
President Bush in a speech on February 15 announced a new strategy for 
Afghanistan, focusing on building the capacity of Afghan Security 
Forces, strengthening NATO forces in Afghanistan, improving provincial 
governance and development, countering narcotics, and fighting 
corruption. The question before us then is whether this multi-faceted 
strategy is sound, whether the United States, NATO, and the 
international community are willing to provide whatever resources are 
required to implement the strategy successfully, and if not, what 
resources or policies need to be changed.
    For example, do we have the right plan for countering the growth of 
narcotics production in Afghanistan? Should U.S. and NATO forces have 
an explicit counternarcotics mission? Should the Karzai government be 
doing more?
    Are the United States, NATO, and the international community 
sufficiently committed to the mission in Afghanistan? U.S. troop levels 
in Afghanistan are being increased to around 27,000, the highest level 
since 2001. NATO has made an unprecedented commitment to the mission in 
Afghanistan, the first major ``out of area'' operation in the 
alliance's history. Our NATO allies have provided over 20,000 soldiers 
as part of the International Security Assistance Force which is 
deployed under a U.N. mandate. A number of our NATO allies have upped 
their commitment of troops or equipment in theater, including recently 
Britain, Poland, and Denmark. However, pledges of other NATO members to 
provide additional troops or equipment haven't been met. What will it 
take to get those commitments honored? Are restrictions imposed by NATO 
governments on their own troops, on the deployment or use of those 
troops in Afghanistan, hampering NATO operations and if so, what more 
can be done to get them removed?
    Is the reconstruction assistance being provided by the United 
States and our coalition partners sufficient to help the Government of 
Afghanistan meet the needs of the Afghan people?
    A final question that I hope our witnesses will address this 
morning is probably the most important: how to address the threats to 
Afghanistan's security posed by Taliban and al Qaeda extremists in 
Pakistan's border areas? Why isn't Pakistan doing more to eliminate the 
havens and training camps? Also, what role is Iran playing in 
Afghanistan, particularly in the Shiite areas of the country? Are there 
regional strategies that should be pursued to promote security and 
stability within Afghanistan? Let me conclude by thanking, on behalf of 
the committee, our service men and women who have served in Afghanistan 
over the last 5\1/2\ years, often on multiple tours. They have served 
courageously to bring security and hope to the Afghan people and to 
prevent that country from returning once again to being a haven for 
terrorists and fanatics. We owe them and their families our gratitude 
and our support.

    Chairman Levin. Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    Might I ask that our colleague from Oklahoma be recognized 
for a few minutes? As ranking member of the Environment and 
Public Works (EPW) Committee he must depart the hearing.
    Senator Inhofe. Thank you, Senator Warner.
    This will be very brief. Let me mention that, to this 
committee, we have several members of this committee who are 
also members of EPW. I happen to be the ranking member of EPW 
and the second ranking member of this committee, and so it 
makes it very difficult. I would hope there is a way we could 
try to correct that so that we would be able to do our duties 
in both committees.
    Let me just mention first of all to the Honorable Edelman 
who is here: You have a tough job. You and I talked about this 
when you were the Ambassador in Turkey. You follow, I think, a 
great man who was very unfairly treated in my opinion. I know 
that it is going to be difficult for you and I am hoping that 
as a result of that you are not going to be inhibited in any 
way of using information to the security of this country as you 
see fit.
    I would say this with General Jones. I did not even 
recognize you sitting over there without your uniform on. I 
spent my 12th trip over to the area of responsibility (AOR) 
with General Jones and I just am so proud of the service that 
you have rendered and the things that you have taken, some 
unorthodox positions that were not popular at the time. I think 
with the Provincial Reconstruction Team (PRT) problems that you 
and I have been trying to address together, I am hoping that 
you will remain active and using the expertise that you have 
shared with us for a long period of time.
    I am very proud of what has happened over there. I happened 
to be over there when the Afghan National Army (ANA), they 
officially transferred the training of the ANA from us to 
themselves. They were doing a good job. I think that serves as 
a model perhaps for some of the things that are going on over 
there in Iraq. I might add also it is the Oklahoma Guard 45th 
that handled that, the training and that transfer.
    Thank you, Mr. Chairman. Thank you, Senator Warner.
    Senator Warner. Chairman Levin, on behalf of the 
distinguished ranking member, Senator McCain, I shall put a 
statement in the record, but if I might just have a minute to 
add a comment or two of my own.
    I welcome this distinguished panel of witnesses. I have had 
the privilege of working with each of them for a number of 
years. To my distinguished friend and colleague, General Jones, 
delighted to see that you carry on public service by coming 
here before Congress and in many other ways as you work your 
way back into the private sector. We thank you and your family, 
General.
    I listened to the chairman carefully here, but I would like 
to put a positive note on Afghanistan. So much has been 
achieved in these few years. We have a freely elected and a 
democratic government, a legislature. It is a struggle and more 
needs to be done, but the criticality of this region is not 
just to the United States or the other coalition nations there 
with us, but it is to the whole world.
    The chairman quite correctly addressed the poppy question. 
I have seen figures as high as 90 percent of the world's supply 
emanating from this area. That has to be addressed. General 
Jones, when you get up we will have the opportunity to cross-
examine you on this. But the national caveats were of great 
concern to you at the time you were Supreme Commander. You made 
some progress, and let us hope that further progress can be 
made on that, because the actual troops themselves I think are 
anxious to do and accept equal risks. It is a problem back with 
the respective governments with regard to the orders that they 
receive. I note that Great Britain is going to send another 
contingent to Afghanistan and I expect that you will be 
addressing that. So there are a lot of very strong positive 
features, and we must support this government and its effort to 
continue to grow and strengthen and to meet the challenges, and 
I hope that our Nation will continue to do just that.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Chairman Levin, thank you for scheduling this important 
hearing.
    I would like to welcome Ambassador Edelman and General Lute 
back to the committee.
    Doctor Rubin, I would like to thank you for accepting the 
committee's invitation to appear today and share your 
experience and expertise in nation building and the regional 
affairs of Central Asia.
    A special welcome to the now-retired General Jim Jones, the 
former Supreme Allied Commander of NATO and the 32nd Commandant 
of the Marine Corps. Our Nation has benefited greatly from your 
40 years of distinguished service in uniform--not only to your 
own credit but to the credit of the men and women of the Marine 
Corps.
    We look forward to the testimony of all of our witnesses 
today.
    It has been a long 5\1/2\ years since the disbanding of 
Taliban rule in Afghanistan. In the intervening years, 
coalition and Afghan forces have made progress in some areas; 
however, the future of Afghanistan is still at risk.
    The fighting in 2006 was fiercer than any time since 
Afghanistan's liberation, with an increase in coalition 
casualties from the previous year, a doubling in the number of 
roadside bombs, and a five-fold rise in the number of suicide 
bombings. The poppy crop hit another all-time high, and 
Afghanistan is now the source of 90 percent of the world's 
supply of raw materials for heroin. The Taliban is resurgent in 
several areas throughout the south and east of the country, and 
the presidents of Afghanistan and Pakistan have publicly feuded 
over who is to blame.
    These challenges should not obscure the progress 
Afghanistan has made over the past 5 years. More than 2 million 
refugees have returned, the economy has improved, 
infrastructure expanded, education enhanced, and elections 
held. Most importantly, the people of that long-suffering 
country were freed from the murderous Taliban rule.
    Our Nation and our NATO allies must put focus and attention 
on Afghanistan. I was particularly struck by a comment made by 
Lieutenant General Karl Eikenberry, the outgoing commander of 
United States Forces in Afghanistan, on 13 February. In his 
prepared remarks, he wrote that the long-term threat to success 
is ``the potential irretrievable loss of legitimacy of the 
Government of Afghanistan.'' With a Taliban offensive expected 
this spring we must seize the moment and avert that warning. 
NATO members can help ensure that we keep the Taliban on their 
heels by at least matching the U.S. troop increase of 3,000 and 
by reconsidering national caveats, which restrict military 
operations.
    In addition to quelling the violence, reconstruction and 
development are central to lasting success in Afghanistan. The 
administration's new request for $10.6 billion, $2 billion of 
which would be devoted to reconstruction and anti-narcotics 
projects, is a welcome sign, and I applaud the European 
Commission's pledge of $780 million in aid over 4 years. Yet 
the international community still falls far short in meeting 
its prior pledges and in committing the resources Afghanistan 
needs to avoid failure.
    Chairman Levin, thank you.

    Chairman Levin. Thank you very much. Senator Warner, while 
you are here let me just make a statement about the revelation 
relative to the uranium enrichment program in North Korea, that 
the level of confidence that apparently we have relative to 
that enrichment program is somewhat different from what it was 
previously thought to be. Senator Reed asked a question the 
other day which triggered this. I have talked to Senator Warner 
about the next step in this, because this represents a very 
significant, at least possibly a very significant difference 
from what the previous assessment had been, and if so when did 
the change occur and a number of other questions.
    What we are going to do is submit to the Department of 
Defense (DOD) a series of questions about this. We would invite 
all of our colleagues on the Senate Armed Services Committee to 
submit to our staffs by tomorrow afternoon any questions that 
any member of the committee might have, that we can then 
include in our questions, in our letter that will be going out 
to Secretary Gates and probably to Secretary Rice as well.
    But this is a very significant development potentially. We 
want to get all the facts that we possibly can before we take 
any steps beyond that. So we will send a letter. You might tell 
the Secretary that he will be receiving a letter by Monday with 
a series of questions.
    Senator Warner. On that, Mr. Chairman, you shared that 
thought with me. I certainly will give it careful review, but I 
do believe that there has been a significant first step towards 
the reconciliation of differences by the Six-Party Talks and I 
believe a lot of credit is owing to all the nations that 
participated, particularly the efforts of Ambassador Hill. So 
this issue that you raise should be clarified and I hope to be 
able to join you with this letter.
    Chairman Levin. We surely agree that the step which has now 
been taken is a useful step, long overdue, and we welcome it.
    Secretary Edelman.

 STATEMENT OF HON. ERIC S. EDELMAN, UNDER SECRETARY OF DEFENSE 
                           FOR POLICY

    Ambassador Edelman. Chairman Levin, Senator Warner, and 
other members of the committee: Thank you very much for giving 
my colleague, General Lute, and me the chance to come and talk 
to you about Afghanistan this morning. I have a very short 
statement, Mr. Chairman, that I would like to read. There is a 
longer version that has been circulated to members of the 
committee and I apologize, I think it did not get here in as 
timely a fashion as would be desirable. That was due, though, 
to my travel overseas from Sunday to Tuesday and my desire to 
make sure the written statement answered all the questions at 
least in a preliminary way that you and Senator McCain had 
raised in your letter to me.
    Chairman Levin. That is fine. Thank you for that, and just 
please proceed. We will put your entire statement in the 
record.
    Ambassador Edelman. Thank you, sir.
    To date much has been accomplished in Afghanistan, as 
Senator Warner just alluded. We often lose sight of the fact 
that since September 11, 2001, the Taliban regime has been 
driven from power, al Qaeda no longer enjoys a safe haven to 
plan and launch attacks against the United States in 
Afghanistan, and Afghanistan is a democracy. It is also worth 
noting that in the intervening years the Afghan economy has 
doubled, more than 5 million Afghan children now attend school.
    The Afghan national assembly includes more than 90 women in 
a country where women were once brutalized and pushed to the 
margins of society. The Afghan people themselves have made 
tremendous strides and have demonstrated their commitment to 
the principles of a democratically elected government. 
President Hamid Karzai enjoys justifiable popularity and broad-
based support throughout his country and in the international 
community.
    Our allies have demonstrated their commitment to 
Afghanistan as well. On October 5, 2006, NATO's ISAF expanded 
its mission to support security, stability, and reconstruction 
throughout all of Afghanistan. This past fall, in a series of 
effective combat operations, ISAF contributors demonstrated 
their willingness to take the fight to the Taliban on the 
battlefield and achieved a series of important tactical 
successes.
    Although our allies play a key role in the overall mission 
in Afghanistan, the centerpiece of our efforts is a strong and 
enduring U.S.-Afghan relationship, characterized by the joint 
declaration of the U.S.-Afghan strategic partnership signed by 
Presidents Bush and Karzai in 2005. In about 2 weeks time, my 
State Department colleague, Ambassador Nick Burns, and I will 
go to Afghanistan for the second meeting of the U.S.-Afghan 
strategic partnership talks.
    Nonetheless, we must recognize that these gains in 
Afghanistan remain vulnerable and that our enemies are 
tenacious. This past summer, the Taliban launched a bloody 
campaign of violence against Afghan and international forces as 
well as Afghan civilians. We expect an even greater increase in 
Taliban violence this coming spring. They seek to undermine the 
Afghan people's sense of security, their confidence in the 
Afghan government, as well as the commitment of the 
international community to stand with the Afghan people. We 
must not let that happen.
    To that end, Secretary of Defense Gates recently approved 
the extension of the 3rd Brigade, 10th Mountain Division, for 
120 days in Afghanistan, and he further approved the deployment 
of a brigade combat team, 3,200 soldiers strong, from the 173rd 
Airborne Brigade to replace the 3rd of the 10th when it rotates 
out.
    Simultaneously, we are encouraging our NATO allies to do 
more. Although the alliance understands the importance of the 
mission in Afghanistan, we continue to work to ensure that 
member countries fulfill their commitments and remove remaining 
restraints on the use of their forces.
    To ensure long-term success in Afghanistan, the National 
Security Council staff has led a comprehensive inter-agency 
review of the overall U.S. strategy. Mr. Chairman, I think you 
mentioned that in drawing attention to the President's comments 
outlining that strategy. Based on the conclusions of this 
review, we are adopting an approach that seeks to better 
integrate political initiatives, a development agenda, regional 
diplomacy, and a counternarcotics effort with our military 
operations. Our review was based on the recognition that we 
have seen an important shift in the strategic environment in 
Afghanistan. The ANA has surpassed our expectations, but 
simultaneously the Taliban presence and strength have grown in 
some areas of the country, especially in the south.
    The shift in the strategic environment highlights the need 
to refocus and strengthen the Afghan national security force 
training and equipment program. The $5.9 billion requested in 
the fiscal year 2007 supplemental and the $2.7 billion 
requested in the 2008 global war on terror request will 
accelerate the pace of our Afghan national security force 
train-and-equip program and expand the size and capability of 
those forces. These funds are in addition to the $1.5 billion 
included in the fiscal year 2007 bridge supplemental. Our goal 
is to have the Afghan national security forces become less 
reliant on international forces in the long-term and more 
capable of independently taking the fight to the Taliban.
    The Afghan national security forces continue to demonstrate 
the will to play a greater role and we must accord them the 
means to do so. The ANA is a component of our program that is 
building on past success. We now have 32,000 trained and 
equipped personnel out of an authorized strength of 70,000. The 
ANA has won the respect of the Afghan people and has matured 
into a highly regarded institution of the national government.
    The acceleration program will provide Afghan soldiers with 
more reliable and capable weapons, force protection equipment, 
medical equipment and vehicles, and will build capacities that 
will allow the ANA to operate on a self-sufficient basis.
    We also recognize that a more robust and capable police 
force is required for the mission at hand. We have developed a 
plan to train and equip an expanded force of 82,000 police 
personnel, which will build on some strides made in the past 
year by the ministry of the interior. The ministry is in the 
final stages of completing reform of its pay and rank system, 
which we hope will have a major impact on morale and on 
reducing corruption.
    Additionally, the ministry of interior is removing corrupt 
leaders from its ranks. We are helping to develop several 
specialized units, including the counternarcotics police, and 
this increased Afghan capacity to arrest major traffickers and 
remove corrupt officials linked to trafficking will be an 
essential part of helping the Afghan government meet the threat 
posed by the growing challenge of narcotics that you mentioned, 
Mr. Chairman, and Senator Warner, you mentioned as well.
    I need to stress, though, that improved security by itself 
will not win the fight in Afghanistan. Afghanistan will need 
improved governance, better infrastructure, and greater 
economic development. At the January 2006 London conference 
which launched the Afghanistan Compact, 64 donors pledged over 
$10 billion to assist Afghanistan in its reconstruction and 
development efforts. However, the magnitude of the problem 
requires still more. In addition to addressing security and 
reconstruction with Afghanistan, we must remain actively 
engaged in the broader region. Every effort must be made to 
ensure Afghan and Pakistani cooperation to thwart violence in 
Afghanistan. We have been and will continue to work with 
Pakistan, Afghanistan, and other international partners to 
bring order and security to these border areas.
    The stakes in Afghanistan could not be higher, as you said, 
Mr. Chairman, and you said, Senator Warner. But we are working 
hard to set the conditions for success. In the near-term, we 
must respond assertively and effectively to the threat the 
Taliban and others pose as they seek to undermine the 
Government of Afghanistan and intimidate the Afghan people.
    I think sometimes we talk about the possible Taliban spring 
offensive and it gives more credit to the Taliban than they 
deserve by making this sound as if it is some kind of 
legitimate military operation. The Taliban spring offensive 
really translates into Taliban coming into villages, burning 
schools, killing school teachers, intimidating children, 
particularly young girls, from getting an education. When 
people talk about the Taliban spring offensive, that is what 
they need to keep in mind.
    In the longer term, success in Afghanistan will largely 
depend on non-military factors, such as improved governance, 
infrastructure development, and tangible progress in countering 
the threat of illegal drugs. The people of Afghanistan have 
made clear their commitment to a future that is democratic and 
prosperous. They also realize the road ahead is full of 
challenges and they will need to sustain the commitment and 
support of the international community in order to achieve 
their goals.
    The United States along with our Afghan and international 
allies must seize the strategic opportunities at hand. We must 
secure the gains we have made and work together to set the 
stage for even more progress in the years ahead.
    Thank you, Mr. Chairman. That completes my statement. I 
think General Lute may want to say a few words or we can go to 
your questions.
    [The prepared statement of Ambassador Edelman follows:]
             Prepared Statement by Ambassador Eric Edelman
    Thank you for inviting me to appear before this committee. I am 
pleased to have the opportunity to speak with you about Afghanistan.
    To date, much has been accomplished in Afghanistan. We often lose 
sight of the fact that since September 11, 2001, the Taliban regime has 
been driven from power, al Qaeda no longer enjoys a safe-haven to plan 
and launch attacks against the United States, and Afghanistan is a 
democracy. It is also worth noting that in the intervening years the 
Afghan economy has doubled, more than 5 million Afghan children now 
attend school, and the Afghan National Assembly includes more than 90 
women--this in a country where women were once brutalized and pushed to 
the margins of society. An independent ABC News poll shows increasing 
confidence in the stability and economy of the country. An overwhelming 
79 percent of Afghans polled are confident in their personal security 
under the current government, versus just 36 percent who felt safe 
under Taliban rule. The significance of these remarkable achievements 
cannot be overstated. We, in conjunction with the Afghan Government and 
our international partners, are working to secure our gains and set the 
conditions for continued progress.
    The Afghan people themselves have made tremendous strides and have 
demonstrated their commitment to the principles of democratically 
elected government. President Hamid Karzai justifiably enjoys popular 
and broad-based support throughout his country and the international 
community. The Afghan National Assembly, although still in its early 
stages, has already achieved recognition as an impressive governmental 
institution. The group has had an auspicious start: confirming Cabinet 
and Supreme Court appointments, passing a national budget, and 
reviewing presidential decrees.
    Our Allies have demonstrated their commitment to Afghanistan as 
well. On October 5, 2006, NATO's International Security Assistance 
Force (ISAF) expanded its mission to support security, stability, and 
reconstruction throughout all of Afghanistan. ISAF is the first NATO 
mission where Alliance forces have deployed outside of the European 
theater. More than 35,000 ISAF personnel from 42 countries are 
currently serving in Afghanistan under the command of a U.S. General, 
Dan McNeill. This past fall, in a series of effective combat 
operations, ISAF contributors demonstrated their willingness to take 
the fight to the Taliban on the battlefield and achieved a series of 
important tactical victories. Moreover, ISAF plays a key role in the 
effort to rebuild Afghanistan by overseeing 25 Provincial 
Reconstruction Teams (PRTs) throughout the country. In 2006 alone more 
than 2,000 PRT projects were completed; and an excess of $255 million 
was spent by the U.S., allies, and other partners in support of those 
projects.
    Although our allies play a key role in the overall mission in 
Afghanistan, the centerpiece of our efforts is a strong and enduring 
U.S.-Afghan relationship, characterized by the ``Joint Declaration of 
the U.S.-Afghanistan Strategic Partnership,'' signed by Presidents Bush 
and Karzai in 2005. A major component of this Strategic Partnership is 
strengthening the Afghan National Security Forces (ANSF), which include 
both the Afghan National Army and the Afghan National Police. The ANSF, 
now with over 90,000 military personnel and policemen trained and 
equipped, are increasingly taking the lead in providing for the 
security and safety of their countrymen. In 2 weeks, Ambassador Burns 
and I will go to Afghanistan for the second meeting of the U.S.-Afghan 
Strategic Partnership talks.
    Nonetheless, we must recognize that these gains in Afghanistan 
remain vulnerable and that our enemies are tenacious. This past summer, 
the Taliban launched a bloody campaign of violence against Afghan and 
international forces, as well as Afghan civilians. We expect an even 
greater increase in Taliban violence this coming spring. The Taliban 
are aware they cannot defeat the conventional military might of the 
United States and our Afghan and international allies. They seek to 
undermine the Afghan people's sense of security, their confidence in 
the Afghan Government, as well as the commitment of the international 
community to stand with the Afghan people. We must not let that happen. 
We must ensure that the offensive this spring is ``our'' offensive.
    To that end, Secretary of Defense Gates recently approved the 
extension of the 3rd Brigade, 10th Mountain Division, for 120 days. 
Secretary Gates further approved the deployment of a Brigade Combat 
Team, 3,200 soldiers strong, from the 173rd Airborne Brigade to replace 
the 3rd Brigade of the 10th Mountain Division when it rotates out.
    Simultaneously, we are encouraging our NATO Allies to do more. 
Within the past few months allies, such as the United Kingdom, 
Lithuania, Poland, and Norway have stepped up and offered more forces 
for the Afghan mission. Since Riga, progress has been made on lifting 
most operationally restrictive national caveats; however more work 
remains. We are working with our Allies to come to a common 
understanding and way-ahead for implementation of a NATO 
counterinsurgency strategy. Additionally, SACEUR identified equipment 
and manning shortfalls are being addressed with allies and in several 
cases filled. Secretary Gates raised these concerns with his 
counterparts during the recent NATO Informal Defense Ministerial in 
Seville. Secretary Gates also encouraged Allies to share best practices 
learned in the field, to better communicate NATO's and the Afghan 
government's successes, both military and non-military, to the Afghan 
people. Although the Alliance understands the importance of the mission 
in Afghanistan, we continue to work to ensure that member countries 
fulfill their commitments and remove remaining restraints on their 
forces.
    To ensure long-term success in Afghanistan, the National Security 
Council staff led a comprehensive interagency review of the overall 
U.S. strategy. Based on the conclusions of this review, we are adopting 
an approach that integrates military operations with political 
initiatives, a development agenda, regional diplomacy, and a 
counternarcotics effort. The overall conclusion of the review is that 
while our goal remains a stable and democratic Afghanistan, we must 
increase and accelerate our efforts across the spectrum of activities 
in order to reach the goals. With regards to development, State and 
USAID requested increased funds to accelerate key infrastructure 
projects and governance and capacity building programs. Both Secretary 
Rice and Secretary Gates have expressed the importance of this 
comprehensive approach with our allies and urged them to similarly 
increase their efforts at recent NATO ministerial meetings. I will 
focus my comments primarily on the security portion of the review 
developed by the Department of Defense
    Our review was based on the recognition that we have seen an 
important shift in the strategic environment in Afghanistan. Taliban 
presence and strength have grown in some areas of the country, 
especially in the south. The relatively weak institutions of the Afghan 
Government enable insurgents to operate more freely in areas without a 
robust security presence, and to exploit the Afghan people's unmet 
expectations where they exist. Furthermore, the Taliban enjoy areas of 
sanctuary in the region, allowing its leaders to direct and support 
operations with low risk of military response. Simultaneously however, 
the ANA has surpassed our expectations. They have demonstrated 
conspicuous bravery and professionalism in operations alongside our own 
forces.
    The shift in the strategic environment highlights the need to 
refocus and strengthen the ANSF training and equipping program. The 
$5.9 billion requested in the fiscal year 2007 supplemental and the 
$2.7 billion requested in the fiscal year 2008 global war on terror 
request will accelerate the pace of our ANSF train-and-equip program 
and expand the size and capabilities of these forces. These funds are 
in addition to the $1.5 billion included in the fiscal year 2007 bridge 
supplemental. Our goal is to have the ANSF become less reliant on 
international forces in the long-term, and more capable of 
independently taking the fight to the Taliban. The ANSF continues to 
demonstrate the will to play a greater role--we must provide them the 
means.
    Achieving our vision for the ANSF will require a significant 
initial investment, primarily for infrastructure and equipment, which 
we are looking to fund primarily through the fiscal year 2007 Emergency 
Supplemental and to complete with the fiscal year 2008 global war on 
terror request. We expect to complete this ``build'' phase of the ANSF 
development plan by the end of 2008--at which point 152,000 ANSF 
personnel will be trained and equipped. Our focus in the out-years will 
shift to sustainment, which we estimate at approximately $2 billion 
annually. At last years Riga Summit, allies agreed to undertake a 
significant role in both training and equipping the ANSF. Allies have 
come forward with thousands of tons of equipment, weapons, and 
ammunition, and Allied forces are on the ground assisting in the 
training of the ANSF. We will continue to work with NATO Allies and 
other partners to share the burden for assisting the Afghans sustain 
this capability.
    The Afghan National Army (ANA) component of our program builds on 
past success. The ANA now has more than 32,000 trained and equipped 
personnel of an authorized strength of 70,000. Through the skilled 
leadership of the Afghan Ministry of Defense, the ANA has grown into a 
truly national army that represents Afghans of all backgrounds. 
Additionally, the Ministry deserves praise for its successful efforts 
to decrease absenteeism and to ensure new recruits are properly vetted. 
Afghan soldiers have fought bravely alongside international forces. 
Perhaps more importantly, the ANA has won the respect of the Afghan 
people and has matured into a highly regarded institution of the 
National government.
    The acceleration program will provide Afghan soldiers with more 
reliable and capable weapons, force protection equipment, medical 
equipment, and vehicles. Six battalions will receive specialized 
training to become rapid response Commando Battalions, focused on 
counterinsurgency missions. The program also will build capabilities 
that will allow the ANA to operate on a self-sufficient basis. The full 
force will include a small air corps, including both fixed and rotary 
wing aircraft, that will significantly increase the ANA's combat 
mobility. Additionally, the ANA will now include combat support units, 
including engineering units, military intelligence companies, and 
military police.
    We also recognize that a more robust and capable police force is 
required for the mission at hand. They have the task of holding ground 
won by the ANA and spreading the rule of law. The development of the 
police force lags behind that of the ANA. Building on the work of our 
allies, particularly Germany, the Departments of Defense and State are 
taking decisive steps to further develop the police. In fiscal year 
2006, $200 million was transferred from the ANA program to the ANP 
program to procure weapons and equipment for the police. We have 
developed a plan to train and equip an expanded force of 82,000 police 
personnel, which will build upon important strides made in the last 
year by the Ministry of Interior. The Ministry is in the final stages 
of completing reforms of its pay and rank system, which will have a 
major impact on morale and reducing corruption. Additionally, the 
Ministry of Interior is removing corrupt leaders from its ranks. We are 
helping to develop several specialized units, including the 
Counternarcotics Police (CNP-A), which will be accelerated to develop a 
force modeled on the U.S. Drug Enforcement Agency. The CNP-A will 
target drug traffickers and producers, improving Afghanistan's 
interdiction capabilities. This year and next, we expect to complete 
helicopter deliveries to Afghanistan to support the CNP-A's National 
Interdiction Unit, improve overall investigative capacities, and expand 
the reach of the CNP-A to remote regions. The Afghan Border Police 
(ABP) also will receive additional capabilities and equipment to 
improve its performance in securing the border--which will 
simultaneously help the Afghans reap greater benefits from customs 
revenues. This increased Afghan capacity to arrest major traffickers 
and remove corrupt officials linked to trafficking will be essential to 
helping the Afghan Government meet the threat posed by the narcotics 
industry.
    Improved security, however, will not by itself win the fight in 
Afghanistan. Afghanistan will need improved governance, better 
infrastructure, and greater economic development. Much has been 
achieved in this regard. The U.S. Army Corps of Engineers, Afghanistan 
Engineering District (AED), for example, has executed over $2 billion 
on various infrastructure projects. These included border crossing 
posts, ANSF barracks, and road projects. Between 2004 and 2006, 
commanders have used nearly $400 million of Commanders Emergency 
Response Program (CERP) funds to carry out critical reconstruction and 
assistance projects that provide immediate and highly visible benefits 
to the Afghan people. For example, in fiscal year 2006 $77.4 million of 
CERP funding was used for local and district level road construction. 
At the January 2006 London Conference, which launched the ``Afghanistan 
Compact,'' 64 donors pledged over $10 billion to assist in 
Afghanistan's reconstruction and development. As impressive as these 
figures are, however, the magnitude of the problem requires still more.
    In addition to addressing security and reconstruction within 
Afghanistan, we must remain actively engaged in the broader region. 
Every effort must be made to ensure Afghan and Pakistani cooperation to 
thwart violence in Afghanistan. Despite some indications of greater 
cooperation, cross-border movement by the Taliban remains a significant 
problem. We are working to build on the Presidents' tri-lateral dinner 
agreements from September by encouraging the planning and coordination 
of the agreed Pakistan-Afghan Joint Jirgas to address issues pertaining 
to the border areas. Secretary Gates and President Musharraf addressed 
many of these issues in their meeting in February. We will continue to 
work with Pakistan to bring order and security to the border areas. 
Further, we must work to ensure that other regional actors recognize 
the importance of a stable and prosperous Afghanistan as being in their 
own interest, and work towards that goal.
    The stakes in Afghanistan could not be higher, but we are working 
hard to set the conditions for success. In the near-term, we must 
respond assertively and effectively to the threat the Taliban and 
others pose as they seek to undermine the Government of Afghanistan and 
intimidate the Afghan people. For the Afghan National Security Forces, 
this will require our support and commitment to increasing their size 
and capabilities. In the longer-term, success in Afghanistan will 
largely depend on non-military factors such as improved governance, 
infrastructure development, and tangible progress in countering the 
threat of illegal drugs. NATO has dubbed this the ``Comprehensive 
Approach,'' meaning both military and reconstruction efforts must be 
employed to defeat the Taliban, rebuild Afghanistan, win confidence of 
the Afghan people, and develop the Government capacities. The people of 
Afghanistan have made clear their commitment to a future that is 
democratic and prosperous. They also realize the road ahead is full of 
challenges, and that they will need the sustained commitment and 
support of the international community to achieve their goals. The 
United States, along with our Afghan and international allies, must 
seize the strategic opportunities we now face--we must secure the 
tremendous gains we have made, and work together to set the stage for 
even more progress in the years ahead.
    Thank you once again for inviting me to appear before this 
committee. I look forward to answering any questions you may have.

    Chairman Levin. Thank you, Secretary Edelman.
    General Lute.

STATEMENT OF LTG DOUGLAS E. LUTE, USA, DIRECTOR FOR OPERATIONS, 
                      J-3, THE JOINT STAFF

    General Lute. Mr. Chairman, I do not have an opening 
statement, but we are prepared to respond to your questions.
    Chairman Levin. Thank you.
    We are going to have a 6-minute round here with this panel. 
I hope that will do the job because we have a second panel that 
we also want to spend significant time with.
    General Lute, General Maples, the Director of the Defense 
Intelligence Agency (DIA), testified here on Tuesday that it 
was the DIA's judgment that, despite absorbing heavy combat 
losses in 2006, the insurgency strengthened its military 
capabilities and influence with its core base of rural 
Pashtuns. Do you agree that the threat which is posed by the 
Taliban-led insurgency today is greater than it was a year ago?
    General Lute. I would, Mr. Chairman.
    Chairman Levin. Now, in terms of troop levels, General 
Craddock, who is our supreme allied commander now, reportedly 
recommended an increase in NATO troop levels in Afghanistan, as 
well as additional helicopters and transport aircraft. We have 
increased our troop levels, the United States has, and a number 
of countries have joined us. Britain, Poland, and Denmark have 
upped their commitment. But some NATO members have not 
fulfilled their earlier pledges and I am wondering if you would 
identify for us--maybe, Ambassador Edelman, you could take this 
one, either one--what are the current shortfalls in troop 
levels and equipment from NATO members that have not kept their 
pledges? Just those countries that have not met the pledges, 
give us the numbers? Either one can answer that if you have it.
    General Lute. Mr. Chairman, let me start. I think, first of 
all, you had basically the categories of shortages about right. 
There are some maneuver unit shortages, both maneuver units 
required in Afghanistan, but equally significant, Reserve units 
stationed outside Afghanistan but on alert to respond to crisis 
inside the country.
    There were also shortages in manpower for PRT's shortages 
in helicopters, and shortages in Special Operations Forces.
    So those are the four broad categories.
    Chairman Levin. Which countries have made pledges that have 
not been kept?
    Ambassador Edelman. Mr. Chairman, I am not sure that it is 
as much a question of pledges not being kept as countries not 
stepping up to meet the combined joint statement of 
requirements (CJSOR).
    Chairman Levin. If you can furnish that for the record, 
then. It is our understanding a number of countries made 
commitments that have not been kept. If that is not true, then 
that is, I guess, a little bit better news, not by much, 
because the need and the requirement is still there. But 
nonetheless, if you would supply it for the record what 
commitments, if any, have been made that have not been kept.
    Ambassador Edelman. We will go back and take a look at 
that.
    [The information referred to follows:]

    [Deleted.]

    Ambassador Edelman. Mr. Chairman, if I might, I think also 
at the Seville ministerial Secretary Gates pushed very hard on 
these issues and it may be that some members indicated at 
Seville they would do things that have not occurred yet. But 
again, I would be a little chary of saying it is an unkept 
commitment.
    Chairman Levin. All right.
    Director McConnell, our new Director of National 
Intelligence (DNI), told us that basically eliminating 
extremist sanctuaries in Pakistan's tribal areas is necessary 
to end the insurgency in Afghanistan. Do you both agree with 
that?
    Ambassador Edelman. Yes.
    General Lute. Yes, sir.
    Chairman Levin. Would it be correct to say that the global 
terrorist threat from al Qaeda will not be eliminated without 
ending al Qaeda's sanctuary in Pakistan? Do you agree with 
that, General?
    General Lute. I do.
    Ambassador Edelman. Yes, sir.
    Chairman Levin. Do you believe that Pakistan could do more 
to eliminate those sanctuaries? General?
    General Lute. I do.
    Chairman Levin. Mr. Secretary?
    Ambassador Edelman. Yes, sir, I agree they could do more. I 
think we need to bear in mind that Pakistan has made major 
efforts in the federally Administrated Tribal Areas. They have 
taken a lot of casualties over the last year and have had some 
successes. But it is an area of Pakistan that has never really 
been controlled by the Pakistani government nor by the British 
Empire before that, nor as far as I can tell by anybody going 
back to Alexander the Great. So it is an extremely difficult, 
challenging area and, while I think we do agree that Pakistan 
can and should do more, we need to bear in mind that they have 
already made some significant efforts.
    Chairman Levin. Recently a Taliban official captured in 
Afghanistan reportedly claimed that Pakistan's intelligence 
service was protecting Mullah Omar in Qetta, Pakistan. Do you 
know whether that claim is credible? General?
    General Lute. I have seen similar reports, Mr. Chairman. As 
for the details of those, we would probably need to go into a 
closed session. I think that the statements from the new DNI 
and from General Maples the other day pretty much framed that 
appropriately.
    Chairman Levin. All right. Did the British agreement with 
local elders in Musa Qala--am I pronouncing that correctly?
    Ambassador Edelman. Yes, sir.
    Chairman Levin. Effectively cede control over that portion 
of Helmand Province to the Taliban?
    Ambassador Edelman. I think, to be precise, I do not think 
it was actually a British agreement. It was a local agreement 
that the tribal elders made.
    Chairman Levin. With whom?
    Ambassador Edelman. With the provincial government, between 
the provincial government and the national government; but that 
the British did not object to.
    Chairman Levin. All right.
    Ambassador Edelman. They had an assessment of what the 
results might be. I think we have always been more skeptical 
about that and believe that in the final analysis right now the 
Taliban is violating the agreement and they are in the district 
capital.
    Chairman Levin. Does the Pakistan government agree that 
that deal has been violated by the Taliban? You say it has been 
violated. It is obvious it has been violated. We have elders 
that come pleading with our NATO folks to----
    Ambassador Edelman. I would have to check, but I believe 
that in Kabul people also feel that it has been violated. But I 
have to check specifically to see what the Government of 
Afghanistan may have said or not said on that subject, sir.
    There are two different agreements that people sometimes 
confuse. There is the Musa Qala agreement, which involves the 
Afghan government, and then there is the North Waziristan 
agreement which involves Pakistan.
    Chairman Levin. Right. Let me go back to the North 
Waziristan, and I confused them. Forgive me. The Pakistan 
government reached the agreement apparently with pro-Taliban 
leaders in North Waziristan ceding control of those areas in 
exchange for promises that cross-border attacks would cease. 
Since then, NATO and U.S. commanders have said that there has 
been an increase in insurgent attacks along those portions of 
the Afghan-Pakistan border.
    So let me now clarify my own question. Has the Pakistan 
government agreed that that deal was violated?
    Ambassador Edelman. I think certainly your characterization 
of it coincides with our own judgment, which is that there has 
been an almost immediate and steady increase of cross-border 
infiltration and attacks immediately after the agreement was 
reached. We have expressed over a period of time directly to 
President Musharraf and to others our skepticism and 
reservations about the agreement.
    I think we have had the Vice President recently talking to 
President Musharraf and Secretary Gates, and I think the state 
of it is that at a minimum President Musharraf would agree that 
the agreement has not been implemented as he intended it to be. 
But I think for further details we would either want to give 
you a classified answer for the record or maybe address it in 
closed session.
    Chairman Levin. I will close by saying if there is any 
reluctance on the part of the President of Pakistan to 
acknowledge that a deal which they announced has been violated 
to the detriment of Afghanistan, the detriment of America and 
everyone else who is trying to take on the terrorists that are 
using that border, it seems to me that would be pretty strong 
evidence that Pakistan is not doing everything that it needs to 
do. Indeed, if they cannot acknowledge what is obvious it seems 
to me that is such a beginning point for a Pakistan acceptance 
of their responsibility to act in that area.
    So we can save that for a classified session, but I would 
hope that the administration could be clear in its answers 
that, on this issue at least, that we ought to press Pakistan 
for at least an acknowledgment that the deal that they made has 
not worked out, in fact quite the opposite, that cross-border 
attacks have increased, insurgent attacks have increased, and 
that the agreement that they reached has not been--has not 
worked.
    So I would hope that you will give us a more thorough 
answer for the record both in classified and unclassified form.
    Ambassador Edelman. We would be happy to do that.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. All right. Senator Warner.
    Senator Warner. Mr. Chairman, I am going to defer to my 
colleague from Georgia, who has a schedule problem. I am going 
to be here throughout the hearing.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Senator Warner, for 
that accommodation. I appreciate it very much.
    Gentlemen, welcome, as always. Thanks for the great service 
you render to our country. General Jones, again it is a 
pleasure to see you and I echo what Senator Warner said: 
Strange to see you without that uniform and those stars on. But 
what a great American hero you are, and thanks for your great 
service and your commitment.
    Gentlemen, I had the privilege several weeks ago of 
visiting with Assistant Minister of Defense for Afghanistan, 
Mr. Moybullah, and we discussed the progress of the ANA and the 
area of training. He reiterated to me the importance of a 
strong commitment by the United States for a continuing period 
of time. At the same time, one of his priorities is to try to 
make sure that the Afghan forces are trained to the point where 
they are ultimately going to be able to take over the 
protection of their country, which we know is our ultimate 
goal.
    You discuss, both of you, in your written statements the 
importance of U.S. and allied forces in Afghanistan continuing 
to train the ANA and the police, and I am glad to see that our 
allies are stepping up to the plate in this area. I would 
appreciate your discussing that training in a little more 
detail. What is that training consisting of? How much progress 
are we making? What can we look for in the near-term as well as 
the long-term regarding the training of the ANA and the police?
    General Lute. Thank you, Senator. Let me, I think, start by 
trying to place this project, the creation of an ANA, in 
context. First of all, we are trying to do this in conditions 
that are very trying. The Afghans have almost no experience of 
a national army or any other national institutions. There is 
very little physical infrastructure on which an army can be 
built and on which it would then operate. We are also dealing 
with an illiteracy rate that is probably above 70 percent. So 
for example, to try to conduct classroom instruction where we 
try to build the noncommissioned officer corps or an officer 
corps, these are all inhibiting conditions that make the 
challenge significant.
    Nonetheless, as your report indicates, Senator, there has 
been progress. We are about halfway towards our goal for the 
end of 2008, which is an army of 70,000 Afghan national 
soldiers. We are growing a total of 14 brigades. These brigades 
will mostly be regionally-oriented and work in close 
cooperation with regional and provincial government structures.
    There are 46 Afghan battalions which today are either in 
the lead in operations or operating alongside our forces. So 47 
battalions is a sizable structure out there on the battlefield.
    Today I would argue that the ANA, even though it is still 
only emerging, is really the only true national institution 
that represents the government as a whole.
    With the police we have made more progress in terms of 
numbers, but I would argue that we lag behind in terms of 
quality and effectiveness on the battlefield. We are about 
three-quarters of the way towards our end of 2008 goal for 
82,000 police. But the police have not developed as quickly and 
not, candidly, received as much attention as they deserve, and 
therefore we have actually shifted resources recently from the 
ANA effort towards our support for the police.
    On the battlefield, these are good fighters. They are very 
hard, seasoned fighters. Afghanistan has been at war with 
someone for at least a generation. So they are experienced, 
they are committed, they are brave soldiers. We have had 
success in sustaining our recruitment rates. There is no lack 
of volunteers for the ANA and the police. Our retention rates, 
so those which we want to keep in the field beyond their 
initial 4-year commitment, is about 70 percent, which again is 
quite favorable. Recently we have made inroads against a 
problem which has plagued us and that is the absent without 
leave or the missing rate, the absent without official leave 
(AWOL) rate. In the last month's worth of experience, we have 
that down considerably, to only 13 percent. So that is not 
great. It is not yet satisfactory, but we have made 
improvements.
    I think the big challenges that lay ahead are really three. 
First of all, we have to build institutions. There has to be a 
training institution, there has to be a command and control 
structure, there has to be a finance structure, a supply and 
maintenance structure that supports this national institution. 
There have to be leaders that are grown that can sustain the 
progress that we make. Then finally, there have to be national 
institutions to which this army and police attach. So most 
prominently, I would argue that the police are reasonably 
ineffective until they are attached to a national law and order 
or justice structure of courts and prisons and so forth that 
really make the effects that they bring to a village or a 
district more permanent and more prominent.
    So by way of a short overview, I think that is where we are 
with the project.
    Ambassador Edelman. Senator Chambliss, if I could just add 
to what General Lute said. I think one of the things that we 
are trying to do in the relatively large supplemental request 
we have made for acceleration of the training of the Afghan 
national security forces is, first of all, to increase the end 
strengths both of the army and the police, so we have more 
folks who can get into the counterinsurgency fight. Then we 
have some specific things that will be done with that money to 
give them better arms to make sure they are not outgunned by 
the Taliban, that is to say assault rifles, howitzers, mortars, 
other kinds of weaponry; to improve their force protection, 
body armor, and armored vehicles; give them some rotary wing, 
mostly rotary wing but some fixed wing lift, so they have 
greater mobility, can get to the fight; to develop some 
commando battalions that can take on some of the 
counterinsurgency mission; and to develop some of the combat 
support, combat service support that they need to be able to 
operate independently over time, engineering units, et cetera. 
That is part of what we are looking at going forward.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Thanks, Senator Warner, I appreciate that accommodation.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, gentlemen, for your 
presence here. Good to see General Jones as well.
    In response to earlier questions about whether Pakistan 
could do more, I think you have both indicated that you believe 
that they could do more. Can you outline for us what steps we 
ought to expect Pakistan to take now to try and deal with the 
border areas, which are effectively safe havens and which 
testimony before our committee, General Maples, the head of the 
DIA, indicated that the insurgency has strengthened its 
military capabilities and influence and also its threat to the 
security to the west.
    What in particular should we expect the Pakistanis to do?
    Ambassador Edelman. First, Senator Kennedy, let me say that 
I think that part of the challenge that President Musharraf 
faces in the Federally Administered Tribal Areas and the 
Northwest Frontier Province is an insurgency problem as well. 
He has developed a counterinsurgency strategy to provide some 
economic and social development in this region, and we are 
working--it is something my Department of State colleagues are 
engaged in, but we are working with the Government of Pakistan 
to help make sure that effort is funded.
    He is looking as well to increase the capability of the 
frontier forces that he has, the local constabulary that has 
some relationship with the local inhabitants and therefore 
might have a better ability than units brought in from outside 
to help stop the flow of people across the border. The problem 
is this, people on both sides of the border are related by ties 
of kinship and it is not a very well-defined border, if you 
will. So we need him to step up and do more in that area.
    Senator Kennedy. I am just trying to find out what he ought 
to step up and do, what we are expecting, besides some economic 
development and reviewing of the troop strength?
    Ambassador Edelman. One thing that our President has helped 
promote with both President Karzai and President Musharraf is 
the idea of holding joint jirgas on both sides of the border 
with tribal leaders to get them engaged in this. That is an 
effort we continue to promote. It has not quite happened yet. 
It has been slower than we would like.
    Senator Kennedy. What are we prepared to do or what should 
we be prepared to do if he does not move in some of these 
areas? The areas you have mentioned are fairly modest, I must 
say, given the----
    Ambassador Edelman. There are others. I think there are 
others. We need him obviously to capture senior Taliban and al 
Qaeda leaders. The balance of effort I think we have seen so 
far has been much stronger on al Qaeda than it has been on the 
Taliban. We would like to see a similar level of effort in that 
area with the Taliban.
    Senator Kennedy. My question is what should be our policy 
if he does not do these things? You have outlined very modest 
steps for him to do. Now what if he does not do these things? 
What are available policy choices to us?
    Ambassador Edelman. I think the question always has to be 
in terms of what the real world alternatives are, and I think 
he has shown that he can take steps when we engage with him. I 
think we have really no alternative but to continue to work 
with him as best we can, to encourage him to do more. He has to 
face some difficult political choices at home and we have to 
encourage him to face up to those.
    Senator Kennedy. General Lute, how do we convince Musharraf 
and the Pakistanis that it is in their interest to be more 
responsive, to be more cooperative with the United States over 
any medium- or long-term? How do we convince them to take the 
steps? These are very modest steps that have been outlined that 
we expect, but we are very limited, according to this 
testimony, about what we can do about it if they do not take 
it. How do we convince Musharraf and the Pakistanis to line up 
with us effectively?
    General Lute. Senator, I believe that President Musharraf 
and the Pakistani leadership have no doubt that the al Qaeda 
dimension of this threat is a threat to them as well as it is 
to us. So they have the same attention on al Qaeda as we have.
    I think as you come down the scale of threats, though, to 
the Taliban and in particular the Taliban, with a capital 
``T'', the one which used to control Afghanistan, that the 
threat--there is not a clear and compelling shared 
understanding that the Taliban is as threatening to Pakistan as 
we believe it is and as we believe it is to Afghanistan as 
well.
    So below al Qaeda, we need to do more in terms of sharing 
intelligence, which we do routinely but obviously not yet to 
the point that it is compelling that the Taliban too represents 
a threat.
    Senator Kennedy. General, how do you respond to those that 
think that it is like putting your finger in the dike? We put a 
finger in the dike, and have tried to hold back the Taliban and 
al Qaeda in Afghanistan. There is a mixture about how much 
progress has been made. Some progress has been made. There is 
also the direct testimony from General Maples about the 
continued problems, increased suicide, other kinds of attacks.
    Some say, well, it is just a finger in the dike. Then they 
go over to Pakistan. They go into those border areas, and they 
enhance their own kind of capability. Unless we are going to 
have some kind of a regional effort in that area and convince 
Pakistan it is in their interest to line up with the United 
States, we are not going to get the job done. If you could 
comment on that.
    Then I would be interested also, as I understand Secretary 
Gates went to the Afghanistan and the commanders requested more 
troops, and we find the Brits are now taking troops out of 
Iraq. They are sending more troops there. Can you comment as 
well about what was requested and what we can expect?
    General Lute. Senator, to the first part of your question, 
I do not think that there is any question that, with respect to 
sanctuary for especially Taliban senior leadership in Pakistan 
today, in the border regions of Pakistan, is a major factor in 
the ability of the Taliban to be resurgent and probably quite 
active militarily this spring in Afghanistan. There is no 
question that that sanctuary exists and that it is a major 
asset for the Taliban.
    Now, if I may go back just a bit to your previous question. 
There are good signs of progress in coordinating operationally 
on the ground with the Pakistanis in the immediate area of the 
border trace itself. So, for example, we have given them 
radios. We have exchanged telephone numbers. We have a 
Pakistani officer in Bagram today at our U.S. headquarters. I 
was actually quite surprised to see this young fellow there. 
But he has a direct line to the Pakistani command structure.
    There is good along-the-border cooperation. What I would 
offer we could do operationally to begin to erode this safe 
haven is to extend that kind of cooperation--Pakistani, Afghan, 
NATO--deeper across the border into some of the areas that 
represent more secure sanctuaries for the Taliban, so the 
Miralee, Miram Shah, Qetta, Peshawar areas, which are not right 
along the border, but are tens of kilometers deep.
    So I think the border cooperation gives us a model on which 
we could build. We just need to extend it deeper into Pakistan.
    Ambassador Edelman. Senator Kennedy, there is an 
institutional expression of what General Lute just described, 
the Tripartite Commission between the NATO ISAF command, 
Pakistan, and Afghanistan, and we need to build on that to make 
it more effective.
    General Lute. Then as to your question, Senator, on force 
structure, recently the Supreme Allied Commander, Europe, 
General Craddock, General Jones's successor, has conducted a 
thorough review of the force structures available to NATO in 
Afghanistan and as a result of that he has asked for some 
increase in forces. The U.S. portion of that, that which he 
directed directly to us here in the Pentagon, was a total of 
three battalions. With the extension of the brigade of three 
battalions which Ambassador Edelman mentioned, coupled to a 
replacement brigade this summer, we will fulfill that three-
battalion commitment over the next 18 months.
    So we have been quite active.
    Senator Kennedy. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Warner.
    Senator Warner. Mr. Chairman, my colleague from Florida, if 
you would like to proceed, and then I will follow because I am 
going to stay.
    Mr. Chairman, it is very interesting that General Lute 
mentioned this report by General Craddock, the successor to 
General Jones. I think the committee would be desirable to have 
that report be available to the committee, as to his increase 
in force structure recommendations in Afghanistan.
    Chairman Levin. Thank you, Senator Warner. We will make 
that request. Can you pass that along?
    General Lute. We will. We will, Mr. Chairman.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Gentlemen, we welcome you both this morning and thank you 
for your willingness to speak to us. I continue to be 
concerned, Mr. Ambassador, with the poppy production and how 
that plays such a destructive factor in the whole effort that 
we are undertaking. Can you speak a little more to that issue? 
What efforts are under way to try to curtail it and what more 
can be done along those lines?
    Ambassador Edelman. Senator, I think we are all very 
concerned about this. It is a very difficult issue. Chairman 
Levin in his opening remarks talked about the increase in 
production that was noted in the U.N. report. I would say that 
that took place against a backdrop of almost tripling of the 
amount of area that had been eradicated from 2006 from 2005 and 
a very large increase in interdiction as well.
    So the scale of the problem is enormous. To put it in 
perspective, if you look at the percentage of the economy in 
Afghanistan represented by opium production, it was about 50 
percent. It is now down around in the high 30s, mid to high 30s 
percent.
    To just frame it for you, in Colombia, where we had for 
years a struggle with a country that was teetering on the brink 
of being a narcostate, cocaine was never that big a percentage 
of the Colombian economy. So we are facing an enormous 
challenge.
    I think it is important to understand that we do have a 
strategy that is quite broad as a government for dealing with 
this, that has five pillars to it. One is public information. 
Another is developing alternative livelihood, other kinds of 
crops that can be raised. Interdiction, as I mentioned. Law 
enforcement and justice reform, because we basically have to be 
able to stop not only the production but the transmission of 
the product, arrest the people who are engaged in the traffic, 
try them--prosecute them and jail them. Unless you have all 
those parts of this, the other part, which is the fifth pillar, 
eradication, will not really get you anywhere.
    I think we have done a number of things from the point of 
view of the DOD to try and support this activity. We are 
involved in helping the border management initiative, to set up 
a number of different border posts. The model was the one at 
Islam-Kallah in the west, but there are a number of others, 
where we try to bring together the different elements of the 
Afghan government to be able to deal with this and other 
challenges as well.
    We have been working with our colleagues in the Drug 
Enforcement Agency (DEA) on providing some helicopter support 
that they can use with the Afghan counternarcotic police. These 
are refurbished Mi-17 helicopters. We, I think, have six now in 
country. We have run into some problems, frankly, on getting 
them airworthy, that have been very frustrating, I know, to 
Director Tandy, my colleague at the DEA, but to us as well.
    I think we are on the cusp of being able to solve those 
problems and in the next couple of weeks get those helicopters 
flying so we can get the counternarcotics police a little bit 
more mobility.
    But the reality is this is going to be an enormous 
challenge. It is one that others in the international community 
have to step up to as well as the United States. There are 
other countries who have had the lead responsibility for 
different parts of this--the U.K. for the counternarcotics 
strategy, the Germans for the police training, the Italians for 
the rule of law programs. I think we are not as far along in 
all of those areas as we need to be, and we need to redouble 
our own efforts as a nation, focus them more intensively, I 
would say, on those areas that present the greatest challenge--
I would say right now it is Helmand and Kandahar for narcotics 
production--and understand that it is going to be a very, very 
long time. It is going to take a long time and a lot of money 
to deal with this problem.
    Senator Martinez. If I might follow up on that, which of 
our coalition partners, NATO partners, is in charge of economic 
development? Because it seems to me with the South American 
experience that that is the most effective of all of the above. 
You cannot really jail two-thirds of the population that 
somehow or another is involved in the trade.
    So it would seem to me that, while all those things need to 
be in place, that alternative crops and other economic 
development opportunities may be at the top of the list.
    Ambassador Edelman. No question, and I think there was some 
reference by Chairman Levin to the report that the CSIS 
released on Afghanistan over the weekend. One of the bright 
spots in that report, which was, I think, a fair and pretty 
sober account of what is going on, was that the economy is in 
fact improving, although it is not improving across the board 
and some of the benefits have not trickled down as far as one 
would like.
    But I agree with you that economic development is a key 
piece of this. I do not know that there is any one country in 
charge of economic development. It is really now a function of 
the so-called International Compact for Afghanistan, under 
which the Afghan government undertook to take certain steps in 
order to make reforms in its economy, some of which they have 
done quite effectively, in exchange for the international 
community providing assistance, I think I mentioned, about $10 
billion worth. But there are countries who on that score have 
not followed through on their commitments and, Senator Levin, 
if you would like we can get you a list of those who have not 
followed up on those commitments.
    [The information referred to follows:]

    The international donor community has shown, on the whole, a strong 
commitment to Afghanistan. The attached spreadsheet [deleted] provided 
by the State Department identifies the international donor community's 
multi-year pledges, commitments, and disbursements to Afghanistan, from 
the Tokyo Conference in January 2002 to the London Conference in 
February 2006.\1\
---------------------------------------------------------------------------
    \1\ The Afghan government is limited in its ability to 
comprehensively and accurately track all assistance flows. The 
commitment and disbursement data in the attached spreadsheet [deleted] 
the State Department provided, for instance was last updated in March 
2006. Further, we believe that some of the disbursement figures reflect 
``assistance in kind'' rather than monetary transfers.
---------------------------------------------------------------------------
    The chief problem remains the effectiveness of the disbursement of 
these funds. For various reasons related to security, bureaucracy, lack 
of capacity, logistical challenges, and political factors, donors have 
in some cases been slow to implement programs or failed to allocate 
pledges to specific projects.
    We support the State Department's work with our international 
partners to tackle these problems, improve donor performance, and 
increase coordination. Another mechanism that aims to improve donor 
effectiveness is the Joint Coordination and Monitoring Board, a joint 
Afghan and international community forum that meets in Kabul to discuss 
reconstruction efforts.

    Senator Martinez. Thank you. My time is up.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Bill Nelson.
    Senator Bill Nelson. Speaking of that, it just seems to me, 
having concentrated more recently on the cocoa production in 
Latin America, where we have had some success, particularly you 
mentioned with regard to Colombia, that at the end of the day 
we can do all we want in trying to eradicate, but one of the 
big things that we are missing is the education and the 
rehabilitation in our own population to lessen the demand, 
whether we are talking about cocoa here or heroin over there.
    I just want to make that editorial comment. We are spending 
a huge amount of money in our interdiction in Latin America, 
which is good and it is having some success. But are we 
spending the requisite attention to lessening the demand for 
these drugs through an education and rehabilitation program? I 
do not think we are. Anyway, I will pursue that in another 
forum.
    Mr. Secretary, do we have to have the approval of the 
Pakistani government in hot pursuit across the border?
    Ambassador Edelman. I think I would rather defer to General 
Lute on that, Senator Nelson, who can tell you exactly what 
arrangements we have on the border. I would note, of course, 
that Pakistan is a sovereign country. We do work with Pakistan. 
We have a base at Jacobabad and so we are trying to be mindful 
of their sovereignty, but I will defer to General Lute on the 
specifics of how we have worked it out on the border.
    Senator Bill Nelson. So the answer is yes?
    General Lute. No, actually the answer is no, Senator. All 
of our kill-capture, capture-kill, what we call direct action 
authorities in Afghanistan, really spring from one provision 
and that is that each commander under U.S. authority has the 
responsibility and an obligation to protect his forces and is 
free to strike against those demonstrating either a hostile 
act, caught in the act, or demonstrating hostile intent.
    The judgment here is on behalf of the on-scene commander. 
So if those conditions are met in Afghanistan--hostile act or a 
hostile intent--and the enemy in the course of this action 
attempts to flee across the border, and if this action is 
continuous, so it is not 2 or 3 days later, but it is the same 
action, then we have all the authorities we need to pursue 
either with fires or on the ground across the border.
    Senator Bill Nelson. What happens if the initial spotting 
of them and they are not in Afghanistan, but right across the 
border in Pakistan?
    General Lute. If they demonstrate hostile intent, so for 
example if just across the border inside Pakistan we have 
surveillance systems that detect a Taliban party setting up a 
rocket system which is obviously pointed west into Afghanistan, 
we do not have to wait for the rockets to be fired. They have 
demonstrated hostile intent and we can engage them, and by the 
way, we have.
    Senator Bill Nelson. What if we find, not the setting up of 
the launching of rockets, but the manufacture of rockets over 
into Pakistan?
    General Lute. The hostile act, hostile intent provision has 
a degree of imminence of the threat attached to it. So in this 
instance--first of all, these activities are not typically done 
right along the border, but rather more in the depth of 
Pakistan. Our recourse there would probably first be to turn to 
Pakistani authorities and share, as we say, target folders, 
giving them the evidence of this activity, and then making the 
bid that they should do something against it.
    Senator Bill Nelson. Therefore, if we wanted to strike we 
would have to get the permission under that circumstance?
    General Lute. That is correct, Senator.
    Senator Bill Nelson. Has Pakistan ever turned us down?
    General Lute. Senator, on this line of questioning, from 
here forward, we would probably need to go to a closed session.
    Senator Bill Nelson. Let me ask you, do we have to seek 
authority to go after Usama bin Laden in Pakistan?
    General Lute. Again, here we are into some very fine 
authorities. I am happy to answer your question, but we would 
need to go to a closed session.
    Senator Bill Nelson. Okay. Let me ask you, in another 
setting I had asked you about your observations as to the 
reliability of the Iraqi army. You want to give a similar kind 
of percentage answer on the reliability of the Afghan army?
    General Lute. Why not, Senator. The conditions are very 
different. The army in Afghanistan does not suffer the same 
sectarian challenges that we see in Iraq. But they have 
separate challenges that affect their reliability. One is 
simply the pay structure again. If you get paid--if you are in 
an ANA battalion in the south and your family is from the east, 
basically you have to go on leave to go feed and care for your 
family. So there is a sizable portion of the overall structure, 
say 100 percent, that is diminished by the fact that there are 
huge inefficiencies in things like the pay structure and so 
forth.
    The good news in Afghanistan, however, is that we do not 
suffer the sort of sectarian infiltration in especially the 
army that we face or that is a challenge in Iraq. So it is good 
news and bad news. On the one side, they are very much more, I 
think, committed to the cause and committed to their support of 
the Karzai government. On the other hand, Afghanistan is 
Afghanistan, so they still have huge challenges, which overall 
will diminish the strength of any one unit.
    Senator Bill Nelson. But like your answer to my question 
about the Iraqi army, you do not want to give me a percentage?
    General Lute. It is just more difficult in Afghanistan. I 
would say that you could subtract off the top of a unit's full 
manning about 25 percent of its strength due to these 
infrastructure inefficiencies, so the requirement to put 
soldiers on leave, for example, to take care of their families. 
So if they are 100 percent manned, I would say 75 percent as a 
rough rule of thumb. Of course, that varies widely across 
units.
    Senator Bill Nelson. My final question would be, if the 
Karzai government has to cede huge territories basically to the 
warlords, how are we ever going to know if we are going down 
the road to success or the road to failure?
    Ambassador Edelman. Senator, I think we need to start by 
recognizing that we are dealing with a country that is 
extremely poor. It has 50 percent the per capita GDP of Haiti. 
It is about 80 percent illiterate and it does not have a 
tradition of strong governance from the center. It has always 
been decentralized, local authorities who have ruled in various 
areas.
    So a lot of what people will say and what I expect you will 
hear from people in the next panel will discuss the 
difficulties that we have had in getting central government 
authority out into the provinces. One of the reasons we set up 
the PRTs was to try and help do that. But those PRTs, areas 
where there has been a vacuum, where there has not been a 
presence that is connected at the provincial level to the 
government, that is places where the Taliban has moved in, and 
you see that I think particularly in Helmand and Kandahar, some 
other places in the south.
    So a great deal of our effort, as both we and particularly 
working with our NATO colleagues, is to try and fill in those 
areas and put an emphasis on the non-military, non-kinetic 
parts of this, because that is where this ultimately is going 
to be won, not as a military effort. Part of our struggle with 
our allies--we are going to have a conference on 
counterinsurgency that we are co-sponsoring with our NATO 
colleagues in Germany at the end of this month, where we are 
going to bring a lot of the NATO countries in. We need them to 
step up and do what Secretary Gates asked them to do at 
Seville, which is have a comprehensive, across the board 
approach to this where they are not only providing elements to 
commit the CJSOR, fill the CJSOR requirements, but are taking 
on these other non-kinetic areas.
    So the answer to your question is we have to try and move 
greater governance and presence of the government into the 
provinces, and we have to not cede areas to the Taliban. But it 
is going to take time for that to happen, given the low base 
from which we start.
    General Lute. Senator, if I may, the means by which we try 
to extend the reach of the Kabul-based central government out 
to the provinces is of course our PRTs, these 25 teams that are 
out in some of the most remote, God-forsaken valleys on Earth, 
and trying very hard to enable the elected provincial councils 
to connect to the Karzai government. So we have a role in that, 
in the manning of the PRTs.
    Senator Bill Nelson. Thank you.
    Chairman Levin. Senator Nelson, thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I would like to follow up on Senator Nelson's question 
there and your response about the PRTs. Give us a current 
status of the ability of the coalition of nations working in 
that area to fully man those teams today. What percentage of 
those teams are manned and are up to, let us say, expected 
operational capabilities?
    General Lute. Senator, as I mentioned, there are 25 PRTs 
now, all working for NATO. So as the mission passed to NATO, 
these all work for NATO. 12 of those 25 are U.S. teams, so we 
contribute 12.
    Just to frame this, a typical PRT is about 100 souls and 
inside the U.S. teams there are typically one or two State 
Department specialists, if we are lucky an Agriculture 
Department specialist since the economy of Afghanistan is so 
keyed to agriculture, and occasionally we have a rule of law or 
law and order specialist as well. The rest of that team is 
largely U.S. military--civil affairs officers, psychological 
operations officers, protection teams, and so forth.
    So that small team of 100 is trying to influence an entire 
province.
    Senator Warner. I understand that. My question was, of the 
12 are they fully manned and fully operational?
    General Lute. They are fully operational, but not fully 
manned, and even when fully manned their manning is along the 
lines I just outlined. So for example, one or two State 
Department folks.
    Senator Warner. For example--I will certainly turn to 
Secretary Edelman here momentarily, but are the State 
Department positions being filled, the Agriculture Department, 
the Justice Department? Are they filled, General, of the 12 
teams?
    General Lute. No, Senator, not 100 percent.
    Senator Warner. How long have they been lacking in that 
number?
    General Lute. For most of this venture.
    Ambassador Edelman. Senator Warner, if I might.
    Senator Warner. Yes.
    Ambassador Edelman. For instance, I believe this is an 
accurate figure, but of the 12 U.S.-led PRTs I think only 7 of 
them have folks from the U.S. Department of Agriculture as 
agriculture experts. Of course, part of what our struggle is is 
that 80 percent of the population of Afghanistan earns its 
living from the land.
    Senator Warner. That is understood. Mr. Chairman, I would 
like to ask the chair to request of these two witnesses an 
accurate, up to date report on the 12 teams, what positions 
have been filled, what have not, and what is the expectation 
that these positions will be filled. This committee has taken a 
lead in trying to provide the legislative basis for our 
cabinet, U.S. cabinet officers and agencies to provide that 
manpower, womanpower.
    Chairman Levin. Can you give us that, up to date, PRT by 
PRT manning status? Senator Warner has indeed been the leader 
in this effort and others of course have a great deal of 
interest in it on the committee, but he has taken the lead. He 
has focused on this. It is a very important question. Give us 
that status report.
    Ambassador Edelman. We will be happy to get that to you, 
Mr. Chairman.
    Chairman Levin. Also you could give a little bit of 
direction over time. In other words, give us today's status 
report, but does that represent an improvement over 6 months 
ago?
    Ambassador Edelman. We can do that.
    [The information referred to follows:]

    [Deleted.]

    Senator Warner. When do we anticipate they will be filled? 
Because, to the credit of the President, he makes these 
pronouncements, which I support him--we are going to do thus 
and thus--and yet his bureaucracy is not moving at the pace 
that I think the President anticipated.
    Now, on the question of the relationship between Pakistan, 
the United States, and the other coalition forces, we do not 
live in a perfect world and I have been privileged to have had 
a long association working with Pakistan since I have been here 
in the Senate, and they have gone through a series of 
evolutions. But right now I think, under the leadership of 
Musharraf, they are doing the best they can, but the realities 
are there is a fragility in the political system in Pakistan, 
and Pakistan is a member of the nuclear nations. Should the 
Musharraf government fall, then we do not know what the 
structure of the replacement government will be.
    Therefore, I think we have to give him the benefit of the 
doubt when he says he is doing the very best he can to meet our 
requirements, because we certainly do not want a destabilized 
government and a government in Pakistan then that would have 
its finger on the trigger of these very lethal weapons.
    In Iraq today we are experiencing the growing 
proliferations of weapons which we can attribute--I use that 
word cautiously--attribute to sources in Iran. We see a growing 
number of improvised explosive devices (IEDs) employed in the 
Afghan arena. Are they of the same lethality as the ones that 
we are now experiencing in Iraq? What can you tell us and what 
is the attitude of Iran?
    We should lay the foundation, Mr. Ambassador, that Iran at 
the initiation of our operations in Afghanistan was a helpful, 
if not almost an ally, in undertaking the initial military 
phases. Could you characterize Iran's role today in the Afghan 
operation, and to the extent there is any linkage in the IEDs 
now being employed in Afghanistan to possible sources from 
Iran?
    Ambassador Edelman. I will be happy to respond, Senator 
Warner. If I could, before I do that, though, I would like to 
go back to your previous comments about President Musharraf 
because I think you have framed the conundrum that we face far 
more eloquently than I did. So I agree with you that the 
constraints within which he operates are the ones that you 
outlined.
    On Iran, I would just perhaps take issue with one thing you 
said. That is to say, I do not think one can completely 
describe Iran as a unitary actor with regard to Afghanistan. So 
the initial phase you described I think is accurate to the 
extent that there were certain elements of the formal Iranian 
regime, the ministry of foreign affairs, that worked quite 
closely together with us in the period of the Bonn conference 
and then subsequently under Ambassador Khalilzad's term of 
office in Afghanistan. But not all elements of the Iranian 
regime were as constructive in trying to stabilize the 
situation.
    I think you really see with Iran a kind of multivariate 
approach. They have a formal relationship of support for the 
Karzai government, but they continue to have ties to some of 
the former members of other groups that they had been involved 
with in the past. They also maintain some ties with particular 
ethnic populations in the west and central part of the country. 
They clearly would like to limit the influence of the United 
States and the NATO forces in Afghanistan over the long run.
    So I think it is a more mixed picture.
    Senator Warner. What we frequently ask in the Iraq 
situation, what is their long-term goal with regard to their 
current status, which is multiple in many ways, of influencing 
actions in Iraq. What is the comparable answer to the question, 
what is their long-term goal? What do they want to see 
Afghanistan become?
    Ambassador Edelman. I think they would like to see an 
Afghanistan where there were no U.S. forces, where the 
government was--I think they do have a common interest in terms 
of narcotics because they are a recipient and that is a problem 
for them. But I think they would like to see us out and an 
Afghan government more beholden to them and more subject to 
their influence, I think that is their ultimate objective.
    But on the question that you raise specifically about IEDs, 
I think we have seen a growth in both IEDs and suicide bombing 
in Afghanistan. I think Chairman Levin referred to that in his 
opening statement. I think the state of our knowledge is that 
it is not completely clear how those tactics, techniques, and 
procedures have come to Afghanistan, through what route or what 
mechanisms.
    I think, on the specific question about the lethality of 
IEDs, I would prefer to--and General Lute might want to say a 
word on this--get back to you either in a classified session or 
with a classified answer for the record.
    [The information referred to follows:]

    [Deleted.]

    Senator Warner. We have discussed in open session the 
linkage of facts that raise some clear indications that Iran--
the IEDs most lethal in Iraq are made with parts that appear to 
have been manufactured outside of Iraq and likely in Iran.
    Ambassador Edelman. That is correct.
    Senator Warner. Now, positive legal linkage remains to be 
done. But do we have a similar situation of weaponry now being 
employed, namely IEDs and perhaps others, in Afghanistan which 
can be attributed to sources of supply within Iran?
    General Lute. We do not have the body of evidence in 
Afghanistan as we do in Iran--in Iraq, rather. So the 
sophistication of the IEDs is in a different order of 
magnitude.
    Senator Warner. A lower level?
    General Lute. It is a lower level in Afghanistan as 
compared to Iraq.
    Senator Warner. Nevertheless, lethal.
    Last question. I would like to ask of our distinguished 
Ambassador Edelman here: on this question of poppies, I would 
like to have you reply for our record, why do we not look at 
what we call a set-aside program that we have utilized here 
from time to time in the United States? Other governments have 
utilized it. We simply pay the farmers the street value of that 
narcotic in London or Paris or throughout Europe a hundredfold 
times what that farmer gets for his crops.
    If you choke it off at the source and somehow convince the 
farmers, we are going to pay you what you get for that poppy, 
you turn it over, and take it out of the hands of the 
middleman. That is where the money is made.
    I would like to know why we are not more conscientiously 
trying to pursue those plans, which have worked in agricultural 
situations for other reasons, quite other reasons, in other 
countries.
    Ambassador Edelman. Senator Warner, it is a good and fair 
question. It is a difficult one, and we can certainly get you a 
fuller answer for the record. I would say that--and I note, I 
think it is in the CSIS report as well that they make some 
recommendations in a similar vein. I would say that we are 
wrestling with a couple of different issues. One is that, when 
I outlined the 5-pillar strategy we have for dealing with 
counternarcotics I mentioned that public information, 
education, is a big part of that. One of the things that 
President Karzai has invested a lot of effort into is trying to 
convince people that this is not an Islamic activity, that it 
is un-Islamic to grow poppy and to sell poppy and poppy 
products, for instance, opiates.
    If you start paying people for growing it, you are starting 
to create an incentive structure for them.
    Senator Warner. For not growing it.
    Ambassador Edelman. If you reward people who are not 
growing it, that is a slightly different question. That is 
something that there is I think a rewards program. It is a 
small one, and we are looking at whether that is something that 
ought to be increased.
    Senator Warner. There is a trail of death associated with 
this narcotic from the moment it is grown there, and death to 
our own military forces and those of the coalition, all the way 
along the path, and corruption.
    Ambassador Edelman. Agreed.
    Chairman Levin. Thank you, Senator Warner.
    The request on the PRTs from Senator Warner, if you will 
give us the manning levels of the American-led PRTs, would you 
do the same, to the extent it is feasible, for all of the PRTs?
    Ambassador Edelman. We can certainly do that. I would just 
note that, for the 13 NATO and other allied PRTs that are out 
there, the level of effort varies a lot with the capability and 
capacity of the countries.
    Chairman Levin. If you could give us PRT by PRT, to the 
extent you can do that, we would appreciate it.
    [The information referred to follows:]

    [Deleted.]

    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service to our country. As 
we ask these very difficult questions, we are always mindful of 
the service of our men and women in uniform and we appreciate 
so much and are so proud of their service.
    I think Senator Warner in proposing a farm bill for 
Afghanistan has hit on a very important point, and that is the 
economic value to producers is achieved through asking them not 
to pay--not to plant and not to grow, and the cost of that to 
our government would be considerably less in my opinion than 
the cost of the war. I know they are not interchangeable, but 
certainly as a part of our effort it would seem to me that, 
rather than eradicate, put people in jail and try to go through 
a justice system that does not exist in Afghanistan at the 
present time, we would just be better off to face the economic 
realities and move forward on that.
    I suspect what we are seeing here is the difficulty that we 
achieve for ourselves in trying to move toward what kind of a 
government we think suits our purpose versus what is endemic to 
a country. The first thing we want to do is establish a central 
government. Even in the midst of all the tribal and warlord 
governments, it seems to me that we want to move in and impose 
that kind of a government. Part of the problem we have is that 
we cannot continue to be the senior partner indefinitely. At 
some point the best we can hope for is to become the junior 
partner as they take over.
    Is that possible in the structure that we are dealing with 
in Afghanistan, the way we are doing it? Or should our approach 
be to work with the local leaders that have been the leaders 
for years, instead of calling them warlords? Is that our term 
or is that their term? Let me ask you that first, Mr. 
Ambassador: Is that our term or is that their term for their 
local type of government?
    Ambassador Edelman. I would have to defer to Dr. Rubin on 
specifically whether Afghans refer to the folks as warlords. I 
do not think it is purely our appellation.
    But I agree with the general thrust of your comment, which 
is I think we have to find a mechanism where we support the 
positive things that the Karzai government is doing, but also 
figure out a way to engage at the local level. Again, the PRTs 
are meant in some sense to be doing that and facilitating that 
more decentralized approach.
    On the question of how to deal with the counternarcotics 
piece, as I said, we are I think looking at this, but I think 
we want to be careful not to be creating a monetary incentive 
structure that actually would encourage people to grow poppy.
    Senator Ben Nelson. I think we have to be careful that we 
do not end up with that. But I think the economics that exist 
right now encourage them to do it or the amount of production 
would not be increasing.
    Senator Warner is right, the actual producer gets a very 
small part of the economic value of that crop, and it would be 
a lot less expensive for all of us to just pay them not to grow 
it, until we work with them, with the PRT, if we can get some 
Agricultural Department employees over there to help them come 
up with alternative crops.
    Ambassador Edelman. I agree, Senator, and I think Senator 
Levin, at the outset raised the question in his opening 
statement about whether there should be some military role in 
eradication. I think one of the reasons we have been reluctant 
to have the military take on the eradication role is precisely 
for the reasons you mention, which is that you are focusing on 
the person at the lowest end of the chain, the farmer, who is 
getting the least amount of benefit for this. In fact, not only 
is he getting the least amount of benefit; he is probably stuck 
in a debt cycle that keeps his family perpetually at the mercy 
of the traffickers.
    Senator Ben Nelson. If you do not have a justice system 
with a police force and able to do it, what is it we are 
accomplishing? I think I am one who considers the economic 
value of something as an important way to work with these other 
countries and their governments.
    For example, who set the reward for Usama bin Laden? Do we 
know?
    General Lute. Sir, that is called the Reward for Justice 
Program. It is run out of Department of State.
    Senator Ben Nelson. Then I keep asking the wrong Secretary, 
because I keep asking Secretary Gates if we cannot find a way 
to make the monetary reward work, because $25 million--is that 
what it is, $25 million?--does not seem to have gotten 
anybody's interest in Waziristan or anywhere else. Why do we 
not consider moving that $1 million a week, increasing it?
    Now, Secretary Gates and I have had a colloquy where we 
have had a little bit of fun about it becoming the lottery for 
Bin Laden. But it seems to me, put it on eBay, I do not care 
where we put it, but let us increase it a million dollars a 
week until there is a taker. Somebody in Waziristan will sell 
at some level. I do not care whether it is $50 million or $75 
million. Somebody will sell out, as someone sold out on Saddam 
Hussein's sons.
    So I think we are not always focusing on the economic 
reality of cutting our expenses by going to a more efficient 
and effective way to get support. American dollars, and growing 
their own crops, ultimately alternative crops, and get them out 
of the production of poppy, make a good deal of sense.
    It is also my concern--and I really do hope that we will 
take a closer look at how we work with local governments that 
may be different than anything we accept, rather than going in 
and saying that we are creating a democracy because we created 
a vote, the right to vote. The right to vote in a democracy 
involves a lot more. The right to vote is important to a 
democracy, but it is not the only element of a democracy.
    Can a democracy function without the civil justice system, 
the criminal justice system, a non-corrupt military, an 
efficient military, a loyal military, an efficient and non-
corrupt police force? If you do not have those, that 
infrastructure, governmental infrastructure, the vote is 
important, but it is largely symbolic if the reality is that 
you do not have a functioning democracy at the end of the day.
    Ambassador Edelman. Senator Nelson, I really agree with 
much of what you say. I want to be a little careful here and 
not----
    Senator Ben Nelson. What do you disagree with?
    Ambassador Edelman. No, I want to make sure I do not get 
out of my lane, because the rule of law programs are actually 
administered by our colleagues in the Department of State. But 
I agree, for instance, that when you have a nascent justice 
system that you should not overburden it with taking on all the 
tasks of enforcing the law in a culture and a society where you 
have lots of local informal justice systems.
    So whether there is some way to find a way to let those 
systems take care of lower level problems and focusing the new 
nascent justice system on things like prosecuting drug 
traffickers, I think is something we obviously have to look at. 
But to be fair, it is our colleagues in the Department of State 
who have the responsibility for that, not us.
    Senator Ben Nelson. I will save my other questions for 
them.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much. Senator Reed is next.
    Senator Reed. Thank you very much, Mr. Chairman, Mr. 
Ambassador, and General Lute.
    Mr. Ambassador, getting back to the PRTs, what are the 
authorized civilian positions in a PRT? Previous testimony 
suggests there is one or two State Department officials, one 
Agriculture, et cetera. Is that the authorized positions?
    General Lute. That is right, Senator.
    Ambassador Edelman. I think that is correct.
    Senator Reed. So the bulk by design are uniformed military 
personnel?
    General Lute. That is correct. I should add that of the 12 
U.S.-led PRTs, 11 of the 12 are led by military. One of the 12, 
in the Panshir Valley, is led by a very good State Department 
officer.
    Senator Reed. Mr. Ambassador, there has been a great deal 
of important discussion about the opium production. The CSIS 
report suggests that the eradication approach has failed 
because it was targeted at the poorest farmers, who essentially 
could not pay. What I am trying to get at is, unfortunately, 
usually corruption and opium production are inextricably 
linked. How complicit is the Afghani government in this problem 
and at what levels?
    Ambassador Edelman. I think the CSIS report makes the 
argument, I think fairly compellingly, that corruption in 
general is probably the most corrosive problem that the Karzai 
government faces, and it has been the one that has contributed 
the most to the decline in legitimacy. I think President Karzai 
has taken some steps to remove some corrupt officials. I think 
there is a sense that it has not been as persistent an effort 
and as an across-the-board effort as it ought to be. I think it 
is something we continue to discuss with him.
    We also have a new attorney general on the scene, Attorney 
General Sabbitt, who has made this a very persistent effort, a 
serious effort on his part to do it.
    I would be hard-pressed, Senator Reed, to tell you how 
extensive it is or to what levels it reaches. It is a very big, 
persistent problem which, I think, is the best way I could 
characterize it.
    Senator Reed. I think that is fair, Mr. Ambassador. But I 
think, given the centrality of the issue, I think we have to 
get a better handle on it, frankly, that we really do have to 
understand at what levels, how far up, because at a certain 
point it becomes decisive.
    Ambassador Edelman. I do not want to suggest that we do not 
do that. When we become aware of corrupt officials, I know it 
is an issue that gets taken up with President Karzai and other 
responsible authorities by Ambassador Neuman and other people 
as appropriate.
    Senator Reed. Let me raise another issue and that is, I 
understand that the Indian government is providing significant 
resources, which is a bone of contention with the Government of 
Pakistan for obvious reasons. Talking to Pakistan officials 
about Afghanistan, it seems their greatest fear is India, not 
the Taliban, not anything else. But as a result of the lack of 
cooperation, Indian relief efforts and supplies have to move 
through Iran, which is not the best relationship we want to 
encourage.
    To what extent can we talk to the Pakistanis about allowing 
the Indian support to Afghanistan?
    Ambassador Edelman. It is a good question, Senator Reed. 
First of all, it is an issue we have taken up. I myself have 
taken it up with Pakistani counterparts from time to time. It 
is, as you say, a very sensitive issue. For Pakistanis, 
Afghanistan has been regarded for some time as part of their 
strategic depth vis a vis India. So I think it is really very 
deeply ingrained in the strategic culture in Pakistan.
    Some of what we see in terms of persistent ties at lower 
levels that sometimes may affect the ability of President 
Musharraf to even implement those things that he has agreed to 
I think dates from that era and that view. In that sense, an 
Indian role in Afghanistan is seen in that light and therefore 
it is inimical to Pakistan's national security.
    So it is an issue that we do take up with them, because 
obviously India can play and should play a helpful role. I 
discussed it with my Indian colleagues when I was there hosting 
our under secretary level discussions in November, and I will 
be having a similar discussion with Pakistan in April and I 
suspect I will be raising that issue then.
    Senator Reed. I hope you do. I have the impression when I 
am traveling through Pakistan particularly, that they have a 
very real fear of being encircled by the Indians, which to most 
observers seems to be ridiculous. However, it is very real out 
there. Many of their policies might have little to do with 
Taliban, al Qaeda, or anything else, Karzai, et cetera; it is 
the old great game between the Indians and the Pakistanis.
    Ambassador Edelman. I think that is fair.
    Senator Reed. Let me turn to General Lute. General Lute, 
one of the problems with NATO is they have not provided all the 
forces. Another problem is the fact that some of these forces 
have significant restrictions on their operational capacities. 
Can you outline these problems and suggest ways we are trying 
to deal with them? Because forces on the ground if they cannot 
go to certain places and do certain missions are not 
particularly helpful.
    General Lute. You are right, Senator. We call these caveats 
in NATO language, and General Jones will be the expert in this 
room on NATO caveats as he has dealt with this for much more 
time than I have.
    There are really two varieties. One is what we call 
geographic or locational caveats, where a nation will say: we 
will provide forces to the NATO command: but these forces may 
only operate in a particular geographic region. So if the 
commander needs them, the ISAF commander needs them elsewhere, 
they are restricted from making that movement. So there is a 
geographic caveat.
    Then there are other caveats that fall in the category of 
missions or tasks allowed to be performed. So for example, some 
nations will provide military forces for PRTs, but those 
military forces are not allowed to move beyond that 
reconstruction and support role to conduct combat operations. 
So there are really those two varieties.
    Together they impose a huge inefficiency on the NATO 
commander. So for example, today we are over-resourced or 
overstructured in Kabul with combat forces, but understructured 
in Regional Command South, centered on Kandahar. But the NATO 
commander of both of these forces cannot balance the equation 
because of national caveats.
    Most of the attack, the assault, on caveats has taken place 
at SHAPE, so General Jones's former headquarters, General 
Craddock's headquarters today. It really comes down to national 
decisions on behalf of the 26 members of NATO.
    Ambassador Edelman. Could I add, Senator Reed, one thing on 
the caveat question, in addition to the caveats that General 
Lute outlined, I think we also have a phenomenon of undeclared 
caveats. I think General Lute was talking about those that are 
officially registered with NATO, but maintain, we have no 
caveats, but as a matter of practice will not in fact do things 
that would benefit the kind of flexibility that General Lute 
has been discussing. This has something that President Bush and 
Secretary Rice raised pretty forcefully at the Riga summit, and 
Secretary Gates raised it again, and Secretary Rice raised it 
at the January foreign ministers meeting in Brussels, and 
Secretary Gates at the Seville meeting of defense ministers in 
early February. So it is something that we persistently attack.
    Senator Reed. I appreciate that.
    My time has expired. Just a comment, and that is we have 
multiple problems there. If this corruption problem is as large 
as some might suspect, that could undermine all of our best 
efforts, and if we cannot get an effective force, not just 
numbers but an effective force, from NATO, that could undermine 
our efforts.
    I would expect--and I know you are, Mr. Ambassador and 
General Lute, going to take these issues up at the highest 
levels.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Warner. Would Senator Thune yield a minute? I think 
this issue of the caveats is so important. We talk about them 
here, but there are a lot of people that may be watching this 
hearing or read about it later or view it. Enumerate some of 
what ``caveat'' means, because I think Americans should 
understand it simply means that the American GI is undertaking 
a greater degree of risk than the other troops.
    Ambassador Edelman. I think in practice--and again I would 
defer to General Lute, who can--and General Jones can as well 
address it. But it means if, for instance, you have NATO ISAF 
forces in province X and you have a firefight going on 
somewhere south and you need a quick reaction force to go down 
there and help those colleagues in extremis, some countries 
have a caveat that says, no, I cannot leave wherever I am until 
I call home and talk to my national government in capital Y, 
whatever it is; or I cannot really do it because I am, as 
General Lute said, I am limited to being in, essentially in my 
PRT role, and I cannot take on a lethal role.
    Chairman Levin. Usually the role that they are allowed to 
act in is a safer role.
    Senator Warner. Much safer.
    Ambassador Edelman. I think that is a fair statement.
    Chairman Levin. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I appreciate that discussion because I was there in 
December and that was an issue that was raised by our 
commanders at the time by General Eikenberry, who was the 
commander in Afghanistan. It seems to me at least that this is 
an issue that we really have to get resolved, because otherwise 
our troops are increasingly at risk and those of our allies, 
because of these geographic, and some rules of engagement, type 
caveats that they are under. It makes it very, very difficult 
for us to accomplish the mission there.
    So I know that our State Department and our diplomats are 
working on that, but I guess I would just encourage you to 
continue to keep that pressure on, because that was clearly a 
problem that was raised.
    I have a question with regard to the poppy production. When 
we were over there, and of course the thing that they really 
lack in that country is a farm-to-market transportation system, 
which we take for granted in this country. We can get our 
products out. I was somewhat troubled to find out that we do 
not have over there--my assumption had always been that we have 
a lot of our assets from Department of Agriculture, other 
agencies in this country, that can help train the Afghan 
people, farmers in particular, in the techniques that we use to 
grow other crops. Their growing conditions are very similar to 
those in this country in places like where I live and you can 
raise wheat and soybeans and corn and those sorts of things. 
They do not do it. They raise poppies, obviously because I am 
sure the profit margin is there.
    But I also think it seems to me at least that we are not 
doing what we should be doing on the soft side of this 
equation, and that is bringing the assets to bear that would 
allow them to begin to move into these other areas of 
production. I heard we have two people over there, is all we 
have.
    Ambassador Edelman. I think it is seven, Senator Thune, but 
it is still not enough and I agree with that.
    You are right. I think part of the problem is there are 
inadequate roads and there is inadequate infrastructure for 
getting product to market. Most of the farmers there are 
subsistence farmers. Part of the attraction of poppy is not 
just the money, but that it is, as I understand it, easily 
transported and preserved. It does not spoil. You can roll it 
up in a ball, the opiate product, and carry it around in a sack 
for weeks on a mule. So it is a function of the kind of 
agricultural economics of the area as well.
    The point you raise is one, and I think General Lute would 
echo this, that has been a persistent frustration for all of us 
who have been engaged in this, because it is not completely 
under the control of the DOD. But I agree with the general 
proposition. We need more agricultural expertise out there and 
I think we need a better way to--I think there is a lot of 
untapped capacity in our own country in terms of the State 
agricultural extension services.
    I happen to have been an undergraduate at a university that 
had a rather good agricultural school and so did the Secretary 
of Defense, who has just come out of being president of a 
university that has a rather good agricultural school, and I 
think his sense, as well, is that the resources we have have 
not been adequately tapped.
    Senator Thune. I posed that question to him when he was in 
here for his confirmation, because I really believe that it is 
not just United States Department of Agriculture (USDA) and the 
Federal resources that we have. But private sector and, as you 
said, a lot of our schools, for instance, land grant 
universities like South Dakota State University and others, 
that have these expertises, that are not being effectively 
utilized to begin to transition that country from an economy 
that is dependent upon illegal type products and drugs to a 
legitimate farm economy.
    I realize it is an infrastructure issue partly, but I also 
think that we are not doing a good enough job comprehensively. 
We have the military piece of this with NATO at least somewhat 
addressed, but there are so many other parts of this puzzle and 
it just does not seem like we are doing an effective job on 
that.
    Ambassador Edelman. One of the things, Senator, that we 
have done, I think, is tried to use our money for the 
Commanders Emergency Response Program, to do a lot in the road-
building area, and I think for the reasons you just mentioned.
    Senator Thune. That is coming, and I know this beltway or 
this transportation system, this highway they are building 
around there, I think, is going to be helpful.
    We also heard when we were there that they expect a very 
bloody spring when it warms up and these organizations, 
terrorist organizations, get more active again. I guess one 
question I have, as well, has to do with that on the Afghan-
Pakistani border--and we visited Camp Salerno when we were 
there and there were a lot of guys who were out there on the 
front lines and fighting these fights in caves and the 
mountainous area on the border there--but that my impression 
has been that we had kind of fragmented the opposition, that 
you had the foreign fighters in the north, some Taliban, and 
then some other terrorist type groups on the southern border.
    But it seems to me that they are getting further 
integrated, that they are developing a communications system 
and that this opposition that we are facing there is becoming 
more lethal because they are more connected. I am just 
wondering, perhaps, what steps have we taken to disrupt some of 
those networks? It is a real concern in that border area, and 
partly it is a relationship between Pakistan and Afghanistan at 
the governmental level, and these agreements that have been 
entered into by the Pakistanis.
    But it also seems like there is a growing network there. 
They are becoming much more integrated, and that is, I think, a 
very concerning development.
    General Lute. Yes, let me just comment on that, Senator. I 
think you are right, there are--the threat in Afghanistan is as 
you described it, is threefold, starting from the north as the 
Hekmatyar network outside of Peshawar and sort of the northern 
part of the frontier region; in the center, centered on Miralee 
is the Hikanee network, which is a Pashtun-based network; and 
then further to the south, headquartered in Qetta, Pakistan, is 
Taliban.
    They are similar in a couple ways that are dangerous to us. 
First of all, they all rely on the support of the Pashtun 
people of that tribal area. As Ambassador Edelman mentioned 
earlier, the Pashtun, the demographics of the Pashtun people 
extend on either side of the Afghanistan-Pakistan border. So 
one thing that unites them there is the sort of common support 
base.
    The other is their sanctuary in Pakistan, as your question 
alluded to. They all move with relative impunity and operate 
with relative impunity within 30 to 40 kilometers, so 25 or 30 
miles, of the border, where in effect, the reach of the 
Pakistani government does not extend.
    Senator Thune. In terms of steps that we are taking to 
disrupt that, are there things that we can be----
    General Lute. The disruption inside Pakistan belongs to 
Pakistan.
    Senator Thune. Right.
    General Lute. Inside Afghanistan, we are able to take some 
steps and we have. So for example, we do not see Hekmatyar in 
the south. We do not see--and so forth. But without going into 
too much detail, there is some segregation of those threats in 
Afghanistan, but not effectively in Pakistan.
    Senator Thune. We need greater, it seems to me at least, 
cooperation from Pakistan in those ungoverned spaces along the 
border there.
    General Lute. That is right.
    Senator Thune. My time is up. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your service.
    I believe this is one of the most important priorities 
facing our country today from a national security perspective. 
Ambassador, I agree, I think--the words you used--the stakes 
could not be higher. I agree with that. This problem has been 
underemphasized for too long, and one of the ironies of the 
Iraq situation is that it has taken so much of our attention, 
so many of our resources, from a place from which we were 
actually attacked.
    A rough estimate of the disparity in the investment of 
resources is that over the last 3 to 4 years five times the 
amount of resources have been invested in Iraq as in 
Afghanistan. We have begun to correct that now. I can only hope 
that it is not too late. One of the things that we have seen, 
Mr. Chairman, in Iraq is that once the trend lines turn against 
us, once we squander an opportunity, it is difficult to turn 
around.
    So the situation we face now is that, as you both 
mentioned, the situation in Afghanistan is more difficult today 
than it was a year ago. Our intelligence services report that 
al Qaeda is reconstituting itself to a greater degree, so those 
are not moving in the right direction. The Pakistanis through 
the agreement they signed with the tribal leaders have kind of 
backed off from at least in part doing what needs to be done 
here.
    So my questions build upon Senator Kennedy's and Senator 
Thune's to a certain degree. That is, what do we do about all 
this? So I want to focus on Pakistan. You alluded, Mr. Edelman, 
in response to Senator Kennedy's question--he said, what 
specifically should we do. You mentioned redevelopment 
assistance. You mentioned trying to improve the capabilities of 
the border troops, which have been somewhat uncertain. Then you 
also said--and I think this is a quote--that General Musharraf 
needs to confront ``the difficult political choices.''
    Specifically what political difficult choices does he face?
    Ambassador Edelman. He has a situation at home where there 
is a certain amount of sympathy in some places for, if not al 
Qaeda, then certainly for people who are more Islamistly 
inclined and who----
    Senator Bayh. Do you refer to his public or do you refer to 
the Inter-Services Intelligence (ISI) and his military, or 
both?
    Ambassador Edelman. I think he faces challenges in a 
variety of different areas. He has--as I mentioned in, I think, 
my answer to Senator Reed, there are some deep historic reasons 
for concern about Afghanistan in Pakistan as part of the 
strategic culture there. So I think there are bureaucratic 
issues he has to take on, as well as political ones.
    Senator Bayh. By bureaucratic issues, are the ISI and the 
military supportive of being more aggressive in these tribal 
regions?
    Ambassador Edelman. I think it depends, and I would not 
want to go too far in an unclassified session, Senator Bayh, 
but I think a little bit depends on what level you are talking 
about. At lower levels I think it is harder for any 
bureaucracy----
    Senator Bayh. To get back to the General's point, is it 
true that they tend to view al Qaeda and the Taliban 
differently.
    Ambassador Edelman. There is no question that that is part 
of it.
    Senator Bayh. So they are more supportive of acting against 
al Qaeda, but not the Taliban, even though al Qaeda is 
receiving substantial aid and comfort from the Taliban?
    Ambassador Edelman. I think they tend to see the threats in 
a slightly different way than we do and do not see the tight 
connection which we do between the two.
    Senator Bayh. How tenuous is his political hold if he 
begins to make some of these tough choices? I mean, in some 
respects I understand the difficult situation he faces, but it 
is in some ways in his interest to make himself look somewhat 
vulnerable as an excuse for not taking more aggressive steps. 
So if he began to--if they abrogated the agreement, if he began 
to go back to be more aggressive in confronting these lawless 
areas, just how hard would that be for him politically?
    Ambassador Edelman. I think it is a hard judgment for me to 
make. I regret the fact that we do not have one of our intel 
community colleagues here to answer that question. I think they 
would be better equipped to do it than I am. It is a difficult 
judgment to make.
    I think what bears repeating is that President Musharraf 
has been a quite good partner in the war on terror. He has 
given us a lot of assistance in fighting this fight. It is 
difficult and complicated in Pakistan, and I was merely 
suggesting earlier that there are some issues that are 
unavoidably going to have to be addressed.
    Senator Bayh. I agree with that. He is in a tough spot. But 
we are in a tough spot.
    Ambassador Edelman. I agree.
    Senator Bayh. My question is what did we learn from 
September 11? I mean, if, as a friend of mine is fond of 
saying, whatever Musharraf faces, for instance the difficult 
choices and this and that, it is what it is. We have a lawless 
area. Al Qaeda is reconstituting itself. They are destabilizing 
a neighbor.
    You mentioned that they are a sovereign state. Well, 
sovereignty denotes some level of control, and if they simply 
cannot control that area what do we do? I mean, it seems to me 
this is fairly analogous to the situation in Afghanistan pre-
September 11, except that in that case we had a regime that was 
aiding and abetting al Qaeda. Here we have one that is trying 
to do something about it, but may be ineffective in doing 
something about it.
    So the bottom line to all of this is, if he is trying but 
just cannot get the job done what do we do? When do we allow a 
lawless area where al Qaeda is reconstituting itself to exist?
    Ambassador Edelman. Senator Bayh, I think I mentioned 
earlier in comments that I made in response to one of your 
colleagues that this is an area, first of all, that has never 
been under the control of, not just President Musharraf's 
government, but any government in Pakistan or under the British 
Raj going back in history. So I do think that the challenge is 
enormous.
    What I think our challenge is to try and help make him a 
more effective partner in working with us. We have tried to do 
that in a number of different ways. This committee gave us some 
authorities in the 2005 National Defense Authorization Act to 
do training and equipping. We have used some of those funds to 
help train his counterterrorist forces and, as I said, we are 
looking at----
    Senator Bayh. Look, I appreciate all of that. This is a 
complicated, difficult situation. But I will just cut to the 
bottom line here, which is we encourage him, we support him; 
what if, at the end of the day, he is just not able to do what 
needs to be done. So that the balance we have here is the risk 
of destabilizing Afghanistan on the one hand, combined with the 
risk of al Qaeda reconstituting itself and attacking our troops 
in Afghanistan and possibly launching terrorist attacks upon us 
once again--those are the risks on the one hand of not being 
more aggressive, versus the risks of destabilizing his regime, 
which has been helpful in some regards. They have nuclear 
weapons. We have to net that out at some point.
    Ambassador Edelman. I agree. I think it is fair to say that 
all of these issues you have raised--the threat to our troops, 
the plotting against our homeland that is going on in this 
area, et cetera--are issues that we raise regularly and 
frequently with the Government of Pakistan and directly with 
the President.
    Senator Bayh. My time has expired, but this eventually will 
face us with difficult choices, and it is difficult to explain 
to the American people how a group that slaughtered 3,000 
Americans, is attempting to attack us again, is attacking our 
troops in Afghanistan, is allowed a sanctuary and our reason 
for not acting more aggressively in dealing with that is 
because we are concerned about the political consequences in 
Pakistan.
    Ambassador Edelman. Senator, I just would like to go back 
and say one thing, which General Lute talked about, I did as 
well. I think you just drew the connection to al Qaeda and the 
attack on the homeland here on September 11. I think President 
Musharraf has been very persistently going after al Qaeda and I 
think that I would not want to leave the hearing with the 
impression that he has not. I mean, I think he himself has had 
two or three or maybe more attempts on his life by al Qaeda, 
which both indicates the degree to which they feel he is their 
enemy as well as they are our enemy.
    I think it is a question more here of the level of effort 
and balance of effort between the things that they have done on 
al Qaeda--they have taken a lot of casualties going after al 
Qaeda. In fact I think over 100 Pakistani troops have been 
killed in the last year or so going after al Qaeda.
    Senator Bayh. Then they backed off.
    Ambassador Edelman. Well again, I think one needs to draw 
the distinction between al Qaeda and Taliban in what he is 
doing. I do not know if General Lute wants to add.
    Senator Bayh. He took his troops back into the barracks, 
regardless of who they were fighting.
    General Lute. Fundamentally, the role of the Pakistani 
military changed with the North Waziristan agreement, which of 
course, was preceded by a similar agreement in South 
Waziristan, so two of the key provinces of the seven in the 
tribal area. In both cases the Pakistani military moved back 
into barracks essentially, based on the provisions of the 
agreement.
    The problem is that, while the Pakistani military abided by 
their part of the agreement, the tribal leaders, which were to 
have quelled the violence and stopped the cross-border attacks 
and so forth, have not.
    Senator Bayh. My time has expired. These are not naive 
people we are dealing with here. They had to anticipate some of 
these consequences. My interpretation of it was that they just 
could not take the pressure any more. Either his military was 
agitating because of the losses they were taking, or the 
political ramifications with an election coming up were too 
great. It kind of is what it is, but if they back off and the 
consequences flow from that, that could be reasonably expected 
and that means a greater risk to our country. Eventually we 
have to do something about it, or at least tell them we are 
seriously contemplating doing something about it, so we put a 
thumb on the other side of the scale and they get the troops 
back out of the barracks doing what needs to be done.
    Thank you, gentlemen.
    Chairman Levin. A 30-second add-on, because this gets to 
the question that I asked before. Senator Bayh, I do not know 
if he was here at the moment, but the refusal apparently of 
Pakistan even to acknowledge that that agreement has been 
violated, it seems to me, adds to the troubling nature of this. 
By the way, apparently under international law if you are 
attacked from an area which is not governed by the sovereign 
country next door there is some authority to go into that 
ungoverned area and go after the source of attacks against you. 
So this is not as though there is a prohibition under 
international law; to go into the ungoverned territory if that 
territory is the source of attacks against a sovereign 
neighbor, or the entity which that sovereign neighbor, 
including NATO, has authorized to do so, particularly when that 
entity, NATO, has been authorized by the Intelligence 
Community, through the U.N., to be there.
    I think the point that Senator Bayh is making is even more 
pungent in a way, if that is possible, to add to your pungency. 
I am not sure.
    Senator Bayh. I hope it is penetrating and not pungent.
    Ambassador Edelman. Those are fair points, Senator Levin. I 
would not take issue with those.
    Chairman Levin. To the cake that you baked, I just want to 
put a little additional frosting on it here.
    Senator Bayh. Thank you.
    Chairman Levin. It is a critically important point and I 
think we have to insist that, on this issue, we be given a 
clear answer by our State Department, probably, and the DOD 
whether or not we, authorized by Afghanistan, being NATO, and 
particularly where there is a U.N. sanction for a NATO 
presence, do not have authority under international law to go 
to an ungoverned area next door to go after the source of 
attacks against forces which are authorized to be in 
Afghanistan and to protect Afghanistan.
    Then to get into the issues which Senator Bayh has raised, 
it seems to me we need that opinion and we are going to ask for 
that opinion, following your lead, Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Ambassador, just one last comment. If the source of the 
difficulty here is political uncertainty within Pakistan and 
the Pakistanis' difficulty in making hard choices, what they 
need to contemplate is which is harder for them, them acting to 
do something about this or us acting to do something about 
this. That ultimately is what they need to get their minds 
around.
    Chairman Levin. Thank you both.
    Senator Sessions, we have been holding you up a few minutes 
with that colloquy.
    Senator Sessions. A very interesting discussion. I would 
agree fundamentally with the comments of my colleagues, and 
would like to ask you this Ambassador Edelman. Does the Defense 
Department and has the President, the Commander in Chief--do we 
have a clear policy that if bases are reconstituted in any way 
similar, even a fraction as significant as the ones in 
Afghanistan that were used as a base to attack the United 
States, that we will take some action to eliminate that?
    Ambassador Edelman. Senator Sessions, I think before you 
came in General Lute discussed the kind of rules of engagement 
that we do have for dealing with issues along the border. I do 
not think that the situation we face right now in the federally 
Administered Tribal Areas and the Northwest Frontier Province 
have risen to the level that you just described in terms of 
Afghanistan.
    Senator Sessions. Senator Levin pointed out the argument 
that it was consistent with international law when we responded 
against Afghanistan was either you are supporting these people 
or you are not assuming control over your country; either way, 
we cannot wait.
    Ambassador Edelman. I understand.
    Senator Sessions. Surely you are not unwilling to say that 
we will act to protect the United States' interests if there is 
a base that plans to attack us?
    Ambassador Edelman. I think the President has made it clear 
both by his words and his actions that we are prepared to do 
that if we have to do it to defend the people of the United 
States of America.
    Senator Sessions. That needs to be clear. I understand 
there is some consolidation there and also a lot of movement of 
people here and there, and they are not setting up so much 
permanently and it is hard to know, in that very huge area--the 
last time I was in Afghanistan I was impressed with how huge 
this area is, how remote and ungovernable it has ever been, and 
it is very, very problematic.
    But let me ask a couple of things. General Jones, it is 
great to see you. If I do not have a chance to talk with you, I 
am glad that you are looking mighty fine in that uniform, but 
you looked better in that Marine uniform, I have to tell you, 
we appreciate your service.
    You have mentioned in your statement your concern about the 
legal system. I have raised that in Iraq at some length. I just 
remain absolutely convinced, based on my experience as a 
prosecutor, that if you apprehend bad people and they are not 
tried promptly and in an effective way and if they are guilty 
they are not punished in a significant way commensurate with 
the enormity of their criminal act, then no government will be 
well respected.
    It seems to me, first of all, that that is not where--we 
are not nearly there in Afghanistan and we certainly are not in 
Iraq. I doubt that we have sufficient prison bed spaces for the 
criminals in Afghanistan. I know we do not in Iraq. So 
therefore that just poisons the whole relationship. If you 
arrest somebody--if you arrest 100 and 100 go out the back 
door, that does not work.
    I understand it is the Italians that have responsibility 
for that.
    Ambassador Edelman. Correct, Senator.
    Senator Sessions. With regard to our presence in the 
country, is it the DOD's responsibility to create a judicial 
system or is it our ambassador's responsibility? Who on the 
American side is ultimately responsible for ensuring we have a 
legal system?
    Ambassador Edelman. The responsibility for the rule of law 
programs resides really with the Department of State and the 
ambassador and his country team. It is the Department of State 
that has the resources, through the Bureau of International 
Narcotics and Criminal Justice, the INL Bureau, and some of the 
support is provided by the Department of Justice.
    Senator Sessions. Well, it is not getting done, right?
    Ambassador Edelman. We are not where we need to be, I agree 
with your characterization, Senator Sessions. In terms of rule 
of law, I think I mentioned that perhaps in the response, a 
couple of responses to questions before you came in.
    Senator Sessions. General Jones's note said he learned, in 
his written statement, that prosecutors are making $65 a month, 
whereas an interpreter for the U.N. makes 500 euros a month. 
That is even more than $500. That a top Afghan judge earns less 
than $100 a month.
    Ambassador Edelman. Absolutely.
    Senator Sessions. That tends to cause corruption. Low, low 
pay of law enforcement officials, would you not agree, leaves 
them vulnerable economically and tends to further corruption?
    Ambassador Edelman. Absolutely agree.
    Senator Sessions. How are we going to do something about 
it?
    Ambassador Edelman. We definitely need to do more in the 
rule of law side, as I said. But it is a little hard for me to 
answer because it is not in the province of the DOD to do this. 
It is others who have to do it. Part of the problem was, as you 
mentioned, there was an initial disposition to allow 
international division of labor and lead countries. We did not 
have the lead for rule of law. We are now taking on some of 
that in the DOD, I should say, because of the work we are doing 
on the Afghan National Police. We programmed about $200 million 
last year because we recognized that we were behind in the 
police side, that we were lagging, as General Lute said.
    We are just beginning to see some of the results of that 
come out now because that was a year ago, and we have now asked 
the Congress for a rather substantial increase in resources for 
the police.
    But you are quite right, the police are only one part of 
the system and if you have police who arrest people but then 
they cannot be prosecuted and tried and incarcerated, you do 
not get the full result. So we need to have the across the 
board effort.
    Senator Sessions. What I am going to tell you--this will be 
as plain as I can be--one of my growing concerns is that our 
effort is almost dysfunctional. We have been talking about this 
from the beginning in Afghanistan and the beginning in Iraq and 
no progress has been made. I believe--the only thing I 
personally have had experience with is law enforcement. I 
believe it jeopardizes our entire effort in both of those 
countries.
    Please, let us go beyond talking and somebody else's 
responsibility. If you want congressional support around here, 
I think we need to have our Government deal with some things 
that we know can be done. We can get these salaries up. We can 
add more bed spaces. That is not impossible. Would you agree?
    Ambassador Edelman. Senator Sessions, I do agree. I would 
say we have done some things and have made some progress, just 
not enough. We have done some--we have made some progress in 
rebuilding and rehabilitating some prison space in the 
Policharki Prison. We have done some work on training of prison 
guards, et cetera. So we have done some things, but overall I 
think we have not gotten to the place where we need to be.
    Senator Sessions. In Iraq I am convinced we are at least 
five to maybe ten times under the number of beds we need, and 
probably that is a similar situation. So we need not just 
incremental steps; we need a big step here.
    Ambassador Edelman. You and I have had a chance to discuss 
this on Iraq before, and I can tell you that your concerns have 
been registered loud and clear, and I think we are moving in a 
direction--and I think we are going to try and come and brief 
you about this. I think actually we have a briefing for the 
whole committee that is due. But I think we are moving towards 
a much bigger capacity of bed space to address many of the 
problems that you have raised.
    Chairman Levin. Thank you. Thank you, Senator Sessions.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    I would like to join other members of this committee in 
recognizing the presence of General Jones, a long-time friend 
and one of the fine military leaders of our generation. I 
cannot help but recall, given the subject matter of this 
hearing, that General Jones and I were having breakfast 
together in his dining room on the morning of September 11 when 
the word came in that--we first thought it was a missile that 
had hit the Twin Towers, the first of the towers. I have a 
tremendous admiration for all the service he has given our 
country. Great to see you again.
    I have been watching a lot of the exchanges here this 
morning. It seems to me that there are two areas that a lot of 
people have been throwing out ideas on. One is the drug issue, 
whether there are alternatives in terms of perhaps paying off 
farmers and this sort of thing, and the other is the issue of 
the sanctuaries. I think Dr. Rubin, who has been very 
perceptive in his comments about the overall nature of this 
drug problem, to start off with--and this is not a supply-push 
problem, quite frankly. This is a demand-pull problem. It is 
international.
    The situation that we face is that the markets are there 
and as long as the markets are there there are going to be 
people who are going to try to sell into that market. That is a 
reality I do not think we can overlook with respect to 
Afghanistan.
    Listening to this, I must say, Mr. Chairman, I have one 
concern that perhaps we need to work very hard to make sure we 
are seeing this problem clearly. I would like to back up a 
little bit. I was a journalist in Afghanistan in 2004. I was 
embedded. I was in a number of different places with the Army 
and the Marine Corps. I was in the squad level. I went out in 
the villages. Quite frankly, I think I was able to see a lot of 
things and absorb a lot of things that I would never be able to 
see from this point forward, given my present circumstances.
    On the one hand, we talk about the push from the Karzai 
government to say that growing drugs, selling drugs is against 
the tenets of Islam, and at the same time I can tell you on the 
ground, walking through every village that I walked through, 
every village I went through where I was with the First 
Battalion, Sixth Marines, they had an opium patch. They were 
growing poppies. Many of them had marijuana patches.
    Then, one of the most striking things that I saw that 
reflects the problems that we face was when I was up against 
the Pakistani border, very near where the helicopter went down 
last April actually, with an Army Special Forces unit in a 
compound where the Marines were providing security, and on the 
one hand, going to your comment, Mr. Chairman, about these 
sanctuaries and why we should not be going into these 
sanctuaries, this is incredibly imposing terrain, given the 
limited number of troops that we have and other things that we 
might be doing.
    On the other, in this compound, they were expanding the 
construction of this compound. There were Afghanis living 
inside the compound who basically had been loaned out by--we 
can put whatever ``lord'' we want on the front of it. Was it a 
warlord, was it a drug lord, whatever? But the individual with 
the power in that area, who was living across the river. They 
were being paid by our people. But when you look at where that 
individual lived and operated, as far as the eye could see were 
poppy fields.
    When you have that kind of intersection in another country 
between the power structure and the drug trade, it is very 
difficult to sit down, for me it is difficult, to see now from 
a distance how much of the increase in hostilities that we are 
seeing and projecting is due to a true insurgency and how much 
of it is due to reaction to things like anti-drug policies.
    I think it is very important for us to be able to clearly 
enunciate that if we are going to understand the military 
threats and if we are going to be developing policy. I think 
failing to address that reality can create inaccurate 
perceptions that we are reacting to and also just by its very 
nature can fuel corruption. We talk about corruption. We are 
concerned about corruption. But when you have a situation where 
people in a power structure because of the reality of the 
dominance of drugs in that region, they do not have a cultural 
hesitation or an ethical problem with being less than 
straightforward with the facts.
    That to me capsulizes the difficulty that I have right now 
in understanding where we need to go, and I would appreciate 
your comment.
    Ambassador Edelman. Senator Webb, first of all, I agree 
with you completely that a lot of this is driven by the demand 
signal. I think Senator Nelson mentioned that earlier. I think 
part of the thinking initially behind having an international 
division of labor was that the vast bulk of this opiate 
production as it is transformed into drug, heroin and other 
drugs, ends up in Europe. So I think the initial idea was that 
we needed to have the Europeans and in this case our U.K. 
colleagues step up and take the lead.
    I think we are now at a point where we do not want to allow 
those attempts to have an international division of labor 
hamper what we are doing and so we are trying to move out on 
our own.
    I agree with your concern that the military role in 
eradication could be as much fueling resistance and insurgency 
as not, and that has been one reason I think our colleagues at 
Central Command (CENTCOM) have been very reluctant to see the 
military take that on and why we have approached the 
eradication problem through governor-led eradication, having 
the Afghans take the lead in doing the eradication piece.
    But again, I think in the end, unless you have all these 
other pieces we were talking about just a few minutes ago with 
Senator Sessions--the rule of law, the ability to prosecute 
people--if you end up only focusing on the lowest end person on 
the food chain here, we are just not going to be successful.
    Senator Webb. My time is up, but I would just suggest that 
it is a much more difficult problem than simply keeping the 
military out of the eradication. It is a whole problem with the 
way that we are addressing that issue as compared to the 
reality on the ground. All these alternate programs that might 
take place are facing a time line that is pretty well 
downstream, while we have the reality, I was looking at it when 
I was even there saying, if we go after these guys on drugs--it 
was in the works in 2004 when I was there. If we go after these 
guys on drugs, the drug lords are going to stop their 
cooperation. They are going to do it in a way that is sort of 
below the waterline.
    It is a bit of a conundrum, but you do have the situation 
trying to figure out how much of the military challenge that we 
face really is from the Taliban, really is from terrorist 
elements, rather than just the obstructionism of people who are 
depending on their economy with the drug trade.
    Ambassador Edelman. It is a fair comment, Senator Webb, and 
I think we face elements of both because, as you say, it is a 
very, very complex set of circumstances out there. As a former 
ambassador to Turkey, I have thought a lot about the question 
of, since Turkey faced this problem as well in the 70s and 80s, 
how to address this. I at one point was talking in Kabul with 
Hykma Catin, who was a former foreign minister of Turkey and 
was the NATO Secretary General's High Rep for 2 years to 
Afghanistan. I asked Minister Catin what his thoughts were 
about the comparison between Turkey and Afghanistan. He said: 
``Well, first of all, we started from a way higher level of 
development in Turkey.'' He said: ``Second, it took a very long 
time and a lot of money.''
    Senator Webb. Thank you.
    Chairman Levin. Thank you, Senator Webb.
    Senator Clinton.
    Senator Clinton. I really appreciate Senator Webb's line of 
questioning because it really illustrates the continuing 
difficulty we have in sorting out what it is that is happening 
on the ground. What I am concerned about is whether we are 
losing time to be able to get that figured out. I think we are 
really at a tipping point in Afghanistan. I felt that when I 
was there last month.
    I hope that the administration's commitment to new troops, 
the effort to get NATO more focused, the hope that we can 
strengthen the Karzai government--all has to happen 
simultaneously in order to take on these challenges, whether it 
be a new offensive this spring or the growing strength of the 
drug lords.
    I want to just switch gears for a minute, though, because 
there are many things that have been spoken about that are very 
clearly difficult for America to influence. I want to talk 
about force protection for our forces and their quality of 
life, because we are putting more in, number one; and number 
two, I think we all believe the violence will increase. Whether 
we will see an explosion of violence that brings other elements 
of the Afghan society into it, as we saw after the bombing of 
the mosque in Samarra, I do not know. But clearly with the 
uptick in suicide bombers and some of the other activities that 
we are seeing, there is going to be a big push to escalate the 
violence.
    Now, earlier this month the 82nd Airborne Division assumed 
responsibility for the combat mission, from the 10th Mountain 
Division, which is based at Fort Drum in upstate New York. As 
subordinate units from the 82nd moved into position, 10th 
Mountain Division, 3rd Brigade combat teams were displaced to 
Jalalabad. What we are getting in reports back to Fort Drum--in 
fact a February 26 Fort Drum news release highlights the issue 
I want to discuss with you. There is a sergeant first class who 
is quoted by saying: ``The amount of people on the FOB and the 
amount of billeting did not coincide.''
    In other words, soldiers were living in a variety of very 
difficult and challenging living conditions. My concern is that 
with a buildup in an offensive capability coming from Pakistan 
and other areas within Afghanistan, whether we are also leaving 
our troops more exposed than they need to be, particularly in 
these forward operating bases.
    It is disconcerting to extend a brigade by 4 months, which 
is what we did with the 10th Mountain Division, and make 
further demands if we do not have some adequate planning and 
execution for their logistical needs. We are getting reports 
that we do not have enough bunkers, force protection barriers, 
checkpoint security systems, artillery radar systems, UAVs, and 
other critical equipment for expanding the mission, as I think 
the majority, certainly speaking for myself, agree we must do.
    The deficiencies in the GAO report highlighted equipment 
shortages in the CENTCOM areas of operations. I have referred 
to that earlier in hearings focused on Iraq because that was a 
constant source of complaint on my recent trip, and in my 
discussions with a lot of the soldiers and marines who have 
returned from their deployments.
    So I think that it would be incumbent upon you, General, 
and others, to make sure we do not have shortages in resources 
as we are adding more American troops, and that we have the 
services and logistics for the arriving troops. Again, I see 
this as an issue of force protection primarily.
    What I wanted to ask about is an article in today's New 
York Times that NATO and American forces knew there was a 
suicide bomber in the Bagram area before the suicide bomb 
attack that killed 23 at the main gate. Probably all of us have 
been at Bagram. We know the security checkpoints one goes 
through. We know, obviously, that the Vice President was there 
and that the timing of the suicide attack, some have said, at 
least contributed to the selloff in the stock market. Whether 
it did that or not, it was a serious and concerning incident.
    Apparently, according to this article, the Afghan police 
chief in the area said he had not been informed of the possible 
threat. I would like to ask the General first and then the 
Ambassador: Is there a reason why the Afghan police forces 
would not have been notified? What mechanisms exist for 
coordinating with Afghan forces when intelligence threats are 
received? How would you analyze what happened or what went 
wrong here?
    General Lute. Well, Senator, I am aware of the same reports 
today that you refer to. It is not usual that specific threats 
would not be coordinated with all elements that could address 
them, to include the Afghan National Police, or the Afghan 
police. I do know that there are force protection mechanisms in 
place around Bagram, and every place also we have Americans 
stationed, that feature close coordination with local 
officials. So this caught me a bit short as well, and I really 
cannot explain it today until I have some time to look into it.
    The other point, though, I would make is that, without 
crossing into the classified realm, is that with a suicide 
bomber roughly every third day last year in Afghanistan, so 
over 100 suicide bombers last year, most of them acted without 
any specific indications in terms of time and place. So while 
there may well have been a report, it was probably not specific 
in terms of time and location. Of course that does not lead us 
very far in terms of what we might do by way of prevention.
    Senator Clinton. I think it would be useful, General, to 
perhaps submit some additional information to the committee 
after you have conducted further inquiry.
    General Lute. Fair enough. We will do so.
    [The information referred to follows:]

    [Deleted.]

    Senator Clinton. Ambassador, do you have anything to add?
    Ambassador Edelman. No, I do not really, Senator Clinton. I 
saw the same story in the Times today. But like General Lute, I 
did not have any awareness that there had been a specific 
intelligence report. So we will check into it and get back to 
you.
    Senator Clinton. Let me also ask that, with the changes in 
command that have occurred recently with General McNeil, the 
overall senior NATO commander, with our ambassador in 
Afghanistan scheduled to leave, with our ambassador in Pakistan 
leaving, I think we are really going to regret the disruption 
of all these relationships. I have suggested to the White House 
that they at least try to get some permanent presence with a 
high level presidential envoy to move back and forth between 
Afghanistan and Pakistan. There is so much disagreement and 
misunderstanding, as well as different perspectives about what 
should be in the interests of both of these leaders and their 
countries.
    But I am just worried that what we are seeing is an 
unraveling situation that will accelerate because there are 
no--there is nobody there who has any ongoing relationship 
base.
    I am also concerned about the command changes and 
adjustments about lines of authority in Afghanistan. Again, 
General, maybe you could get back to us on this. Who authorizes 
targets to be bombed? Who gets priority for med-evac assets? 
What gets priority for artillery support or receives logistics 
in what priority?
    What rules of engagement are now actually in effect? We 
have had these problems with NATO countries sending in troops 
but having different rules of engagement. Where does that stand 
now, and who sorts out all of the potential disagreements among 
the various troops?
    General Lute. Senator, the 32,000 troops, to include 15,000 
Americans that are part of the NATO structure, so ISAF, are 
under one set of rules of engagement. They are approved by the 
North Atlantic Council. General Jones is the resident expert in 
this room in terms of the specifics, but all those troops 
operate under the same rules.
    What distinguishes some national contributions inside that 
structure from others is that some are assigned missions that 
do not take them into the combat realm. So there are some 
forces inside that 32,000 NATO force structure that conduct PRT 
missions and not combat operations. But they nonetheless 
operate under the same rules of engagement.
    As for all the list of different forms of support--casualty 
evacuation, close air support, logistics, and so forth--those 
are all today coordinated by a four-star NATO commander, who 
happens today to be a U.S. commander, General Dan McNeil, out 
of Kabul.
    Senator Clinton. Just one final follow-up. Are they the 
same rules of engagement that we had in Iraq prior to this 
latest escalation?
    General Lute. They are not precisely the same, but they are 
very close.
    Senator Clinton. There were many complaints about the rules 
of engagement, at least for our forces in Iraq, and they have 
been changed because of the escalation. I would like to know 
what the differences are.
    General Lute. The key difference in Baghdad, I think is the 
place in particular that you are citing, was that before this 
recent change in Azimuth in Iraq there were political 
constraints on locations inside Baghdad and some political 
party affiliations inside Baghdad which prohibited or at least 
inhibited our operations against them. Those have been removed, 
and we do not suffer that same problem in Afghanistan.
    Senator Clinton. Thank you.
    Ambassador Edelman. Senator Clinton, if I might also 
address some of the understandable concerns I think you raised 
about continuity with some of the changes. I think there are 
some mitigating factors. One is that General McNeil, of course, 
is going back for a second tour in Afghanistan. So although he 
is new to his current job and responsibilities, he does have a 
familiarity with the key players, like President Karzai and 
others. I think General Freakley is there for some period of 
time, the U.S. dual-hatted deputy. So there are some I think 
mitigating circumstances.
    Chairman Levin. Thank you, Senator Clinton.
    You have many follow-up items to attend to. One I want to 
emphasize has to do with that legal opinion that we will expect 
from you, Ambassador Edelman, and your general counsel at the 
DOD, as to whether there is any doubt that if there is a 
sanctuary in Pakistan, which there is, where there are al Qaeda 
training camps, which there are, that the United States and 
NATO have the right under international law to go after the 
source of those threats with the permission of the host 
country, Afghanistan, particularly in light of the fact that 
the United Nations has authorized NATO to carry out operations 
in Afghanistan.
    That border is a huge threat to us, and to the world. Al 
Qaeda is a growing threat and it seems to me we have to be real 
clear as to whether there is any doubt that we can go after 
those sanctuaries if Pakistan is either unwilling or unable to 
go after them.
    [The information referred to follows:]

    On April 18, 2007, the Department of Defense Office of General 
Counsel briefed Senate Armed Services Committee staff on the issues 
related to the Afghanistan-Pakistan border as requested by Senator 
Levin at the hearing and by Senator Warner by a follow-on letter.

    Senator Warner.
    Senator Warner. Yes. Thank you, Mr. Chairman.
    I would simply request the chair to expand our request to 
the witnesses to provide the status quo of the PRTs, that we 
have a similar, General and Secretary, status quo of the PRTs 
in Iraq, and what are the--because the committee is addressing 
that issue in both AORs. We need to know also what is the 
status of the participation of the Iraqi forces thus far in the 
Operation Surge? We get mixed reports back here, that in some 
instances they are showing up undermanned, some other anecdotal 
reports, largely from military people, who frankly email all of 
us--let us face it, we are on a real-time basis, fortunately, 
with our troops--that the Iraqis are not kicking down the 
doors, not going into the back alleys, not taking on the real 
tough aspects of this Operation Surge, and that it time and 
time again falls on the U.S. forces, whereas the President, 
with due respect to our President, said the Iraqis will take 
the lead and we are in support, basically, in this Operation 
Surge.
    Too much of the evidence that this Senator is receiving is 
to the fact that that is not being borne out in the actual day-
to-day operations. So I would ask, Mr. Chairman, that that also 
be done.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Thank you.
    So, Ambassador Edelman, you have some tasks ahead of you. 
We thank you both. Ambassador Edelman, General Lute, thank you.
    Ambassador Edelman. Thank you, sir.
    Chairman Levin. Let us now welcome our second panel.
    Senator Warner. We also should have the record reflect that 
Ambassador Neuman has discharged his responsibilities in 
Afghanistan with distinction. His father was ambassador to 
Afghanistan. He followed on and has done his very best, and I 
want to commend him. He frequently on his return trips came and 
visited members of Congress, Mr. Secretary, and that is 
important.
    Chairman Levin. Thank you both.
    Now let us welcome our second panel. We thank them for not 
only being here today, we thank them for staying with us. It 
has been a long morning, very valuable to us, and their 
testimony is also extraordinarily valuable and we are glad that 
they stayed the course, as sometimes is spoken of these days.
    As many of my colleagues have already mentioned, we are 
joined here today by General Jim Jones, the former NATO and 
EUCOM Commander; sitting beside him, Dr. Barnett Rubin, Center 
on International Cooperation. The committee is eager to hear 
the views of these witnesses.
    If I can single you out, General Jones--and forgive me for 
doing this, Dr. Rubin, but so many of us have had so many 
connections with General Jones over the years. I cannot even 
think that there is anybody in Congress or the executive branch 
who has not benefited from your wisdom, and I know that our 
troops have benefited from your leadership. They have been 
inspired by that leadership. They have benefited by that 
leadership.
    I think you look great whether you are in a Marine uniform 
or just in a suit like the rest of us. But in any event, we 
welcome you. I think this may be your first testimony after 
your retirement, and you will be called upon many other times, 
hopefully without such a long wait before we reach you.
    Dr. Rubin, we do not want to leave you out. We know of your 
background in this area. You have been the Special Advisor to 
the U.N. Special Representative of the Secretary General for 
Afghanistan. You are an expert on Afghanistan, as well as on 
conflict prevention and peace-building. You are currently the 
Director of Studies and the Senior Fellow at the Center on 
International Cooperation. We look forward to hearing from both 
of our panelists. We thank you for your patience.
    Senator Warner. Mr. Chairman, I would like to associate 
myself with your remarks. Of course, I have known General Jones 
for a very long time. I spoke earlier about my unlimited 
respect for this fine individual and how he continues to avail 
himself in the public interest, not as a paid public servant, 
but as a volunteer public servant.
    Dr. Rubin, I have had a chance to read over your testimony 
here and it is really remarkable. I am hopeful that we can 
address some of these issues in our questions here. But our 
distinguished colleague from Virginia, my junior Senator and 
good friend Senator Webb, I thought--I hope you will comment on 
his colloquy. He did not get to ask the question to you, but I 
will on his behalf, about his commentary and his perception 
with regard to the drug trade. Your prepared statement 
addresses in many respects some of the issues raised by Senator 
Webb.
    Chairman Levin. Thank you both. General Jones.

  STATEMENT OF GEN. JAMES L. JONES, JR., USMC [RET.], FORMER 
 COMMANDER, UNITED STATES EUROPEAN COMMAND AND SUPREME ALLIED 
                       COMMANDER, EUROPE

    General Jones. Thank you, Mr. Chairman, and Senator Warner. 
Thank you for asking us to be here. It is not the first time I 
have participated with Dr. Rubin, who I have enormous respect 
for, on the issue of Afghanistan and I am honored to be here 
with him today.
    I will be very brief because I have really enjoyed 
listening to everything that has been said. I am going to try 
to focus on just a few things to try to summarize what has been 
said, at least from my perspective. My frame of reference for 
Afghanistan goes back to virtually my entire assignment as the 
NATO operational commander and I was tasked with drawing up the 
initial operational plan that still governs the activity of 
NATO troops today.
    I continue to believe, Mr. Chairman, that our success in 
Afghanistan is eminently achievable. I believe that it will be 
determined by things other than military and I think we need to 
really understand the meaning of that statement, that 
Afghanistan, despite resurgent activity, despite IEDs, despite 
attacks, Afghanistan's destiny is that it will be solved by 
things other than military.
    I believe it can get worse. I believe there can be a 
military, much greater military challenge, but it does not have 
to. It does not have to if we do some things over the next 2 or 
3 years that absolutely must be done.
    I believe that what the international community does over 
the next 2 or 3 years will probably largely determine the 
probability of our long-term success. Much has been said this 
morning about the good things going on in Afghanistan and I 
will not dwell on them, but they include the elections of 2004, 
the relative stability of the country in the north and the 
west, the PRTs, the fact that NATO is present nationwide, 
having executed a gradual expansion first from the capital 
region, then to the north, then to the west and the south and 
to the east, and the fact that the U.S. is now within the NATO 
command structure.
    I would like to emphasize one thing that I did not hear 
being mentioned here this morning. There is a NATO mission and 
there is an Operation Enduring Freedom mission and the two are 
somewhat different. We need to understand that one, to use a 
familiar term, one is much more kinetic than the other. Both 
are extremely important, but they are different, and the entire 
operational plan allows for those differences.
    The emergence of the ANA has been a positive thing. I would 
say that we need to do more. More nations need to help us train 
the Afghan army. It is a U.S.-led pillar according to the G-8 
agreements. Another successful pillar has been the disarmament-
reintegration pillar led by Japan. Reconstruction, schools, 
roads, health care--80 percent of the Afghans have access to 
some sort of health care now. The tripartite council, policy 
action groups--there are many positive things that are going 
on.
    I need to focus on the few things that I have come to 
believe over the last few years that absolutely have to be 
tackled and are not being tackled effectively. I will say it 
very simply by suggesting that it is evident to me that some of 
our international structures that are present and in place are 
not functioning as well as they should be in order to bring 
about the desired end state.
    Specifically, when you have a problem like Afghanistan, 
where over 60 countries are present on the ground doing things 
in Afghanistan, 37 of which are troop contributing nations, 26 
nations of the NATO, a U.N.-led--all the legitimacy that one 
could want for an international operation of this kind, a U.N.-
run organization. Let us face it, the United Nations is in 
charge in Kabul of coordinating the international effort. G-8 
agreements that apportion responsibilities for specific aspects 
of reconstruction; the NATO present in full force with a 
special representative, both political and a NATO commander and 
the European Union present and in force. It leads me to wonder 
why it is that we cannot organize ourselves in such a way to do 
the four or five things at least, in addition to all the 
wonderful things that we are doing, that absolutely have to be 
done, that will largely dictate the future direction of 
Afghanistan.
    Specifically, I have said this before both in uniform, and 
I will continue to restate it outside of uniform because I 
believe it to be true. The Achilles heel of Afghanistan is 
largely found in the narcotics problem. It affects every aspect 
of Afghan life. It prevents the legitimate development of an 
economy. It corrupts institutions and people, and of late and 
most worrisome, there seems to be a greater connectivity 
between the funding for the various insurgencies and criminal 
acts around the country than ever before. If that is true, then 
we need to do something about it.
    Now, the second pillar that I would like to comment on is 
the pillar that we have talked about this morning on judicial 
reform. In the G-8 this is an Italian-led pillar. It is, in my 
view, on life support. I have seen very little progress in 
Afghanistan over my many visits in combatting corruption, in 
prosecuting criminals, and putting them in jail where they 
belong. I believe that this is something that can be tackled.
    The third pillar that I am concerned about is police 
reform. Now, all three of these pillars are led respectively, 
according to the G-8, by the United Kingdom for narcotics, by 
Italy for judicial reform, and by Germany for police reform.
    Now, one of the things that I have observed is that many 
nations have taken that agreement where those countries agreed 
to step up to the leadership and basically said, well, that is 
your problem. But my sense of success here is that those 
countries should not be held accountable for doing the entire 
work themselves, but they should be held accountable and should 
be responsible for coordinating the effectiveness of the 
international organizations, multi-governments, that can focus 
on the aspects of the problem.
    So in the case of narcotics, since we do not have that 
cohesion internationally that I have seen, we devolve into 
bilateral relations between countries who alternatively try to 
do things. But the coordination and the cohesion is lacking and 
the problem continues to get worse.
    I think that a fourth metric that I am concerned about in 
addition to those three pillars is the fact that the Pakistani-
Afghan relationship simply has to be resolved in a way that is 
beneficial for both nations. This is a problem, this is a 
regional problem, and it has to have a solution of some sort.
    As a NATO commander I had the first two meetings with the 
Pakistani military authorities, in Islamabad, actually, and 
once in my headquarters in Brussels. My colleague from Pakistan 
explained in great detail the terms of the agreements for the 
federally Administered Tribal Areas, and I can say that at the 
end of the conversation I told him that on paper, the agreement 
looks fine; if everybody does what they agreed to do, we will 
be just fine.
    The fact is, that has not happened. As we saw during my 
time, up until December of last year, increasing evidence that 
the border problem was getting worse, not better. In my final 
conversation with General Al-Huq, I mentioned to him that we 
will go into this winter recess, so to speak, where violence 
will go down and by spring time it will be very important that 
Pakistan and Afghanistan find a way to talk respectfully among 
themselves to solve this problem, along with the NATO forces on 
the ground in Afghanistan.
    I believe that we are going to see a spring offensive. 
There always is a spring offensive. I would be hesitant to 
characterize how violent it is going to be or how successful it 
is going to be because that is not knowable. But I think that I 
would be careful about making the Taliban 10 feet tall. I do 
not think the Taliban is 10 feet tall. The Taliban is present 
in the east and in the south, largely coming from the safe 
havens that they have been accorded. But it is not an 
insurmountable problem. There is not going to be a military 
defeat of NATO forces in Afghanistan.
    The opposition, which includes the Taliban, the remnants of 
al Qaeda, the drug cartel empire, the criminals, tribes, tribe 
on tribes, remnants of warlords, and people who operate in a 
lawless region, do have more access to funds and can in fact 
attrite the force, and the attrition. Their goal is simply to 
attrite the force at the rate of four or five a day, eventually 
causing political instability in the many capitals of nations 
who are troop contributing and gradually dismembering the 
coalition.
    This can be stopped and this can be halted if we do the 
things that will swing the people around to supporting the 
government. That is reconstruction, it is judicial reform, it 
is some sense of success trying to swing this narco-economy 
back away from its dependence on narcotics, and it is about 
providing a safe and secure environment, through having quality 
and quantity of police adequately trained and not corrupted in 
the hinterlands to protect the people.
    So I will close by simply saying that I am optimistic 
because I think the exit strategy that everybody wants is 
definable. I think it is visible. I think we know what we have 
to do. I do not want to oversimplify it. It is difficult. But 
the biggest challenge that I see is the proper organization 
that brings together the effects that we want in order to 
achieve the trends that we want, which the people understand 
and are waiting to see. If we can do that, then I believe that 
Afghanistan can turn in the right direction and we can be 
successful.
    But as long as we continue to talk about Afghanistan in 
purely military terms, without affecting the reconstruction of 
the country and those particular pillars that have been on, as 
I said, on life support, then we will have a longer problem.
    Thank you, Mr. Chairman.
    [The prepared statement of General Jones follows:]
       Prepared Statement by General James L. Jones, USMC, (Ret.)
    Mr. Chairman, Senator McCain, and members of the committee, I'd 
like to thank you for the opportunity to be here today, and for having 
this hearing. Congress remains focused on the North Atlantic Treaty 
Organization's (NATO) ambitious undertaking in Afghanistan. This 
interest and the continued support of the United States for this 
mission are absolutely essential to its success.
    It is a great privilege to be before you today, exactly a month 
since my retirement from active duty in the U.S. Marine Corps. Today I 
hope to offer the committee some insights into both the International 
Security Assistance Force (ISAF) mission, and the importance of 
sustaining NATO as it continues to perform valiantly in the execution 
of its mission, one that is vital to the future of Afghanistan.
    I appeared before the Senate Foreign Relations Committee in 
September 2006, also to discuss Afghanistan. Since then, we have 
witnessed some impressive successes in the ISAF's mission--to establish 
security and stability throughout the country. What has not changed 
since then is that ISAF remains NATO's most important and challenging 
mission. The Secretary General of NATO has repeatedly said that NATO 
cannot fail in Afghanistan; I agree with him completely on this point.
    NATO's operations are now carried out at greater distances and they 
are more ambitious than ever before. Thirty-eight thousand NATO 
soldiers are deployed today on three different continents performing a 
wide variety of missions--from Baltic air policing to a 15,000-man unit 
keeping a safe and secure environment in Kosovo, to our mission in 
Iraq, NATO's New Response Force (NRF) is the most visible expression of 
our increasingly global operational capability, one which provides 
capable strategic Reserve Forces and operational Reserve Forces on 
ready-to-move standby. That being said, no mission is more important 
than the one in Afghanistan; it is no longer only the United States' 
reputation that is ``on the line'' in Afghanistan, it is the reputation 
of the 26 nations that form NATO in the 21st century, the 11 non-NATO 
nations who also have troops on the ground, and the 23 others who all 
are contributing of their national treasure in one manner or another. 
In short, Afghanistan's fate is about us . . . all of us!
    There are currently over 34,000 forces in ISAF--with 15,000 
soldiers, sailors, airmen, and marines from the United States under 
NATO Command. The Alliance now has responsibility for ISAF operations 
throughout Afghanistan and works alongside an additional 13,000 U.S.-
led coalition forces of Operation Enduring Freedom. The 25 Provincial 
Reconstruction Teams (PRT) under ISAF are the leading edge of NATO's 
efforts for security and reconstruction, supported by military forces 
capable of providing necessary security and stability. ISAF's 
assumption of the entire security and stability mission in Afghanistan 
is testament to its growing capacity to engage in defense against 
common security challenges, including terrorism. What makes these 
reconstruction teams so effective is that they're empowered. Many, but 
not all, PRT commanders, usually at the rank of lieutenant colonel, 
have the independent authority and funding to bring about immediate 
effects in the region by building a bridge, opening a school, digging a 
well, turning on electricity, paving a road, and giving a sense of 
comfort and reassurance in the hinterlands where the government will 
some day be able to get out there and replace the PRTs. As Supreme 
Allied Commander, Europe (SACEUR) I witnessed what PRTs can do and I 
continue to believe that one PRT of up to 100 people is worth a 
battalion of troops in terms of all the good it can bring to the 
people. Proactive engagement is always cheaper than reactive 
engagement. I would have rather had 100 people dedicated to a certain 
thing every single day for 365 days, than a few thousand caveated 
troops for only 60 days.
    While I was assigned as SACEUR, I witnessed NATO's civilian 
leadership spend a considerable amount of time working to sustain a 
unity of purpose for the men and women of the Alliance, along with 17 
other troop contributing nations in Afghanistan. This is a tough job, 
but essential to sustaining the role of NATO in Afghanistan, and in 
other areas of operation as well. The military forces deployed under 
NATO are a visible and effective demonstration of NATO's collective 
resolve to project security in unstable regions and to deter, disrupt 
and defend against terrorism. ISAF continues to be a model of 
teamwork--a cooperation of comrades in arms working together to solve 
very difficult problems. I am confident that it will continue that way. 
In the months since the full transfer of authority to NATO last fall, 
opposing militant forces have tried to test NATO to see if NATO troops 
had the will and the capability to prevail when challenged. The answer 
was a resounding ``yes.'' Operation Medusa, last fall, not only 
defeated the insurgents near Kandahar, but helped establish the 
conditions for reconstruction and development activities that are 
moving the southern province forward.
    While ISAF is focused on establishing security and stability 
throughout the country, the international community's efforts in 
Afghanistan remain based on five main pillars: training the Afghan 
Army, Training the Police Forces, Disarmament of Illegally Armed 
Groups, Judicial Reform, and Counternarcotics. As SACEUR, I shared with 
many of you my belief that the ultimate success in Afghanistan depends 
not simply on the military. It depends in large measure on the efforts 
of the cohesive international community and the performance of the 
Karzai government itself. On that score I am not as optimistic as I 
once was. Collectively, the international effort need to ensure that 
military efforts are immediately followed up with the needed 
reconstruction and development activities in the short run, and success 
across all five pillars of reform in the long run. Development and 
reconstruction activities will help meet expectations of the Afghan 
people who have massively signaled in two national elections, one for 
president, and one for parliament, that they overwhelmingly understand 
and support this effort. Progress in education, judicial reform, 
agriculture, economic development, public services and health has to go 
hand in hand with providing a stable and secure environment. Afghan 
authorities and ISAF are now focusing on the key tasks of ensuring that 
reconstruction and development can take place in accordance with the 
priorities identified by the local authorities and the National 
government themselves; this is encouraging.
    Today the Afghan national army is about 30,000 strong and plays a 
pivotal role in the security of Afghanistan. The U.S. commitment to 
train an army of approximately 70,000 soldiers continues. NATO nations 
have been fielding NATO operational mentor and liaison teams. 
Currently, NATO has 15 such teams offered by troop-contributing 
nations, with 7 of them completely fielded and 17 more remaining to be 
fielded. The more rapidly NATO can build a capable and sufficiently 
robust Afghan national army, the faster it will establish conditions 
for success.
    When I last testified in September, it was my judgment that much 
more needed to be done to train the police force, as well as provide 
adequate numbers, equipment, training, and pay, coupled with the need 
to fight against corruption. ISAF's contribution to the Afghan national 
police training remains within means and capabilities. Sadly, this is 
work that still needs to be done.
    Judicial reform is not a NATO task in Afghanistan, but it is vital 
to everything that transpire in the country. Judicial reform remains 
one of the key areas where a progress must be made, as the courts and 
prosecutorial capabilities of the state remain distrusted, overly 
corrupt and resource starved. A major problem with judicial reform is 
the low pay of prosecutors, which makes them susceptible to corruption. 
I remember a meeting last year with the Attorney General of 
Afghanistan, who told me that prosecutors' average pay was $65 a month. 
By comparison, an interpreter working for the United Nations makes 500 
Euros a month. A top Afghan judge earns less than $100 a month--less 
than the cost to rent an apartment in Kabul; less than what the Taliban 
pay locals to support their military operations. This situation cannot 
be allowed to stand. Italy, as the lead G-8 nation of this effort, 
should be encouraged to do much more than it has to date.
    Proper training of police forces is also in need of a massive 
infusion of resources in order to provide security in the countryside. 
Germany is the lead G-8 nation for the coordination of this effort, but 
it has been inadequate to date.
    Afghanistan's most serious problem is not the Taliban, it is the 
alarming growth of its economic dependence on narcotics. It now 
permeates nearly every aspect of Afghan society and underwrites much of 
the violence we are fighting throughout the nation. It is Afghanistan's 
true ``Achilles' Heel''. Afghanistan does not need to become a narco-
state, but it is unfortunately well on its way to becoming one. The 
parts of Afghanistan which are currently producing the largest poppy 
crops are not those that are traditionally known for the growth of such 
product. The need to find the right means to ensure that farmers can 
economically grow and sell legal produce, in addition to developing an 
overarching and understandable way ahead in the overall fight against 
narcotics, is vital. Ninety percent of Afghan narcotics are sold in the 
European markets. The money returns to Afghanistan and fuels the IEDs 
and terrorism that kills and wounds our soldiers. In my opinion this is 
the number one problem affecting the recovery of the nation. The lead 
nation for this effort is the United Kingdom, and it is failing in 
developing and implementing a cohesive strategy to even begin to 
resolve a problem that will result in international failure in 
Afghanistan if not addressed.
    There remains a need for closer cooperation and coordination 
between NATO and the Government of Afghanistan, as well as those 
nations, governmental and nongovernmental organizations, involved in 
security sector reform. President Karzai has recognized this and has 
sought to create a policy action group to make decisions and coordinate 
across the spectrum of reform. This body is Afghan-led and chaired by 
the president. The Policy Action Group is designed to reach down to the 
provincial district and community level in order to provide integrated 
programs that implement policy and serve the interests of the Afghan 
people. I believe that this group has a good chance of succeeding and 
will contribute to the enhanced cohesion and coordination that thus far 
has been absent in the delivery of international relief.
    One word about Afghanistan's relationship with it's neighbor 
Pakistan. If the international community fails to impose it's will on 
the two leaders of the Nations in questions, it is quite likely that 
the border situation, left unaddressed, will continue to destabilize 
both countries. Metrics of behavior should be imposed on both national 
leaders in order to bring about a healthier relationship that is less 
focused on ``finger-pointing'' and more focused on effectively securing 
the vital border region. We will have much less to fear from a so-
called ``Spring offensive'' by the insurgent forces if some accords 
between the two nations can be reached and implemented. Thus far, I am 
not encouraged.
    The evidence before us is clear--over the past 5 years there has 
been solid progress throughout Afghanistan. However, efforts of the 
international community combined with those of NATO need to be 
increased in order to consolidate and expand the gains made throughout 
the nation to ensure long-term success. NATO's leadership role, as well 
as that of the United States remains crucial. With the continued 
support of the people of the United States for what is an 
internationally approved mission, and with the support of this 
Congress, I believe we can and will ultimately succeed in solidifying 
the conditions necessary for sustained peace and prosperity for the 
people of Afghanistan. There is an ``exit strategy'' for Afghanistan, 
the question before us is whether, as an international community, we 
can organize ourselves in such a way as to successfully reform those 
pillars of this new society that absolutely must be reformed. Time is 
not on our side in this worthy quest.
    Mr. Chairman, this concludes my remarks. Thank you for asking me to 
appear before this distinguished committee and I would be pleased to 
respond to any questions you might have at this time.

    Chairman Levin. General Jones, thank you.
    Dr. Rubin.

STATEMENT OF HON. BARNETT R. RUBIN, Ph.D., DIRECTOR OF STUDIES 
     AND SENIOR FELLOW, CENTER ON INTERNATIONAL COOPERATION

    Dr. Rubin. Thank you. Thank you, Mr. Chairman and Senator 
Warner. I too have benefited for several years from my 
association with General Jones, informal as it has been.
    I have a written statement and an article that I recently 
published that I submitted, and I will ask those to be put in 
the record.
    Chairman Levin. They will be.
    Dr. Rubin. What I thought I would do now is just briefly 
react to a number of the subjects that came up during the 
previous discussion. The first point is that we should be clear 
about one thing, which is we have accomplished many good things 
in Afghanistan. But, we are not in Afghanistan to accomplish 
good things; we are in Afghanistan to succeed. We are in danger 
of not succeeding, despite all those good things. So that is 
what I am going to focus on in my remarks.
    Second, as General Jones said, this is a fully 
international operation, and when we talk about ``we'' in 
Afghanistan we should not be talking solely about the United 
States Government, but about how we can make the multilateral 
system work much better. That includes all issues, including 
how to deal with Pakistan, because it is not only American and 
Afghan troops that are being killed by people coming across the 
border from Pakistan. It is the troops of all the NATO troop 
contributors, and the destabilization of Afghanistan affects 
the entire region and the entire world.
    Now, the first point. In general, one thing that I think 
people do not bear in mind adequately, one of the Senators 
mentioned that Afghanistan's legal per capita GDP was half of 
Haiti's. Afghanistan is the poorest country in the entire world 
outside of sub-Saharan Africa. Its level of economic 
development is comparable only to the five or six poorest 
countries in Africa.
    Now, that is a very slender reed on which to rely for 
global security. Its government is also, in terms of its own 
resources, the weakest government in the world. The tax base of 
the Afghan government is $13 per capita per year. So the 
government from its own resources can buy everybody in the 
country a case of Coca-Cola and have nothing left over for 
army, police, courts, education, health, and so on.
    So in order to succeed in Afghanistan, because as we have 
said we can fail on the military side, but we can only succeed 
on the civilian side, we need to have an effort at capacity-
building and support on the civilian side comparable to our 
military effort, which many people still believe has been 
inadequate.
    I was somewhat disappointed in the recent proposed 
supplemental appropriation, that it provides 80 percent for 
building security services and only 20 percent for economic 
development and reconstruction. Certainly when you go to 
Afghanistan, I hear as much about unemployment from average 
Afghans as I hear about the Taliban.
    Now, in terms of security sector reform, the reason that it 
is so out of whack is largely because of the United States' 
national caveats, which we often do not talk about. But the two 
biggest national caveats in this whole operation were those 
imposed by the United States from the beginning, which were (1) 
no nation-building and (2) no peacekeeping. Therefore, the 
United States Government was not willing to be involved in 
police, judiciary, counternarcotics, or disarmament, but only 
in building the army.
    We went to this lead donor system because of that and 
without a coordination mechanism. So if you build up the army 
but you do not have police and courts, the people in the 
country do not feel secure. They might, in fact, fear a 
military regime. So we are now way behind in the effort to 
build up a coordinated security sector in Afghanistan. I fully 
endorse what General Jones said about the police and the 
judiciary. I will not go into that any further.
    Now, with respect to Pakistan, I just want to emphasize 
that if we do not deal with the problem of the sanctuary for 
the Taliban and al Qaeda in Pakistan, we will not succeed in 
Afghanistan. But we should recognize that, as General Jones 
said, this is a regional problem. It is not a problem that 
Pakistan is pro-terrorist and tries to pretend it is anti-
terrorist. No. Pakistanis perceive the situation in Afghanistan 
in terms of their interests. Pakistan and Afghanistan have had 
antagonistic relations for as long as those two countries have 
existed.
    We helped Pakistan, with Saudi Arabia, build up a huge 
infrastructure to wage jihad against Afghanistan, against the 
Government of Afghanistan, when it was controlled by the Soviet 
Union. That infrastructure is still there and it is being used 
by the same people to fight against us, including the same 
people in the Pakistan military and intelligence on the ground 
level, who have been involved in this thing for 20 years and 
are still there on the ground level and have not changed, even 
if their orders have changed.
    Now, first what needs to be done, was the question I 
believe Senator Kennedy asked. The first point is the problem 
is not at the border. There is a problem at the border, a 
border which Afghanistan, by the way, has never recognized, the 
problem is behind that border. The problem is the command and 
control of the Taliban, such as it is--I would not want to 
exaggerate it; it is not the Pentagon, but--their logistics, 
their training, fundraising organization, recuperation, medical 
treatment, and so on, is inside Pakistan. The least credible 
thing that the Government of Pakistan says is that they have no 
intelligence about this, because we have been relying on them 
for intelligence about all these groups for 30 years now. 
Therefore when they say that, I find that American officials 
are far too credulous in believing them, and we need to say, we 
understand it may be difficult for you, but we do not believe 
you have no information. The intelligence cooperation needs to 
be much better and it needs to be much more honest.
    Second, politically, I believe some Senator asked what is 
General Musharraf's political problem. The problem is that 
President Musharraf is the head of the largest political party 
in Pakistan, which is the Pakistan military. The Pakistan 
military is not a military organization in the sense that we 
understand a military organization. The Pakistan military is 
the ruling organization in Pakistan. Musharraf is the president 
and he is the chief of army staff, and he is running for 
election this year.
    So let us think, what are the political alliances of that 
political organization in Pakistan, the military? The Pakistan 
military has always been aligned with the Islamist parties in 
Pakistan. Currently, the party that was founded and supported 
by President Musharraf is in alliance with an openly pro-
Taliban party, in the provincial Government of Baluchistan.
    Now, in anticipation of this year's upcoming elections, 
President Musharraf has been conducting discussions with other 
political parties. He has not been able to reach an agreement 
with any of the Pakistani civilian political parties that 
support our effort in Afghanistan. So he is going to be running 
either by himself or de facto again in political alliance with 
those jihadi parties.
    I think what this illustrates is that military rule in 
Pakistan is not the solution. Military rule in Pakistan is the 
problem. The way that Pakistan can build up a political base 
for supporting our effort is through a process of 
civilianization of the political system. All Pashtuns do not 
support the Taliban. There are Pashtun parties--I was in 
Peshawar and I participated in a big jirga of Pashtuns in 
November against the Taliban. There are political parties in 
that area who are opposed to the Taliban, who are supportive of 
the efforts of democracy in the area. But those political 
parties have always been in opposition to the military regime 
and they continue to be treated as opposition. So as long as 
the military is in control, it will be difficult to change the 
political orientation of those regions.
    Finally, Pakistan does have some legitimate interests in 
Afghanistan which we need to recognize, such as its concerns 
about India. General Jones recently published an article in 
which he suggested some ways of possibly addressing those. We 
can talk about that. Pakistan, part of its national security 
doctrine is that the United States is an unreliable ally. That 
is an article of faith. Therefore they are planning for the day 
that we leave, and they do not want to abandon the people that 
they relied on in our absence.
    A word about Iran. Iran and the United States had very 
compatible objectives in Afghanistan, but they do not have 
compatible objectives in Iran. Therefore Iran, while it 
supports the government that we jointly helped to establish 
there, it also does not want the United States to be completely 
comfortable there.
    But I met with some Iranian officials in Kabul in November. 
They have intelligence they would like to share with the United 
States about, in particular, al Qaeda and Taliban activities, 
and they are very frustrated that the policies of both Teheran 
and Washington prevent them from doing so. I know there are 
people in both governments, and certainly in the Afghan 
government, who feel it would be very beneficial if the U.S. 
and Iran could cooperate there.
    Finally, on narcotics, I always hesitated to say this in 
the U.S. Congress until recently, but I found a better 
reception than I thought. I think what Senator Webb was getting 
at is that there is a demand for these substances. The 
historical results of Prohibition are not very positive. It is 
the fact that they are illegal which makes them so valuable, 
which gives Afghanistan, which has a comparative advantage in 
the production of illegality, such an opportunity to make 
profits out of them.
    As long as they are prohibited substances and there is a 
demand, they will be produced somewhere, and they will be 
produced where there is least legality. As long as we keep 
prohibition in effect, however, we need to focus on the 
economic question and on interdiction. That is, we need to win 
over the farmers and attack the drug lords and warlords. I 
believe we should stop crop eradication because crop 
eradication prevents us from giving aid to farmers, because 
they do not allow you in the area. We should focus on 
interdiction. If there is a military role, it would be high-
level interdiction and getting high-level officials who are 
involved with drug trafficking out of the government, while we 
flood the area, the rural areas of Afghanistan, with the type 
of agricultural assistance that I believe Senator Thune was 
talking about earlier.
    I will leave it at that. Thank you.
    [The prepared statement of Dr. Rubin follows:]
              Prepared Statement by Hon. Barnett R. Rubin
    The United States missed an opportunity to stabilize Afghanistan 
and isolate al Qaeda and the Taliban after the tactical military 
victory in 2001-2002. The failure to invest adequately in either 
security or reconstruction and the diversion of United States 
political, intelligence, military, and financial resources to Iraq left 
the Afghan government unable to satisfy popular expectations for 
security and development. This neglect led neighboring countries to 
conclude that the United States was not serious about success in 
Afghanistan but gave priority to other objectives. Hence they hedged 
their bets by continuing to support their clients in Afghanistan.
    The administration's fixation on Iraq and Iran led it to neglect 
the development of greater threats to the United States and the world 
within Pakistan, which the administration is addressing only belatedly 
and with half-measures. As a result, the United States and North 
Atlantic Treaty Organization (NATO) now have more military forces in 
Afghanistan than ever before, expenditure on assistance to Afghanistan 
is higher than ever before, and yet both the Afghan government and the 
international forces supporting it are in a less advantageous position 
than at any time since the overthrow of the Taliban.
    As former NDI John Negroponte testified to the Senate Select 
Committee on Intelligence on January 11, the most serious threat to the 
United States is the reconstitution of the al Qaeda leadership and 
headquarters in a joint Taliban-al Qaeda safe haven in Pakistan. The 
result is a burgeoning insurgency in Afghanistan and Pakistan that 
threatens the joint effort of the United States, United Nations, and 
the entire international community there. Pakistan, not Iran, has been 
the source of rogue nuclear proliferation and aid to terrorism that is 
directly targeting United States and allied troops as well as Afghan 
troops and civilians with IEDs, rockets, and suicide bombers. Pakistan 
needs to do much more, but its leaders are correct when they observe 
that they are now being pressured to deal with the consequences of 
negligent policies of the United States.
    In the coming months we can expect to see the insurgency launch 
attacks on both military and civilian targets in Afghanistan. The 
insurgency's leadership and logistical bases are largely in Pakistan, 
but it can operate freely in large parts of Afghanistan. As United 
States and NATO spokesmen say, the Taliban and other insurgents do not 
constitute a conventional military threat to NATO or to the Afghan 
government. They do not need to constitute such a threat in order to 
achieve their objective, which is to undermine the legitimacy and 
credibility of the Afghan government to the point that the 
international presence in support of that government becomes untenable. 
The recent report by the Center for Strategic and International 
Studies, as well as other public opinion surveys, support the 
conclusion I had drawn from my own observations during 4 visits to 
Afghanistan last year, the latest of 28 total visits since 1989, when I 
first entered the country with mujahidin resistance fighters. All 
indicators show that support for and confidence in the government and 
the international presence has rapidly deteriorated in the past year as 
they have proven unable to protect the security of Afghans from the 
insurgency or to curb the safe haven the insurgents enjoy in Pakistan. 
Failure to do the latter, in particular, seriously undermines the 
credibility of the United States.
    Many other factors, such as a perceived increase in crime, abuse 
and corruption by the police and judiciary, poorly conceived and 
incompetently executed counternarcotics policies, and extensive waste 
and mismanagement in the underfunded reconstruction program also 
contributed to this deterioration. This loss of confidence does not 
translate directly into support for the Taliban, whose disastrous 
policies, especially their alliance with al Qaeda, Afghans do not want 
to return. But the loss of confidence does translate into reluctance to 
defend the government and to comply with its directives, as in 
counternarcotics.
    U.S. policy discussion focuses excessively on military questions 
such as the number of troops and the need to end national caveats of 
NATO troop contributors. The original and most damaging national 
caveats were those imposed on our own forces by the Bush administration 
at the start of the operation: no peacekeeping and no nation building. 
As a result criminalized armed groups gained a hold on power in much of 
the country, and Afghans have not seen the expected improvements in 
security or their own well being. The Afghanistan Compact, which 
constitutes the internationally agreed framework for assistance to 
Afghanistan, places equal emphasis on security, governance, and 
development. From the highest government officials to the most humble 
illiterate laborer Afghans emphasize that the most urgently needed 
measures are ending the Taliban's external sanctuary, reforming the 
police and judiciary to curb corruption and abuse, and investing in the 
economy to create licit employment.
    Two major issues further threaten success in Afghanistan: conflict 
with Iran and counterproductive counternarcotics policies. Any 
confrontation between the United States and Iran could have disastrous 
consequences for Afghanistan. The United States and Iran cooperated 
closely both on the ground and diplomatically in order to remove the 
Taliban and support the United Nations-led process. Iran has 
contributed to the reconstruction and stability of the country. 
Afghanistan enjoys very favorable trade and transit relations with 
Iran, which are vital for the country's economy. Iran has lost more 
soldiers and police than any country in battling drug traffickers 
coming from Afghanistan. Iranian officials with whom I met in Kabul 
last November expressed alarm at the resurgence of al Qaeda and the 
Taliban and argued that the leaderships in both Tehran and Washington 
were damaging their national interests by failing to cooperate against 
this common foe. They had intelligence data they wished to share but 
were unable to do so because of the policies of both countries.
    Finally, counternarcotics policy in Afghanistan has the potential 
to drive strategic parts of the population into the arms of the 
Taliban. Let us be clear on what the purpose of counternarcotics policy 
in Afghanistan is: it is to reduce and ultimately destroy the flow of 
illegal funds to corrupt officials, insurgents, and terrorists. It is 
not to end the production and consumption of illegal drugs in the 
United States or Europe. It is the height of self-deluded folly to 
suppose that if the richest and most powerful countries in the world 
cannot end drug trafficking at home with all of the resources they have 
directed against socially marginal criminal groups, they can instead 
solve it in Afghanistan, one of the world's six poorest countries with 
one of the world's weakest states, where drug traffickers control many 
of the levers of power.
    The eradication of the peasants' crops drives villagers into the 
arms of the Taliban and warlords, while actually enriching the 
traffickers. The traffickers benefit from increased prices and use 
their oligopsonistic control of the market to shift cultivation around 
the country and increase the volume planted to compensate for 
eradication. Crop eradication also provokes armed resistance that makes 
it impossible to deliver aid for alternative livelihoods where it is 
most needed. The expansion of poppy cultivation in Afghanistan is thus 
far the main result of our counternarcotics policy.
    Meanwhile, major traffickers and their political protectors, many 
of whom received millions of dollars in cash from the Central 
Intelligence Agency in 2001 and 2002, continue to enjoy nearly complete 
impunity. To Afghans our counternarcotics policy looks like a policy of 
rewarding rich traffickers and punishing poor farmers. A 
counternarcotics policy that served the National interests of the 
United States as well as Afghanistan would consist of interdiction, 
including destruction of heroin laboratories; dismissal from office 
and, where possible, criminal prosecution and extradition of key 
traffickers and their political protectors; and massive aid and 
employment creation in rural areas both to reward those farmers who 
have not cultivated opium poppy and to assist those who are willing to 
shift away from it. Carefully monitored purchase of opium for medical 
use from provinces that reduce their production could also play a role.
    In amplification of these remarks I append an article I published 
in Foreign Affairs.
                           saving afghanistan

    By Barnett R. Rubin, From Foreign Affairs, January/February 2007

    Summary: With the Taliban resurgent, reconstruction faltering, and 
opium poppy cultivation at an all-time high, Afghanistan is at risk of 
collapsing into chaos. If Washington wants to save the international 
effort there, it must increase its commitment to the area and rethink 
its strategy--especially its approach to Pakistan, which continues to 
give sanctuary to insurgents on its tribal frontier.
    Barnett R. Rubin is Director of Studies and a Senior Fellow at New 
York University's Center on International Cooperation and the author of 
The Fragmentation of Afghanistan. He served as an adviser to the 
Special Representative of the Secretary-General at the U.N. Talks on 
Afghanistan in Bonn in 2001.
Taliban Resurgent
    Afghanistan has stepped back from a tipping point. At the cost of 
taking and inflicting more casualties than in any year since the start 
of Operation Enduring Freedom in 2001 (and four times as many as in 
2005), NATO troops turned back a frontal offensive by the Taliban last 
summer. The insurgents aimed to capture a district west of Kandahar, 
hoping to take that key city and precipitate a crisis in Kabul, the 
capital. Despite this setback, however, the Taliban-led insurgency is 
still active on both sides of the Afghan-Pakistani border, and the 
frontier region has once again become a refuge for what President 
George W. Bush once called the main threat to the United States--
``terrorist groups of global reach.'' Insurgents in both Afghanistan 
and Pakistan have imported suicide bombing, improvised explosive 
technology, and global communications strategies from Iraq; in the 
south, attacks have closed 35 percent of the schools. Even with opium 
production at record levels, slowing economic growth is failing to 
satisfy the population's most basic needs, and many community leaders 
accuse the government itself of being the main source of abuse and 
insecurity. Unless the shaky Afghan government receives both the 
resources and the leadership required to deliver tangible benefits in 
areas cleared of insurgents, the international presence in Afghanistan 
will come to resemble a foreign occupation--an occupation that Afghans 
will ultimately reject.
    For decades--not only since 2001--U.S. policymakers have 
underestimated the stakes in Afghanistan. They continue to do so today. 
A mere course correction will not be enough to prevent the country from 
sliding into chaos. Washington and its international partners must 
rethink their strategy and significantly increase both the resources 
they devote to Afghanistan and the effectiveness of those resources' 
use. Only dramatic action can reverse the perception, common among both 
Afghans and their neighbors, that Afghanistan is not a high priority 
for the United States--and that the Taliban are winning as a result. 
Washington's appeasement of Pakistan, diversion of resources to Iraq, 
and perpetual underinvestment in Afghanistan--which gets less aid per 
capita than any other state with a recent postconflict rebuilding 
effort--have fueled that suspicion.
    Contrary to the claims of the Bush administration, whose attention 
after the September 11 attacks quickly wandered off to Iraq and grand 
visions of transforming the Middle East, the main center of terrorism 
``of global reach'' is in Pakistan. Al Qaeda has succeeded in 
reestablishing its base by skillfully exploiting the weakness of the 
state in the Pashtun tribal belt, along the Afghan-Pakistani frontier. 
In the words of one Western military commander in Afghanistan, ``Until 
we transform the tribal belt, the U.S. is at risk.''
    Far from achieving that objective in the 2001 Afghan war, the U.S.-
led coalition merely pushed the core leadership of al Qaeda and the 
Taliban out of Afghanistan and into Pakistan, with no strategy for 
consolidating this apparent tactical advance. The Bush administration 
failed to provide those Taliban fighters who did not want to defend al 
Qaeda with a way to return to Afghanistan peacefully, and its policy of 
illegal detention at Guantanamo Bay and Bagram Air Base, in 
Afghanistan, made refuge in Pakistan, often with al Qaeda, a more 
attractive option.
    The Taliban, meanwhile, have drawn on fugitives from Afghanistan, 
newly minted recruits from undisrupted training camps and militant 
madrasahs, and tribesmen alienated by civilian casualties and 
government and coalition abuse to reconstitute their command structure, 
recruitment and funding networks, and logistical bases in Pakistan. On 
September 19, 2001, Pakistani President Pervez Musharraf told his 
nation that he had to cooperate with Washington in order to ``save 
Afghanistan and Taliban from being harmed''; accordingly, he has been 
all too happy to follow the Bush administration's instructions to focus 
on al Qaeda's top leadership while ignoring the Taliban. Intelligence 
collected during Western military offensives in mid-2006 confirmed that 
Pakistan's Inter-Services Intelligence (ISI) was continuing to actively 
support the Taliban leadership, which is now working out of Quetta, the 
capital of Baluchistan Province, in western Pakistan. As a result, a 
cross-border insurgency has effectively exploited Afghanistan's 
impoverished society and feeble government.
    In May 2006, Amrullah Saleh, the director of Afghanistan's national 
intelligence agency, completed an assessment of the threat posed by the 
insurgency. Saleh, who acted as the Northern Alliance's liaison during 
Operation Enduring Freedom, concluded that political progress in 
Afghanistan had not been matched by an effective strategy of 
consolidation. ``The pyramid of Afghanistan government's legitimacy,'' 
he wrote, ``should not be brought down due to our inefficiency in 
knowing the enemy, knowing ourselves and applying resources 
effectively.'' U.S. commanders and intelligence officials circulated 
Saleh's warning to their field commanders and agents in Afghanistan and 
their superiors in Washington. Sustaining the achievements of the past 
5 years depends on how well they heed that warning.
``Still Ours to Lose''
    In the past year, a number of events have raised the stakes in 
Afghanistan and highlighted the threat to the international effort 
there. The future of NATO depends on its success in this first 
deployment outside of Europe. Although it suffered a setback in the 
south, the Pakistan-based, Taliban-led insurgency has become ever more 
daring and deadly in the southern and eastern parts of the country, 
while extending its presence all the way to the outskirts of Kabul. 
NATO deployed to areas neglected by the coalition, most notably to the 
southern province of Helmand--and the Taliban responded with increased 
strength and maneuverability. On September 8, a particularly bold 
attack on a coalition convoy in the city killed 16 people, including 
two U.S. soldiers, near the U.S. embassy--the most heavily fortified 
section of Kabul. Even as NATO has deployed its forces across the 
country--particularly in the province of Helmand, a Taliban stronghold 
that produces some 40 percent of the world's opium--the Taliban have 
shown increasing power and agility.
    Meanwhile, the effectiveness of the Taliban's limited institutions 
and the ruthlessness of their retribution against ``collaborators'' 
neutralized much of the Afghan population; only the successful 
political consolidation of NATO and coalition military victories can 
start to build confidence that it is safe to support the government. In 
some areas, there is now a parallel Taliban state, and locals are 
increasingly turning to Taliban-run courts, which are seen as more 
effective and fair than the corrupt official system. Suicide bombings, 
unknown in Afghanistan before their successful use by insurgents in 
Iraq, have recently sown terror in Kabul and other areas. They have 
also spread to Pakistan.
    On the four trips I made to Afghanistan in 2006 (in January, March-
April, July-August, and November), the growing frustration was 
palpable. In July, one Western diplomat who had been in Afghanistan for 
3 years opened our meeting with an outburst. ``I have never been so 
depressed,'' he said. ``The insurgency is triumphant.'' An elder from 
Kunar Province, in eastern Afghanistan, said that government efforts 
against the insurgency were weak because ``the people don't trust any 
of the people in government offices.'' An elder from the northern 
province of Baghlan echoed that sentiment: ``The people have no hope 
for this government now.'' A U.N. official added, ``So many people have 
left the country recently that the government has run out of 
passports.''
    ``The conditions in Afghanistan are ripe for fundamentalism,'' a 
former minister who is now a prominent member of parliament told me. 
``Our situation was not resolved before Iraq started. Iraq has not been 
resolved, and now there is fighting in Palestine and Lebanon. Then 
maybe Iran. . . . We pay the price for all of it.'' An elder who 
sheltered President Hamid Karzai when Karzai was working underground 
against the Taliban described to me how he was arrested by U.S. 
soldiers: they placed a hood on his head, whisked him away, and then 
released him with no explanation. ``What we have realized,'' he 
concluded, ``is that the foreigners are not really helping us. We think 
that the foreigners do not want Afghanistan to be rebuilt.''
    Yet no one I spoke to advocated giving up. One of the same elders 
who expressed frustration with the corruption of the government and its 
distance from the people also said, ``We have been with the Taliban and 
have seen their cruelty. People don't want them back.'' A fruit trader 
from Kandahar complained: ``The Taliban beat us and ask for food, and 
then the government beats us for helping the Taliban.'' But he and his 
colleagues still called Karzai the country's best leader in 30 years--a 
modest endorsement, given the competition, but significant nonetheless. 
``My working assumption,'' said one Western military leader, ``is that 
the international community needs to double its resources. We can't do 
it on the margins. We have no hedge against domestic and regional 
counterforces.'' After all, he noted, the battle for Afghanistan ``is 
still ours to lose.''
The 30-Year War
    The recent upsurge in violence is only the latest chapter in 
Afghanistan's 30-year war. That war started as a Cold War ideological 
battle, morphed into a regional clash of ethnic factionalism, and then 
became the center of the broader conflict between the West and a 
transnational Islamist terrorist network.
    It is no surprise that a terrorist network found a base in 
Afghanistan: just as Lenin might have predicted, it picked the weakest 
link in the modern state system's rusty chain. Today's Afghanistan 
formed as a buffer state within the sphere of influence of British 
India. Because the government, then as now, was unable to extract 
enough revenue from this barren territory to rule it, its function had 
more to do with enabling an elite subsidized by aid to control the 
territory as part of the defense of foreign empires than with providing 
security and governance to the people of Afghanistan. Hence, the oft-
noted paradox of modern Afghanistan: a country that needs decentralized 
governance to provide services to its scattered and ethnically diverse 
population has one of the world's most centralized governments. That 
paradox has left the basic needs of Afghanistan's citizens largely 
unfulfilled--and thus left them vulnerable to the foreign forces that 
have long brought their own struggles to the Afghan battleground.
    In the 18th century, as neighboring empires collapsed, Afghan 
tribal leaders seized opportunities to build states by conquering 
richer areas in the region. In 1715, Mirwais Khan Hotak (of the same 
Kandahari Pashtun tribe as the Taliban leader Mullah Muhammad Omar), 
overthrew the Shiite governor of Kandahar, then a province of the 
Iranian Safavid empire; 7 years later, his son sacked Isfahan, the 
Iranian capital at the time. Subsequently, a Turkmen leader, Nader 
Shah, captured Isfahan and went on to conquer Kabul and Delhi. When 
Nader Shah was assassinated in 1747, the commander of his bodyguard, 
Ahmad Khan Abdali (a member of the same Kandahari Pashtun tribe as 
President Karzai), retreated back to Kandahar, where, according to 
official histories, he was made king of the Afghans at a tribal jirga. 
He led the tribes who constituted his army on raids and in the conquest 
of Kashmir and Punjab.
    The expansion of the British and Russian empires cut off the 
opportunity for conquest and external predation--undermining the fiscal 
base of the ruler's power and throwing Afghanistan into turmoil for 
much of the nineteenth century. As the British Empire expanded 
northwest from the Indian subcontinent toward Central Asia, it first 
tried to conquer Afghanistan and then, after two Anglo-Afghan wars, 
settled for making it a buffer against the Russian empire to the north.
    The British established a three-tiered border to separate their 
empire from Russia through a series of treaties with Kabul and Moscow. 
The first frontier separated the areas of the Indian subcontinent under 
direct British administration from those areas under Pashtun tribal 
control (today this line divides those areas administered by the 
Pakistani state from the federally Administered Tribal Agencies). The 
second frontier, the Durand Line, divided the Pashtun tribal areas from 
the territories under the administration of the emir of Afghanistan 
(Pakistan and the rest of the international community consider this 
line to be the international border between Afghanistan and Pakistan, 
although Afghanistan has never accepted it). The outer frontier, the 
borders of Afghanistan with Russia, Iran, and China, demarcated the 
British sphere of influence; the British enabled the emir to subdue and 
control Afghanistan with subsidies of money and weapons.
    In the 20th century, however, the dissolution of these empires 
eroded this security arrangement. The Third Anglo-Afghan War, in 1919, 
concluded with the recognition of Afghanistan's full sovereignty. The 
country's first sovereign, King Amanullah, tried to build a strong 
nationalist state. His use of scarce resources for development rather 
than an army left him vulnerable to revolt, and his effort collapsed 
after a decade. The British helped another contender, Nader Shah, 
consolidate a weaker form of rule. Then, in the late 1940s, came the 
independence and partition of India, which even more dramatically 
altered the strategic stakes in the region.
    Immediately tensions flared between Afghanistan and Pakistan. 
Afghanistan claimed that Pakistan was a new state, not a successor to 
British India, and that all past border treaties had lapsed. A loya 
jirga in Kabul denied that the Durand Line was an international border 
and called for self-determination of the tribal territories as 
Pashtunistan. Skirmishes across the Durand Line began with the covert 
support of both governments. At the same time, Islamabad was aligning 
itself with the United States in order to balance India--which led 
Afghanistan, in turn, to rely on aid from Moscow to train and supply 
its army. Pakistan, as a result, came to regard Afghanistan as part of 
a New Delhi-Kabul-Moscow axis that fundamentally challenged its 
security. With U.S. assistance, Pakistan developed a capacity for 
covert asymmetric jihadi warfare, which it eventually used in both 
Afghanistan and Kashmir.
    For the first decades of the Cold War, Afghanistan pursued a policy 
of nonalignment. The two superpowers developed informal rules of 
coexistence, each supporting different institutions and parts of the 
country; one Afghan leader famously claimed to light his American 
cigarettes with Soviet matches. But this arrangement ultimately proved 
hazardous to Afghanistan's health. An April 1978 coup by communist 
military officers brought to power a radical faction whose harsh 
policies provoked an insurgency. In December 1979, the Soviet Union 
sent in its military to bring an alternative communist faction to 
power, turning an insurgency into a jihad against the invaders. The 
United States, Pakistan, Saudi Arabia, and others began spending 
billions of dollars to back the anticommunist Afghan mujahideen and 
their Arab auxiliaries--laying the foundations for an infrastructure of 
regional and global jihad.
    The civil war seemed to come to an end with the 1988 Geneva 
accords, which provided for the withdrawal of Soviet troops (while 
allowing continued Soviet aid to the communist government in Kabul) and 
the end of foreign military assistance to the mujahideen. But the 
United States and Pakistan, intent on wiping out Soviet influence in 
Afghanistan entirely, ignored the stipulation that they stop arming the 
resistance. The result was a continuation of the conflict and, 
eventually, state failure.
    In the early 1990s, as the Soviet Union dissolved and the United 
States disengaged, ethnic militias went to war. Drug trafficking 
boomed, and Arab and other non-Afghan Islamist radicals strengthened 
their bases. Pakistan, still heavily involved in Afghanistan's internal 
battles, backed the Taliban, a radical group of mostly Pashtun clerics 
(the name means ``students''). With Islamabad's help, the Taliban 
established control over most of Afghanistan by 1998, and the anti-
Taliban resistance--organized in a ``Northern Alliance'' of feuding 
former mujahideen and Soviet-backed militias, most of them from non-
Pashtun ethnic groups--was pushed back to a few pockets of territory in 
the northeast. As their grip over Afghanistan tightened, the Taliban 
instituted harsh Islamic law and increasingly allied themselves with 
Osama bin Laden, who came to Afghanistan after being expelled from 
Sudan in 1996.
    After the fall of the Soviet Union, Washington assumed that the 
collapse of Afghanistan into warring chiefdoms--many of them allied 
with neighboring states or other external forces--was not worth 
worrying much about. The Clinton administration began to recognize the 
growing threat in Afghanistan after the al Qaeda bombings of two U.S. 
embassies in Africa in 1998. But it never took decisive action, and 
when the Bush administration took office, it gave priority to other 
concerns. It took September 11 to force Washington to recognize that a 
global terrorist opposition was gathering strength--using human and 
physical capital that the United States and its allies (especially 
Saudi Arabia) had supplied, through Pakistan's intelligence services, 
in pursuit of a Cold War strategic agenda.
Opportunities Lost
    When the Bush administration overthrew the Taliban after September 
11, it did so with a ``light footprint'': using operatives and the 
Special Forces to coordinate Northern Alliance and other Afghan 
commanders on the ground and supporting them with U.S. airpower. After 
a quick military campaign, it backed the U.N. effort to form a new 
government and manage the political transition. It also reluctantly 
agreed to the formation of the International Security Assistance Force 
(ISAF) to help the new Afghan government provide security and build new 
military and police forces. In 2003, the ISAF came under NATO command--
the first-ever NATO military operation outside of Europe--and gradually 
expanded its operations from just Kabul to most of Afghanistan's 34 
provinces. About 32,000 U.S. and allied forces are currently engaged in 
security assistance and counterinsurgency under NATO command, while 
another 8,000 coalition troops are involved in counterterrorist 
operations. The U.N. Assistance Mission in Afghanistan coordinates the 
international community's support for political and economic 
reconstruction.
    In the immediate aftermath of the Taliban's overthrow, the presence 
of coalition troops served as a deterrent against both overt external 
subversion and open warfare among the various forces that had been 
rearmed by Washington. This deterrent created an opportunity to build a 
functioning state; that state, however, now at the center, rather than 
the margins, of global and regional conflict, would have had to connect 
rather than separate its neighboring regions, a much more demanding 
goal. Accomplishing that goal would have required forming a government 
with sufficient resources and legitimacy to secure and develop its own 
territory and with a geopolitical identity unthreatening to its 
neighbors--especially Pakistan, whose deep penetration of Afghan 
society and politics enables it to play the role of spoiler whenever it 
chooses. Such a project would have meant additional troop deployments 
by the United States and its partners, especially in the border region, 
and rapid investment in reconstruction. It also would have required 
political reform and economic development in the tribal areas of 
Pakistan.
    Too little of this happened, and both Afghanistan and its 
international partners are paying the consequences. Rearming warlords 
empowered leaders the Afghan people had rejected; enabling the Northern 
Alliance to seize Kabul put those Pakistan most mistrusted in charge of 
the security forces. The White House's opposition to ``nation 
building'' led to major delays in Afghanistan's reconstruction.
    Effective economic aid is vital to addressing the pervasive poverty 
that debilitates the government and facilitates the recruitment of 
unemployed youths into militias or the insurgency. Economically and 
socially, Afghanistan remains far behind its neighbors. It is the 
poorest country in the world outside of sub-Saharan Africa, and its 
government remains weak and ineffective. Last year, it raised domestic 
revenue of about $13 per capita--hardly enough to buy each of its 
citizens one case of Coca-Cola from the recently opened bottling plant 
near Kabul, let alone take on all of the important tasks at hand.
    Because Afghanistan has been so poor for so long, real nondrug 
growth averaged more than 15 percent from 2002 until this year, thanks 
in large part to the expenditures of foreign forces and aid 
organizations and the end of a drought. But growth fell to 9 percent 
last year, and the U.N. and the Afghan government reported in November 
that growth ``is still not sufficient to generate in a relatively short 
time the large numbers of new jobs necessary to substantially reduce 
poverty or overcome widespread popular disaffection. The reality is 
that only limited progress has been achieved in increasing availability 
of energy, revitalizing agriculture and the rural economy, and 
attracting new investment.''
    High unemployment is fueling conflict. As a fruit trader in 
Kandahar put it to me, ``Those Afghans who are fighting, it is all 
because of unemployment.'' This will only get worse now that the 
postwar economic bubble has been punctured. Real estate prices and 
rents are dropping in Kabul, and occupancy rates are down. Fruit and 
vegetable sellers report a decline in demand of about 20 percent, and 
construction companies in Kabul report significant falls in employment 
and wages. A drought in some parts of the country has also led to 
displacement and a decline in agricultural employment, for which the 
record opium poppy crop has only partially compensated.
    Moreover, the lack of electricity continues to be a major problem. 
No major new power projects have been completed, and Kabulis today have 
less electricity than they did 5 years ago. While foreigners and 
wealthy Afghans power air conditioners, hot-water heaters, computers, 
and satellite televisions with private generators, average Kabulis 
suffered a summer without fans and face a winter without heaters. Kabul 
got through the past two winters with generators powered by diesel fuel 
purchased by the United States; this year the United States made no 
such allocation.
    Rising crime, especially the kidnapping of businessmen for ransom, 
is also leading to capital flight. Although no reliable statistics are 
available, people throughout the country, including in Kabul, report 
that crime is increasing--and complain that the police are the main 
criminals. Many report that kidnappers and robbers wear police 
uniforms. On August 24, men driving a new vehicle with tinted windows 
and police license plates robbed a bank van of $360,000 just blocks 
away from the Ministry of the Interior.
    The corruption and incompetence of the police force (which lacks 
real training and basic equipment) were highlighted after riots last 
May, set off by the crash of a U.S. military vehicle. Rioters chanted 
slogans against the United States and President Karzai and attacked the 
parliament building, the offices of media outlets and nongovernmental 
organizations, diplomatic residences, brothels, and hotels and 
restaurants that purportedly served alcohol. The police, many of whom 
disappeared, proved incompetent, and the vulnerability of the 
government to mass violence became clear. Meanwhile, in a sign of 
growing ethno-factional tensions within the governing elite, Karzai, a 
Pashtun (the Pashtun are the largest ethnic group in Afghanistan), 
suspected opposition leaders of fomenting violence by demonstrators, 
who were largely from Panjshir, the home base of the main Northern 
Alliance group. (Panjshiri leaders deny the charge.) Karzai responded 
not by strengthening support for police reform but by appointing 
commanders of a rival Northern Alliance group to positions in the 
police force. Karzai argued that he was forced into such an unpalatable 
balancing act because of the international community's long-standing 
failure to respond to his requests for adequate resources for the 
police.
    The formation of the Afghan National Army, which now has more than 
30,000 troops, has been one of the relative success stories of the past 
5 years, but one reason for its success is that it uses mostly fresh 
recruits; the 60,000 experienced fighters demobilized from militias 
have, instead of joining the army, joined the police, private security 
firms, or organized crime networks--and sometimes all three. One former 
mujahideen commander, Din Muhammad Jurat, became a general in the 
Ministry of the Interior and is widely believed--including by his 
former mujahideen colleagues--to be a major figure in organized crime 
and responsible for the murder of a cabinet minister in February 2002. 
(He also works with U.S. Protection and Investigations, a Texas-based 
firm that provides international agencies and construction projects 
with security guards, many of whom are former fighters from Jurat's 
militia and current employees at the Ministry of the Interior.)
    Meanwhile, the drug economy is booming. The weakness of the state 
and the lack of security for licit economic activity has encouraged 
this boom, and according to the U.N. Office on Drugs and Crime, opium 
poppy production in the country reached a record 6,100 metric tons last 
year, surpassing the 2005 total by 49 percent. This increase belies 
past claims of progress, made on the basis of a 5-percent cultivation 
decrease in 2005. Although the decrease was due almost entirely to the 
political persuasion of farmers by the government, the United States 
failed to deliver the alternative livelihoods the farmers expected and 
continued to pressure the Afghan government to engage in 
counterproductive crop eradication. The Taliban exploited the 
eradication policy to gain the support of poppy growers.
    Counternarcotics efforts provide leverage for corrupt officials to 
extract enormous bribes from traffickers. Such corruption has attracted 
former militia commanders who joined the Ministry of the Interior after 
being demobilized. Police chief posts in poppy-growing districts are 
sold to the highest bidder: as much as $100,000 is paid for a 6-month 
appointment to a position with a monthly salary of $60. While the 
Taliban have protected small farmers against eradication efforts, not a 
single high-ranking government official has been prosecuted for drug-
related corruption.
    Drugs are only part of a massive cross-border smuggling network 
that has long provided a significant part of the livelihoods of the 
major ethnic groups on the border, the Pashtun and the Baluch. Al 
Qaeda, the Taliban, warlords, and corrupt officials of all ethnic 
groups profit by protecting and preying on this network. The massive 
illicit economy, which constitutes the tax base for insecurity, is 
booming, while the licit economy slows.
Sanctuary in Pakistan
    Pakistan's military establishment has always approached the various 
wars in and around Afghanistan as a function of its main institutional 
and national security interests: first and foremost, balancing India, a 
country with vastly more people and resources, whose elites, at least 
in Pakistani eyes, do not fully accept the legitimacy of Pakistan's 
existence. To defend Pakistan from ethnic fragmentation, Pakistan's 
governments have tried to neutralize Pashtun and Baluch nationalism, in 
part by supporting Islamist militias among the Pashtun. Such militias 
wage asymmetrical warfare on Afghanistan and Kashmir and counter the 
electoral majorities of opponents of military rule with their street 
power and violence.
    The rushed negotiations between the United States and Pakistan in 
the immediate aftermath of September 11 changed Pakistan's behavior but 
not its interests. Supporting the Taliban was so important to Pakistan 
that Musharraf even considered going to war with the United States 
rather than abandon his allies in Afghanistan. Instead, he tried to 
persuade Washington to allow him to install a ``moderate Taliban'' 
government or, failing that, at least to prevent the Northern Alliance, 
which Pakistanis see as allied with India, from entering Kabul and 
forming a government. The agreement by Washington to dilute Northern 
Alliance control with remnants of Afghanistan's royal regime did little 
to mollify the generals in Islamabad, to say nothing of the majors and 
colonels who had spent years supporting the Taliban in the border 
areas. Nonetheless, in order to prevent the United States from allying 
with India, Islamabad acquiesced in reining in its use of asymmetrical 
warfare, in return for the safe evacuation of hundreds of Pakistani 
officers and intelligence agents from Afghanistan, where they had 
overseen the Taliban's military operations.
    The United States tolerated the quiet reconstitution of the Taliban 
in Pakistan as long as Islamabad granted basing rights to U.S. troops, 
pursued the hunt for al Qaeda leaders, and shut down A.Q. Khan's 
nuclear-technology proliferation network. But 5 years later, the safe 
haven Pakistan has provided, along with continued support from donors 
in the Persian Gulf, has allowed the Taliban to broaden and deepen 
their presence both in the Pakistani border regions and in Afghanistan. 
Even as Afghan and international forces have defeated insurgents in 
engagement after engagement, the weakness of the government and the 
reconstruction effort--and the continued sanctuary provided to Taliban 
leaders in Pakistan--has prevented real victory.
    In his September 21, 2006, testimony before the Senate Foreign 
Relations Committee, James Jones, a Marine Corps general and the 
supreme allied commander, Europe, for NATO, confirmed that the main 
Taliban headquarters remains in Quetta. According to Western military 
officials in Afghanistan, intelligence provides strong circumstantial 
evidence that Pakistan's ISI is providing aid to the Taliban leadership 
shura (council) there.
    Another commanders' shura, directing operations in eastern 
Afghanistan, is based in the Pakistani tribal agencies of North and 
South Waziristan. It has consolidated its alliance with Pakistani 
Taliban fighters, as well as with foreign jihadi fighters. In 
September, Pakistani authorities signed a peace deal with ``tribal 
elders of North Waziristan and local mujahideen, Taliban, and ulama 
[Islamic clergy],'' an implicit endorsement of the notion that the 
fight against the U.S. and NATO presence in Kabul is a jihad. (During 
his visit to the United States in September, Musharraf mischaracterized 
this agreement as only with ``an assembly of tribal elders.'') 
According to the agreement, the Taliban agreed not to cross over into 
Afghanistan and to refrain from the ``target killing'' of tribal 
leaders who oppose the group, and the foreign militants are expected to 
either live peacefully or leave the region. But only 2 days after the 
agreement was signed, two anti-Taliban tribal elders were assassinated; 
U.S. military spokespeople claim that cross-border attacks increased 
threefold after the deal.
    Further north, the veteran Islamist leader Gulbuddin Hekmatyar, a 
favorite of the ISI since 1973, operates from the northwestern 
Pakistani city of Peshawar and from the Bajaur and Mohmand tribal 
agencies, on the border with northeast Afghanistan. This is where a 
U.S. Predator missile strike killed between 70 and 80 people in a 
militant madrasah on October 30, and where bin Laden and Ayman al-
Zawahiri, al Qaeda's number two leader, are most likely to be found.
    The strength and persistence of the insurgency cannot be explained 
solely by the sanctuary the Taliban enjoy in Pakistan. But few 
insurgencies with safe havens abroad have ever been defeated. The 
argument that poverty and underdevelopment, rather than Pakistani 
support, are responsible for the insurgency does not stand up to 
scrutiny: northern and western Afghanistan are also plagued by crime 
and insecurity, and yet there is no coordinated antigovernment violence 
in those regions.
The Center Can Hold
    For several years, Washington has responded to the repeated 
warnings from Karzai about the Taliban's sanctuary in Pakistan by 
assuring him that Islamabad is cooperating, that public protests are 
counterproductive, and that the United States will take care of the 
problem. But assurances that U.S. forces would soon mop up the 
``remnants'' of the Taliban and al Qaeda have proved false. Nor did the 
United States offer adequate resources to Karzai to allow him to 
strengthen the Afghan state and thereby bolster resistance to the 
Taliban. Karzai's short-term strategy of allying himself with corrupt 
and abusive power holders at home--a necessary response, he says, to 
inadequate resources--has further undermined the state-building effort.
    Western and Afghan officials differ over the extent to which 
Pakistan's aid to the Taliban is ordered by or tolerated at the highest 
levels of the Pakistani military, but they have reached a consensus, in 
the words of one senior Western military leader, that Pakistani leaders 
``could disrupt the senior levels of [Taliban] command and control'' 
but have chosen not to. Disrupting command and control--not preventing 
``infiltration,'' a tactical challenge to which Pakistan often tries to 
divert discussion--is the key to an overall victory. That will require 
serious pressure on Pakistan.
    So far, the United States and its allies have failed even to convey 
a consistent message to Islamabad. U.S. officials should at least stop 
issuing denials on behalf of Islamabad, as General John Abizaid, the 
commander of U.S. forces in the Middle East, did in Kabul on August 27 
when he claimed that he ``absolutely does not believe'' that Pakistan 
is helping the Taliban. NATO and the coalition members have similarly 
failed to devise a common course of action, in part out of the fear 
that doing so could cause Pakistan to reduce its cooperation on 
counterterrorism. But failing to address Pakistan's support of the 
Taliban amounts to an acceptance of NATO's failure. The allies must 
send a strong message to Pakistan: that a lack of forceful action 
against the Taliban command in Baluchistan constitutes a threat to 
international peace and security as defined in the U.N. Charter. 
Pakistan's leaders, who are eager to show that their government is a 
full participant in the international community (partly in order to 
establish parity with India), will seek to avoid such a designation. 
Washington must also take a stand. Pakistan should not continue to 
benefit from U.S. military assistance and international aid as long as 
it fails even to try to dismantle the Taliban's command structure.
    On this issue, as on others, Washington should reverse the Bush 
administration's policy of linking as many local conflicts as possible 
to the global ``war on terror'' and instead address each on its own 
terms. A realistic assessment of Pakistan's role requires not moving 
Pakistan from the ``with us'' to the ``against us'' column in the ``war 
on terror'' account books but recognizing that Pakistan's policy 
derives from the perceptions, interests, and capabilities of its 
leaders, not from those of the U.S. government. The haven and support 
the Taliban receive in Pakistan are partly a response to claims 
Afghanistan has made against Pakistan and are also due to Islamabad's 
concern about both Indian influence in Afghanistan and Afghan backing 
for Pashtun and Baluch nationalists operating across the Durand Line.
    Accordingly, unified pressure on Pakistan should be accompanied by 
efforts to address Islamabad's core concerns. The United States and its 
allies should encourage the Afghan government to open a domestic debate 
on the sensitive issue of recognition of the Durand Line in return for 
guarantees of stability and access to secure trade and transport 
corridors to Pakistani ports. Transforming the border region into an 
area of cooperation rather than conflict will require reform and 
development in the tribal territories. Washington should ask India and 
Afghanistan to take measures to reassure Pakistan that their bilateral 
relations will not threaten Islamabad. If, as some sources claim, the 
Taliban are preparing to drop their maximalist demands and give 
guarantees against the reestablishment of al Qaeda bases, the Afghan 
government could discuss their entry into the political system.
    Such a shift in U.S. policy toward Pakistan requires a change from 
supporting President Musharraf to supporting democracy. Pakistan's 
people have shown in all national elections that support for extremist 
parties is marginal. The reassertion of the civilian political center, 
as well as of Pakistan's business class, which is profiting from the 
reconstruction of Afghanistan, has provided an opportunity to move 
beyond the United States' history of relying on military rulers. 
Washington must forge a more stable relationship with a Pakistan that 
is at peace with its neighbors and with itself.
Back From the Brink
    Creating a reasonably effective state in Afghanistan is a long-term 
project that will require an end to major armed conflict, the promotion 
of economic development, and the gradual replacement of opium 
production by other economic activities. Recent crises, however, have 
exposed internal weaknesses that underscore the need for not only long-
term endeavors but short-term transitional measures as well.
    The two fatal weak points in Afghanistan's government today are the 
Ministry of the Interior and the judiciary. Both are deeply corrupt and 
plagued by a lack of basic skills, equipment, and resources. Without 
effective and honest administrators, police, and judges, the state can 
do little to provide internal security--and if the government does not 
provide security, people will not recognize it as a government.
    In 2005, coalition military forces devised a plan for thoroughgoing 
reform of the Ministry of the Interior. The president and the minister 
of the interior appoint administrative and police officials throughout 
the country. Reform cannot succeed unless President Karzai overhauls 
the ministry's ineffective and corrupt leadership and fully backs the 
reform. In any case, this plan, already 3 years behind that of the 
Ministry of Defense, will show Afghans no results until mid-2007. In 
September, the government established a mechanism to vet appointees for 
competence and integrity. Finding competent people willing to risk 
their lives in a rural district for $60-$70 a month will remain 
difficult, but if implemented well, this vetting process could help 
avoid appointments such as those hastily made after the riots last 
spring.
    Government officials have identified the biggest problems in civil 
administration at the district level. In interviews, elders from more 
than ten provinces agreed, complaining that the government never 
consults them. Some ministers have proposed paying elders and ulama in 
each district to act as the eyes and ears of the government, meet with 
governors and the president, administer small projects, and influence 
what is preached in the mosques. They estimate the cost of such a 
program at about $5 million per year. These leaders could also help 
recruit the 200 young men from each district who are supposed to serve 
as auxiliary police. They are to receive basic police training and 
equipment and serve under a trained police commander. Unlike militias, 
the auxiliary police are to be paid individually, with professional 
commanders from outside the district. Elders could be answerable for 
the auxiliary forces' behavior.
    Courts, too, may require some temporary supplementary measures. 
Community leaders complain forcefully about judicial corruption, which 
has led many to demand the implementation of Islamic law, or sharia--
which they contrast not to secular law but to corruption. One elder 
from the province of Paktia said, ``Islam says that if you find a 
thief, he has to be punished. If a murderer is arrested, he has to be 
tried and executed. In our country, if a murderer is put in prison, 
after 6 months he bribes the judge and escapes. If a member of 
parliament is killed . . . his murderer is released after 3 to 4 months 
in prison because of bribery.'' Enforcement by the government of the 
decisions of Islamic courts has always constituted a basic pillar of 
the state's legitimacy in Afghanistan, and the failure to do so is 
turning religious leaders, who still wield great influence over public 
opinion, against the government.
    The August 5 swearing-in of a new Supreme Court, which administers 
the judicial system, makes judicial reform possible, but training 
prosecutors, judges, and defense lawyers will take years. In the 
meantime, the only capacities for dispute resolution and law 
enforcement in much of the country consist of village or tribal 
councils and mullahs who administer a crude interpretation of sharia. 
During the years required for reform, the only actual alternatives 
before Afghan society are enforcement of such customary or Islamic law 
or no law at all. The Afghan government and its international 
supporters should find ways to incorporate such procedures into the 
legal system and subject them to judicial or administrative review. 
Such a program would also put more Islamic leaders--more than 1,200 of 
whom have been dropped from the government payroll this year--back 
under government supervision.
    Attempts to inject aid into the government have hit a major 
bottleneck: in 2005 and 2006, the government spent only 44 percent of 
the money it received for development projects. Meanwhile, according to 
the Ministry of Finance, donor countries spent about $500 million on 
poorly designed and uncoordinated technical assistance. The World Bank 
is devising a program that will enable the government to hire the 
technical advisers it needs, rather than trying to coordinate advisers 
sent by donors in accord with their own priorities and domestic 
constituencies. The United States should support this initiative, along 
with a major crash program to increase the implementation capacity of 
the ministries.
    As numerous studies have documented over the years, Afghanistan has 
not received the resources needed to stabilize it. International 
military commanders, who confront the results of this poverty every 
day, estimate that Washington must double the resources it devotes to 
Afghanistan. Major needs include accelerated road building, the 
purchase of diesel for immediate power production, the expansion of 
cross-border electricity purchases, investment in water projects to 
improve the productivity of agriculture, the development of 
infrastructure for mineral exploitation, and a massive program of skill 
building for the public and private sectors.
    Afghanistan also needs to confront the threat from its drug economy 
in a way that does not undermine its overall struggle for security and 
stability. At first, U.S. policy after the fall of the Taliban 
consisted of aiding all commanders who had fought on the U.S. side, 
regardless of their involvement in drug trafficking. Then, when the 
``war on drugs'' lobby raised the issue, Washington began pressuring 
the Afghan government to engage in crop eradication. To Afghans, this 
policy has looked like a way of rewarding rich drug dealers while 
punishing poor farmers.
    The international drug-control regime does not reduce drug use, but 
it does, by criminalizing narcotics, produce huge profits for criminals 
and the armed groups and corrupt officials who protect them. In 
Afghanistan, this drug policy provides, in effect, huge subsidies to 
the United States' enemies. As long as the ideological commitment to 
such a counterproductive policy continues--as it will for the 
foreseeable future--the second-best option in Afghanistan is to treat 
narcotics as a security and development issue. The total export value 
of Afghan opium has been estimated to be 30-50 percent of the legal 
economy. Such an industry cannot be abolished by law enforcement. But 
certain measures would help: rural development in both poppy-growing 
and non-poppy-growing areas, including the construction of roads and 
cold-storage facilities to make other products marketable; employment 
creation through the development of new rural industries; and reform of 
the Ministry of the Interior and other government bodies to root out 
major figures involved with narcotics, regardless of political or 
family connections.
    This year's record opium poppy crop has increased the pressure from 
the United States for crop eradication, including through aerial 
spraying. Crop eradication puts more money in the hands of traffickers 
and corrupt officials by raising prices and drives farmers toward 
insurgents and warlords. If Washington wants to succeed in Afghanistan, 
it must invest in creating livelihoods for the rural poor--the vast 
majority of Afghans--while attacking the main drug traffickers and the 
corrupt officials who protect them.
Know Thy Enemy, Know Thyself
    Contemptuous of nation building and wary of mission creep, the Bush 
administration entered Afghanistan determined to strike al Qaeda, 
unseat the Taliban, and then move on, providing only basic humanitarian 
aid and support for a new Afghan army. Just as it had in the 1980s, the 
United States picked Afghan allies based exclusively on their 
willingness to get rid of U.S. enemies, rather than on their capacity 
to bring stability and security to the state. The U.N.-mediated 
political transition and underfunded reconstruction effort have only 
partially mitigated the negative consequences of such a shortsighted 
U.S. policy.
    Some in Washington have accused critics of the effort in 
Afghanistan of expecting too much too soon and focusing on setbacks 
while ignoring achievements. The glass, they say, is half full, not 
half empty. But the glass is much less than half full--and it is 
resting on a wobbly table that growing threats, if unaddressed, may 
soon overturn.
    U.S. policymakers have misjudged Afghanistan, misjudged Pakistan, 
and, most of all, misjudged their own capacity to carry out major 
strategic change on the cheap. The Bush administration has sown 
disorder and strengthened Iran while claiming to create a ``new Middle 
East,'' but it has failed to transform the region where the global 
terrorist threat began--and where the global terrorist threat persists. 
If the United States wants to succeed in the war on terrorism, it must 
focus its resources and its attention on securing and stabilizing 
Afghanistan.

    Chairman Levin. Thank you both. Great testimony from both 
of you.
    Just picking up on the drug issue for a moment, you say we 
should not be doing the destruction of crops, we ought to be 
interdicting at a high level. So that would mean militarily you 
would think that it would be appropriate for us to capture drug 
lords, and to dismantle labs in Afghanistan?
    Dr. Rubin. Well, first let me say the most important 
element of any policy is sending a credible signal that you are 
serious about succeeding at it. I would say that is the main 
weakness of our policy toward Pakistan and our drug policy.
    People in Afghanistan believe that the drug trafficking in 
Afghanistan is actually controlled and protected by a number of 
very well-known people, most of whom received millions of 
dollars from our covert operations in 2001 and 2002 and who 
they believe are still effectively under our protection. As 
long as they see that, they do not take our counternarcotics 
strategy seriously.
    Chairman Levin. These are Afghans?
    Dr. Rubin. Yes.
    Chairman Levin. These are Afghans who have received support 
from us?
    Dr. Rubin. Yes.
    Chairman Levin. You want to name names?
    Dr. Rubin. No.
    Chairman Levin. I do not blame you. Is it because you do 
not know the names or for some other reason?
    Dr. Rubin. I know the names. I do not have the kind of 
evidence that would stand up in a court of law were I to be 
sued for defamation, for instance.
    Chairman Levin. You do not have the same kind of immunity 
that we have.
    Let me go to the issue, General, that I raised with the 
previous panel. That has to do with going after the sanctuaries 
in Pakistan where Pakistan is either unwilling or unable to go 
after training camps, for instance, of al Qaeda in Pakistan 
along the border. Do you agree that we would have the legal 
right, providing NATO supports it, providing the host country, 
Afghanistan, supports it, with the U.N. understanding, to go 
after those sanctuaries if they represent a threat to us and if 
Pakistan is not either willing or able to handle them?
    General Jones. I listened intently to that conversation. 
This is why I injected that there is a difference between the 
NATO mission and the Operation Enduring Freedom mission, the 
way I would characterize it is that the NATO mission is more 
defensive in the face of terrorism and attacks, and the 
Operation Enduring Freedom mission is more offensive in nature.
    The only capability in Afghanistan to do that kind of 
mission right now is Operation Enduring Freedom. There is not a 
NATO agreement that is part of the mandate.
    Chairman Levin. To be more specific, we have the capability 
militarily from the air, I presume, to do significant damage to 
al Qaeda training camps in Pakistan. Are you saying that there 
is no NATO approval, would not be NATO approval of that 
mission, even though al Qaeda in Pakistan could be a threat in 
Afghanistan as well as to the rest of the world?
    General Jones. I believe that that falls outside of the 
mandate.
    Chairman Levin. Is there any reason why the mandate could 
not be amended?
    General Jones. All it takes is 26 nations to agree.
    Chairman Levin. You think there would be disagreement with 
that mandate?
    General Jones. I think there could be. I think that is why, 
frankly, that is why the nuance of the two missions was agreed 
to. The Operation Enduring Freedom portion of the mission, 
which would be U.S.-led, is in fact the kinetic end of the 
mission, and in that context, that mission everybody agrees 
could be done. To apply it to the totality of the NATO mission, 
my opinion is that that would have to go back to the North 
Atlantic Council for a debate.
    Chairman Levin. In terms of Operation Enduring Freedom 
having the legal right to do that with the approval of the host 
nation, there would be some doubt in your mind about that?
    General Jones. No.
    Chairman Levin. So we would come to the same conclusion?
    General Jones. Yes, sir. It is a question of who is able to 
do it.
    Chairman Levin. All right. The troop levels in Afghanistan. 
In response to Secretary Gates's request in February that NATO 
allies provide additional troops for Afghanistan ahead of a 
spring offensive by the Taliban, the German defense minister 
said he did not think it was right to talk about adding more 
and more military capability, saying that, ``when the Russians 
were in Afghanistan they had 100,000 troops and did not win.''
    General, do you believe that we have the right level of 
troops for Afghanistan? What more do we need and who has either 
committed to supply them or should supply them?
    General Jones. I think that General Craddock is essentially 
saying roughly the same thing I did, and that is within the 
Combined Joint Statement of Requirements, which is the base 
document that was approved by NATO to say these are the 
forces--my job was to say, these are the forces I think I need 
in order to do this mission. It was reviewed by the military 
committee at NATO and approved by the North Atlantic Council.
    Then it goes into the force generation process at NATO. We 
have always been somewhere between 2 and 3,000 troops short of 
the fully resourced statement of requirements--helicopters, 
mobility. The list is known to you.
    I still believe that a fully resourced Combined Joint 
Statement of Requirements that nations have agreed to and to 
support the plan that nations have agreed to is what needs to 
be done. I think that is what General Craddock is trying to do 
as well.
    Chairman Levin. Are there any nations which have made 
commitments to provide forces which have not?
    General Jones. No. The way it works, Senator, is that when 
you get your Combined Joint Statement of Requirements approved, 
then you sit around the table with 26 nations and try to raise 
the force. In other words, some people, some nations, announce 
what they are going to do up front. Others hold back a little 
bit. There is an awful lot of work that goes into rounding out 
this force.
    Chairman Levin. But specifically, are there nations that 
have made commitments that have not carried out those 
commitments that you know of? We keep hearing that and reading 
that.
    General Jones. I think the more worrisome thing is that 
nations make the commitment and then put caveats on their 
forces that make their forces marginally useful.
    Chairman Levin. The forces are there that they have 
committed?
    General Jones. The forces generally are there that they 
have committed, but those who have the operationally 
restrictive caveats generally become less useful.
    Chairman Levin. Did you hear Dr. Rubin's comment about the 
U.S. caveat being against nation-building?
    General Jones. I did. In the NATO sense of ``caveat,'' it 
would not fit that definition.
    Chairman Levin. But in the general sense of the word----
    General Jones. But as a matter of our policy, if in fact 
our policy was to only go in and take care of the kinetic end 
of things, the classical military end of things, without 
worrying about reconstruction and development, then that 
certainly will be proven to be something that we have to take 
care of in time.
    Chairman Levin. Has that been our policy? It is a big 
``if'' you put in there. I mean, do you agree that it has been 
our policy not to participate in nation-building?
    General Jones. Well, I think we have. I think the PRTs are 
evidence, for example. I think the U.S. PRTs are the example 
that all nations should follow to the extent that they can.
    General Jones. Let me get back to you, Dr. Rubin. What did 
you mean that it has been our policy not to participate, given 
the PRT presence, that we have led or are leading in at least 
some of the cases in Afghanistan?
    Dr. Rubin. Certainly the U.S. policy has changed. However, 
when the Karzai government was established after the U.N. talks 
on Afghanistan there were a number of measures that were 
envisaged, such as the establishment of the ISAF in Kabul, the 
withdrawal of all Afghan militias from Kabul, the expansion of 
the International Security Assistance Force, throughout the 
country, then the withdrawal of militias from all the 
provincial capitals, plus the creation of a joint and 
coordinated program in line with the recommendations of the UN 
report on peace operations, which was also chaired by Mr. 
Brahimi, for comprehensive security sector reform.
    Instead, in January 2002 when the first G-8 meeting on 
security sector reform was held as a sidebar at the Tokyo donor 
conference, the U.S. delegation--and you can interview Jim 
Dobbins, who was the head of it there--was instructed that the 
United States was not going to become involved in nation-
building. The United States did not commit any new money to 
reconstruction of Afghanistan at that time, and also on the 
security side the U.S. would only be involved in building the 
ANA and not in the other pillars of security sector reform.
    Chairman Levin. When did that change, then?
    Dr. Rubin. My impression was that in fact it was the 
experience of our military commanders in the field in 
Afghanistan who finally convinced the decisionmakers back in 
Washington that it was necessary for us to make that change, 
and in fact they developed the idea of the PRTs to compensate 
for the refusal to expand ISAF.
    Chairman Levin. When did that happen?
    Dr. Rubin. It happened gradually over the course of--from 
the end of 2002 through 2004. But I still consider that our 
contributions to Afghanistan are too heavily weighted on the 
military side and insufficient on the civilian side.
    Chairman Levin. That was your 80-20 comment.
    Dr. Rubin. Yes.
    Chairman Levin. You made a reference to, if I heard this 
correctly, to intelligence, that Iran would be willing to help 
us with intelligence relative to al Qaeda and to the Taliban--
did you say in Kabul? Is that what you said? Did I miss that?
    Dr. Rubin. I met with some Iranian officials whom I have 
known for many years in Kabul in November. They are people who 
have been involved with Afghanistan for a long time. They 
believe that al Qaeda is the number one threat to Iran, maybe 
after the United States, but at any rate that al Qaeda is a 
major threat to Iran. They believe that al Qaeda is posing new 
threats to Afghanistan and therefore to them, and they told me 
they had some information about it and they would like to 
cooperate with the United States, but neither their government 
in Teheran nor our Government in Washington had authorized the 
sharing of that information, which they found frustrating.
    Chairman Levin. Have you spoken about that or written about 
that before?
    Dr. Rubin. I have spoken about it in private to relevant 
officials of the U.S. Government.
    Chairman Levin. What we will do, then, is, given the fact 
that we apparently are going to have----
    Senator Warner. A letter, send them the transcript.
    Chairman Levin. Yes, exactly. Given the fact that there are 
going to be meetings now, apparently, relative to stability and 
since that directly relates to even the limited purpose that's 
been stated for meetings with Iran and for Syria, that we will 
send the transcript of your testimony to the State Department. 
I take it, if you want to expand on it in any way, we would 
hope the State Department would get hold of you. In fact, we 
would ask the State Department after they read the transcript 
to get hold of you to get more details about that, because 
that's pretty important information.
    That relates to al Qaeda, not to the Taliban?
    Dr. Rubin. Also the Taliban. Actually, if I may say, every 
time I meet with Iranians they warn me that I should tell the 
U.S. Government not to make a deal with the Taliban, because 
they're concerned that the U.S. is too soft on the Taliban.
    Chairman Levin. Too soft.
    Dr. Rubin. Yes.
    Chairman Levin. I have not gotten a card, but I am sure I 
am over 6 minutes. Senator Warner.
    Senator Warner. I would like to join you on that, Chairman 
Levin, to take the transcript as it now stands and allow our 
witness a chance to do such editing he feels necessary, and let 
us forward it.
    Chairman Levin. We will send that to the witness and he 
will have a chance to look at it, modify it or correct it or 
add to it in any way you like.
    Dr. Rubin. Thank you, sir.
    Chairman Levin. Thank you, Senator Warner.
    Senator Warner. Senator Jones--``Senator Jones.'' You would 
make a great senator.
    Chairman Levin. Is that an announcement, a pre-announcement 
here? [Laughter.]
    Senator Warner. No.
    Senator Levin and I have been sitting here side by side for 
29 years, and I would have to say that the testimony of this 
panel, these two gentlemen, has absolutely been electrifying 
and extremely informative. I just regret that the commitments 
of our colleagues precluded their attendance. But perhaps 
through the electronics some of this is being conveyed to them.
    Chairman Levin. You are being watched, in other words.
    Senator Warner. Yes.
    I would like to go back, General Jones. Let us make it 
clear that this participation by NATO is a dramatic chapter in 
its history. It is the first significant out-of-area challenge 
that they have stepped up to, and indeed I am very hopeful that 
they can achieve. But their credibility, their viability, their 
future, in many ways is predicated on showing a measure of 
success. Am I not correct?
    General Jones. Absolutely. This is NATO's most important 
mission and, in the words of the Secretary General, NATO cannot 
fail.
    Senator Warner. I just wanted that to be part of the 
record.
    Then I think it would be helpful--in your introductory 
remarks you very carefully delineated the mission of Operation 
Enduring Freedom. I would like to have you expand on that for 
the record. We know the composition of NATO. The composition of 
the forces in Operation Enduring Freedom, why do you not lay 
that out, and their command and control structure, and then how 
do the two forces operate, as you said, NATO doing basically 
the defensive concept and the offensive concept being delegated 
to Operation Enduring Freedom?
    General Jones. Senator, the main distinction is that within 
the construct of the military chain of command that the, for 
lack of a better word, the operations officer, the one who 
directs the operations, is dual-hatted. He is an American and 
he has on the one hand responsibilities to coordinate the 
campaign of Operation Enduring Freedom and also in his NATO hat 
the NATO campaign, so that they can deconflict both, because 
frequently elements of either operation can be operating in 
each other's areas.
    So that is the point of deconfliction, and that is the 
point in the hierarchy of the military chain of command where 
the U.S.-led Operation Enduring Freedom, which is more kinetic, 
and the NATO mission are deconflicted.
    General McNeil, as the commander of ISAF, is a NATO 
commander. He is an American, but he is a NATO commander, just 
as his predecessor, General Richards was Brit and he was a NATO 
commander. He reports through Brunsom, through his operational 
commander, and then to General Craddock at SHAPE.
    Senator Warner. I want you to talk about the chain of 
command on the Operation Enduring Freedom then.
    General Jones. Well, on the Operation Enduring Freedom side 
we have, I think it was testified this morning that we have 14 
or 15,000 U.S. troops committed to Enduring Freedom.
    Senator Warner. Right, but we also have some other 
countries participating.
    General Jones. There are other countries that participate 
in that more kinetic mission.
    Senator Warner. Notably France.
    General Jones. France, yes. France had announced that it 
was going to withdraw its special forces. They have had roughly 
250 special forces with that mission ever since, almost since 
its onset.
    Senator Warner. That has been a very important and integral 
contribution by France.
    General Jones. Very important. Most of the fighting and the 
activities along the border come out of that Operation Enduring 
Freedom envelope, so to speak.
    Senator Warner. Including the pursuit of Osama bin Laden.
    General Jones. Exactly.
    Now, that chain of command, Senator Warner runs up through 
the U.S. CENTCOM.
    Senator Warner. Right.
    General Jones. I must say, as General Abizaid gets ready to 
depart, that I could not have had a better partner in creating 
this, helping to create this operational interface between NATO 
and Operation Enduring Freedom over these past few years. I 
think General Abizaid's vision and leadership in that part of 
the world has been absolutely superb and he has done a 
magnificent job in helping us get the United States back, at 
least in Afghanistan, back into the NATO framework, because for 
a while, for a long while, in Afghanistan we divided the 
country in half. The north was NATO and the south was CENTCOM, 
and most U.S. forces were not under NATO.
    So this counterclockwise rotation that started--as you 
recall, I briefed you I think in London in 2004 on how we were 
going to do this. We effectively did that. It just took a 
couple years.
    Senator Warner. I remember that briefing very well. I 
associate myself with your remarks about General Abizaid. What 
an extraordinary officer he has been. He deserves a great deal 
of credit from the citizens of this country.
    General Jones. He deserves our collective thanks and 
admiration for a superb job.
    Senator Warner. Now, let me turn to our distinguished 
professor. I was really fascinated to read your testimony. I 
would like to go back. I happen to be a lover of history, 
military history. Why do we think today that we can succeed 
when in the late 1800s Great Britain had forces of up to 30,000 
in Afghanistan trying to fulfill such mission as they had? They 
failed and, frankly, they were sent packing home in a 
relatively defeatist manner. Am I not correct?
    Dr. Rubin. You are correct about the First Anglo-Afghan 
War. The British in the Second Anglo-Afghan War, the British 
actually suffered a very bad military defeat, just where the 
British are now fighting against today----
    Senator Warner. Well, give us some date-time groups for 
those?
    Dr. Rubin. That was in 1880. However, the British 
accomplished their political objective in the Second Anglo-
Afghan War.
    Senator Warner. Which took place?
    Dr. Rubin. 1879 to 1881.
    Senator Warner. Look at the involvement that they had, 
though. It was extraordinary.
    Then along comes the Soviet Union. The British were the 
superpower of the world in the 1880s. Now the Soviet Union, and 
they failed. What is it that we can do today such that we 
collectively with NATO will not fail?
    Dr. Rubin. First, I do not think that our mission is the 
same as those nations. One very important point to bear in 
mind--although there is one similarity, which I will come to--
is that those were periods of imperial competition in the 
region, and it was Britain versus Russia, then U.S. versus the 
Soviet Union. The major reason the Soviet Union was defeated 
was because there was a safe haven for the mujahedin in 
Pakistan, which we were funding very heavily.
    Now, today there is a nearly universal international 
consensus about what we are trying to accomplish in Afghanistan 
and I believe it also enjoys the support, even if skeptical 
support or disappointed support, of a large majority of the 
Afghan people.
    The problem that we have now is still primarily that there 
is not a regional consensus about the government in 
Afghanistan. So that Pakistan continues to be unhappy with the 
political composition of the government in Afghanistan, the 
presence of India there, and in various ways that continues to 
undermine the stability of the country.
    Senator Warner. But that has been going on since, as you 
said, they were two nations.
    Dr. Rubin. That is correct.
    If I may say, things do change in history. The Afghanistan 
of today is not the Afghanistan of 100 years ago.
    Senator Warner. Fortunately.
    The corruption, that has been a part of the culture of that 
region from the first time of man, am I not correct?
    Dr. Rubin. Well, I believe corruption is a part of human 
nature for as long as human beings have existed. But the type 
of corruption that we are speaking about in Afghanistan today 
is of a different dimension and really is due to the drug 
trade. Of course, it was always necessary to pay little bribes 
and people always hired their relatives, and people can live 
with that fairly comfortably. The problem today is that there 
are important portions of the Afghan state that are effectively 
under the control of or at least collaborating with the drug 
cartels and other non-legal power holders.
    Senator Warner. It is discouraging.
    You are also quite familiar with Iraq in your studies in 
your career, am I not correct?
    Dr. Rubin. Not really, Senator.
    Senator Warner. Well, I was just trying to see, are there 
some parallels? The American people wanted only to try and 
bring about a measure of freedom for the peoples of Iraq and 
indeed the people of Afghanistan, and secondarily of course was 
to eliminate the base camps for terrorists. But we are 
constantly perplexed here at home that, after we contribute 
this enormous life and treasure to achieve these results, we do 
not see a mutual expression of gratification and cohesion of 
the people to begin to seize what we have given them, namely 
their autonomy, their sovereignty, and to take a stronger hand 
in exercising those controls that must accompany any measure of 
democracy.
    What is the failing here?
    Dr. Rubin. Well, Senator, I would have to say the failing 
is primarily in the United States, in that in both of those 
cases, but much more seriously in Iraq, we did not go in with 
an understanding of what the aspirations and views of the 
people themselves in that country were. For instance, you spoke 
about freedom. Freedom is very important, but there are other 
values that people may value more highly under some 
circumstances, such as security and justice.
    You said the American people only desired good things. That 
may be the case, but that is not how people around the world 
view us. I could go into that more, but one of the problems we 
are facing around the world, including in Pakistan, is that 
U.S. prestige has never been as low as it is today. It is 
political suicide for almost any government, including our 
closest allies, to collaborate with us at the moment. That is 
one of the arguments that the Government of Pakistan gives when 
we ask them to take these difficult measures. I will not give a 
political speech, but unfortunately that undermines a lot of 
things that we are trying to do.
    Senator Warner. Well, certainly there are facts that 
support----
    General Jones. If I could just----
    Senator Warner.--there are facts which establish the 
opinions that you have just rendered, regrettably.
    Yes, General?
    General Jones. Just to comment about the nature of 
cultures. I started off in Vietnam and was privileged to 
operate in a number of areas, including Bosnia, including----
    Senator Warner. Turkey.
    General Jones.--Iraq, Turkey, and now in----
    Senator Warner. Kurdistan.
    General Jones.--and in Africa, and also now in Afghanistan. 
I have a sense in Afghanistan from going all over the country 
and trying to get a sense of the people themselves, what is it 
that they are about and what is it that they want, that, as 
opposed to perhaps Iraq, for example, since we are talking 
about the two, the people in Afghanistan are genuinely tired of 
fighting. I get the sense that they voted massively in 2004 in 
the presidential elections and in parliamentary elections, and 
we have all read about these heroic stories about women walking 
for 3, 4 days to get to a polling station. There was a lot of--
--
    Senator Warner. This is Afghanistan now.
    General Jones. In Afghanistan. There was a lot of 
enthusiasm. What has happened in the intervening period is that 
a substantial number of those same people are now saying: How 
has my life changed? The Taliban are still in my back yard. I 
still am having to pay bribes to the governor. The police are 
corrupt. My children are not any safer than they were 2 or 3 
years ago, and they are getting impatient.
    That is why I come back and I think we both come back to 
the same point, that the good news about Afghanistan is that 
all of the elements of success are there. They are already 
there on the ground--60 countries, the U.N., the big 
organizations, the European Union (EU), NATO, the G-8. What is 
lacking, what has been lacking, at least in my view, is a 
central authoritative figure on the international side that can 
coordinate and prioritize this effort so that it makes sense.
    Senator Warner. My final question----
    General Jones. I give a lot of credit to a distinguished 
diplomat named Paddy Ashdown, who was the de facto 
international czar, if you will, in Bosnia and by his power was 
able to coordinate the three different entities--the Muslims, 
the Croats, and the Serbs--into organizing themselves, stopping 
the killing, stopping the fighting, and starting the 
reconstruction of the country.
    We have a lot of organizations in Kabul, but notoriously 
ineffective in tackling those four or five things that I talked 
about that absolutely have to be tackled. If we can solve that, 
if we can figure that out, then I think Afghanistan can turn in 
the right direction.
    Senator Warner. That was my final question to you. Now, 
that person in the Balkans came up through the United Nations 
structure. I presume that that would be----
    Chairman Levin. Was he not the EU?
    General Jones. European Union.
    Senator Warner. EU?
    General Jones. EU.
    Senator Warner. That is right, I do recall that.
    How would we construct it this time? I mean, without 
promoting yourself so you are going to get drafted to do the 
job, what--I think you need a break. What would you say if the 
President invited you to contribute to that solution? How would 
you want it structured and what organizations does it come up 
under?
    General Jones. I think there has been some international 
discussions on this, talking about the European Union, for 
example, to see if the European Union would advocate such a 
solution. But it is very clear to me that some group, or some 
central authoritative figure in the international arena to 
coordinate, prioritize, shape, direct, however you want to put 
it, coupled with a military commander who is already in place, 
would be, I think, a good thing to do, and I hope we can do 
that.
    As I said, the good news is that the structures are already 
there.
    Senator Warner. The pieces are there.
    General Jones. The pieces are all there.
    Senator Warner. They need to be brought together.
    General Jones. Exactly.
    Senator Warner. Someone made finally accountable for the 
performance of each.
    General Jones. Exactly.
    Senator Warner. Dr. Rubin, you would like to comment on 
that concept?
    Dr. Rubin. Yes. I just wanted to mention that during the 
negotiation and drafting of the Afghanistan Compact, which I 
was a part of on contract to the U.N., we did--through that 
process we came up with something which is supposed to have 
that function. That is the Joint Coordination and Monitoring 
Board, which is co-chaired by the United Nations and the Afghan 
government; and that under that there are particular working 
groups that deal particularly with security, like the policy 
action group, which deals with just those actors that are 
dealing with security.
    But I think it is fair to say that these groups have not, 
actually worked as envisaged. The main problem is that there is 
a lack of fit, in that it is the United States which is 
providing 50 percent of the financial resources and 70, 80 
percent of the military resources and it is the United Nations 
which has the major international coordination responsibility, 
but, as you can imagine, the United States does not really let 
itself be coordinated by the U.N. under those circumstances.
    Senator Warner. I would like to ask one more question, but 
it is your turn now.
    Chairman Levin. I have two questions, then I am going to 
have to run. You can just take over, of course.
    One would be the question of pressure on Karzai. Is it 
counterproductive? Would it weaken Karzai to put pressure on 
him, looking as though, if he complied, that he would just be 
our agent in some way? For the reasons that you give, he cannot 
look publicly like he is particularly close to the United 
States, nor can apparently just about anybody else in the world 
these days, for reasons which are tragic? But you will not make 
a political speech and I will not either. I will restrain 
myself the way you did, Dr. Rubin.
    But nonetheless, pressure on Karzai. What do you believe is 
useful? What could be done to have him take stronger action in 
the territories, if any?
    Dr. Rubin. Well, I believe President Karzai does not 
believe he is subject to too little pressure. I think he has 
the contrary problem. He has nothing but pressures and very 
little capacity.
    Chairman Levin. You are talking about the pressures from 
us?
    Dr. Rubin. Well, no. He is under pressure from the Taliban.
    Chairman Levin. All kinds.
    Dr. Rubin. He is under pressure from the local power 
holders, the so-called warlords. He is under pressure from 
Pakistan, Iran, Russia, the EU, and from us, both our 
ambassador and our force commander.
    Chairman Levin. I misspoke. I am talking about Musharraf. I 
am sorry. Did I say Karzai?
    Dr. Rubin. Yes.
    Chairman Levin. Let me go back, and I am sorry. I want to 
go to Pakistan. What pressures can we put on Musharraf that 
would be constructive, that could lead to stronger action on 
his part to take over, to take action against the territories, 
the training camps and so forth? What can we constructively do 
which might lead him to be stronger? All my references to the 
difficulties he is in politically, if it looks like he is 
responding properly should have referred to Musharraf, not to 
Karzai.
    Dr. Rubin. Okay. First, I do support some form of aid 
conditionality, such as was put in by the House of 
Representatives in their bill to implement the recommendations 
of the 9-11 Commission. I would suggest that the conditionality 
should only be applied to military assistance; it should not be 
applied to economic assistance, democracy assistance, or 
certainly not to humanitarian assistance.
    I would add that it should be supplemented by a recognition 
that Pakistan has legitimate interests in Afghanistan and that 
we should try to encourage greater transparency concerning 
Indian activities in Afghanistan as well.
    Second, as we increase the pressure through the military 
assistance package, which is our main source of leverage, we 
need to have a multilateral approach to Pakistan. Pakistan, 
when it feels that the United States is not supporting it, has 
tended to turn to China. It tried to do that after the U.S.-
India nuclear deal last year and China turned it down. So it 
would be very important to have a joint approach with China and 
the other NATO members on this as well.
    Third, Pakistan also needs assistance in building its 
capacity to do certain things, such as it needs to be able to 
integrate those tribal areas into the political system and 
economic system of Pakistan. This is not some foreigner's crazy 
idea. It is a political program of a number of parties in 
Pakistan. But they have delayed it for a number of reasons. 
That is one of the reasons that they have not been able to do 
anything about the safe havens.
    Finally, we need to help both Pakistan and Afghanistan 
address their bilateral relationship. This is not a personal 
problem between Karzai and Musharraf. There are a whole set of 
issues regarding the border, trade, transit, ethnic relations, 
that have gone unaddressed for 60 years, but we can no longer 
afford to allow them to go unaddressed.
    Chairman Levin. Thank you.
    General Jones, do you have any comment on that? Will it 
work? Would it be counterproductive to put the kind of 
pressure, including conditionality of aid, on Musharraf that 
Dr. Rubin made reference to? Do you have any thought on that?
    General Jones. Well, I think that when you have an 
international mission in Afghanistan the likes of which we have 
it and our young men and women are putting themselves at risk 
and occasionally dying, that I think it is fair to make sure 
that our investments of our most precious assets are well 
represented by certain metrics that we expect from the people 
we are trying to help, including the Afghan government and 
including the Pakistani government.
    As I said in my opening comments, this is a regional 
problem. The strategic catastrophe that would result from a 
failure in Afghanistan cannot be understated. I think that it 
would mean that Pakistan would have more problems.
    So I think the international community through NATO, for 
example, since we are all members of NATO, if in fact the 
border situation does not improve should voice that in 
unmistakable ways to change, to do the things that are required 
in order to solve that particular problem.
    Chairman Levin. Thank you.
    Do the Afghans call warlords ``warlords''? What was the 
answer to that question?
    Dr. Rubin. In Afghanistan there is a word for warlord. It 
is jangsalar. It is one of the most commonly used words. My 
driver in Kabul, whenever some vehicle from the security 
service cuts us off, he says: ``There goes a bunch of 
warlords.''
    The people in question do not like the term because they of 
course fought against the Soviets, some of them. Some of them 
fought for the Soviets also. They fought against the Taliban. 
They feel that their sacrifices are not being recognized.
    Chairman Levin. What is the term they like?
    Dr. Rubin. ``Heroes.''
    Chairman Levin. ``Heroes,'' okay. I guess we all like that 
term.
    I am going to turn this over to you, Senator Warner.
    Senator Warner. Thank you. I will just keep the witnesses a 
minute.
    Chairman Levin. Thank you both. You have been really super. 
I am sorry I have to leave.
    General Jones. Thank you, sir.
    Senator Warner. Thank you, Carl.
    General Jones. Thank you for having us.
    Senator Warner [presiding]. Quickly, back, the history of 
the narco in Afghanistan. There was a time under the Taliban it 
was far less in terms of production than today. So what were 
the controls that were put on the situation then? Or am I 
correct in that?
    Dr. Rubin. What happened was in 2000 was that the Taliban 
were looking for something they could do for the international 
community, and what they did do was in that one season they 
banned the cultivation of opium poppy. They did not ban 
trafficking in opium. They were successful in doing that 
because of their system of governance, every village has a 
mullah who is answerable to the Taliban, and they used that as 
a monitoring mechanism and they told the village headmen: You 
are responsible; we are going to punish you if you grow poppy. 
It was a little more complicated than that, but they had a 
degree of penetration that allowed them to do that.
    However, we should not believe that is a sustainable policy 
because the result of their policy was that the price of opium 
was multiplied tenfold. It was $40 a kilogram when they banned 
the production and at the end of that year it was $400 a 
kilogram. I am not at all convinced that they could have 
continued with that same policy at $400 a kilogram that had 
worked at $40 a kilogram. The price has never gone down to pre-
Taliban levels. That is one of the problems we are facing 
today.
    Senator Warner. It is simple. If you reduce the existence 
of it, in other words simply stop the planting and cultivating 
of it, eventually the world supply dries up, or at least goes 
for another source. So I keep coming back. I mentioned the 
program, the set-aside: Pay the farmers for what they get today 
and then allow them to keep that money and go out and plant 
potatoes or onions or whatever it is, so they get a 
compensation.
    Can you not choke it off that way?
    Dr. Rubin. Well, two points, Senator. First of all, I wish 
that we would put some serious thought to a project on opium 
that treated it as an agricultural issue as you are talking 
about, rather than just as a law enforcement issue. I commend 
you for that and I hope you will get some people working on it. 
I cannot design it myself.
    Second, however, remember it is an economic product. 
Therefore, if you reduce the supply you increase the price. 
Therefore it becomes profitable to produce it in new areas. One 
of the main results of our counternarcotics policy in 
Afghanistan so far has been the increase in production of opium 
and the spread of the production of opium poppy to all the 
provinces of Afghanistan, whereas previously it was confined to 
a few where we have focused our eradication efforts.
    General Jones. Senator, economics aside, also you do not 
get anywhere with that. For example, even if you convince the 
farmer not to grow it and you give him a stipend and everything 
else, if you do not provide him the police network that 
protects himself and his family from being forced to grow it, 
then you put them at risk. If you do not have a court system 
that can prosecute people who are the violators and they see 
that effectively being done, it does not work.
    So the solution is there, but we have to integrate these 
other pillars of reconstruction that we have not successfully 
done yet.
    Senator Warner. Gentlemen, thank you very much.
    Dr. Rubin. Thank you very much.
    Senator Warner. The chairman and I appreciate it and other 
members. Excellent testimony.
    General Jones. Thank you, sir.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                    provincial reconstruction teams
    1. Senator Levin. Lieutenant General Lute, Provincial 
Reconstruction Teams (PRTs) have traditionally been staffed by U.S. 
Army and U.S. Marine Corps Civil Affairs personnel trained specifically 
for these tasks. However, it is my understanding that many of the PRTs 
in Afghanistan are, in fact, led and staffed by non-Civil Affairs 
qualified personnel. I am concerned that this may limit the 
effectiveness of the PRTs. Do all military PRT personnel and commanders 
go through the equivalent of the complete Civil Affairs course provided 
at Fort Bragg, North Carolina? If not, please indicate what percentage 
of personnel and commanders have not received the complete Civil 
Affairs course or its equivalent and describe any alternative training 
that has been provided.
    General Lute. [Deleted.]

    2. Senator Levin. Lieutenant General Lute, many members of the 
committee have expressed concern that there is not an effective 
interagency effort in Afghanistan. In your opinion, does the current 
PRT structure allow for effective interagency coordination and 
execution of programs?
    General Lute. The PRT structure is one, but not the only, means of 
achieving effective coordination and execution of programs. The process 
of coordination for programs executed by PRTs takes place at three 
levels: tactical, operational, and strategic.
    At the tactical level, PRTs execute programs based on Afghan 
Government priorities in support of its Afghan National Development 
Strategy (ANDS). A PRT is under the direction of a PRT Commander, 
International Security Assistance Force (ISAF) Regional Command, and 
ISAF HQ.
    At the operational level, each ISAF Regional Command (North, South, 
East, West and Capital) coordinates program execution under the purview 
of the HQ ISAF staff. ISAF conducts quarterly PRT Conferences to 
synchronize PRT activities. The U.S.-led PRTs are primarily in Regional 
Command-East, commanded by a U.S. officer, Major General Rodriguez.
    At the strategic level, U.S. coordination is accomplished in 
Washington, DC, in a multi-level process. At the working level, an 
Afghan Interagency Operations Group, whose membership includes 
representatives from the National Security Council (NSC), Department of 
Defense (DOD), Department of State (DOS), Department of Justice (DOJ), 
and others, ensure coordination on the strategy, approach, and funding 
for PRTs. The NSC also conducts meetings--deputies committee and 
principals committee meetings--where representatives of every agency 
participate in policy decisions that affect PRTs.

    3. Senator Levin. Lieutenant General Lute, have advantages resulted 
from placing a DOS officer at the head of one PRT?
    General Lute. Having a State Department officer at the head of one 
PRT provides the opportunity for a ``proof of principle'' of greater 
civilian participation in the PRT structure. It will lay the groundwork 
for adjusting the military/civilian mix in staffing PRTs. The size and 
composition of the U.S.-led PRTs will continue to vary depending on 
local conditions and the availability of military and civilian 
personnel. The closer a local area is to achieving the ultimate goal of 
Stability and Civil Security and Control, as described in 
counterinsurgency (COIN) doctrine, the more opportunity for civilian 
leadership in areas engaged in stability operations versus military 
operations. Even when a PRT is not headed by a State Department 
officer, there can be effective joint efforts if there are sufficient 
numbers of civilians who are available, trained and prepared to deploy 
to PRTs. We are supportive of efforts at the DOS and USAID to increase 
the numbers of trained civilians.

    4. Senator Levin. Lieutenant General Lute, do you believe this 
arrangement should be considered for other PRTs as well?
    General Lute. There are State Department officers who can 
effectively serve as the head of a PRT. This position requires a 
relatively senior individual with the maturity and experience, as well 
as the desire to take on an assignment most often accomplished by a 
Lieutenant Colonel/Commander in the U.S. military. Again, the closer a 
local area is to achieving the ultimate goal of Stability and Civil 
Security and Control, as described in counterinsurgency doctrine, the 
more opportunity for civilian leadership in areas engaged in stability 
operations versus military operations.

                  readiness of afghan security forces
    5. Senator Levin. Lieutenant General Lute, a key element of 
President Bush's strategy in Afghanistan is expanding the training and 
equipping of the Afghan National Army (ANA) to a level of 70,000 
soldiers and the Afghan National Police (ANP) to a level of 82,000 
personnel by the end of 2008. The President's fiscal year 2007 
emergency supplemental request states that there were 31,300 ANA and 
59,700 ANP personnel trained and equipped by the end of 2006.
    However, a November 2006 report produced jointly by the Inspectors 
General of the Defense Department and the State Department finds that 
the personnel numbers for the ANP are ``unreliable.'' Moreover, using 
new criteria established by the Combined Security Transition Command 
Afghanistan (CSTC-A), the command responsible for training and 
equipping the Afghan Security Forces, the Inspectors General reported 
that the CSTC-A found that fewer than 31,000 ANP personnel, out of the 
more than 60,000 who had received entry-level training, met readiness 
standards for conducting law enforcement operations. Has the CSTC-A 
established readiness standards for evaluating the ANA as well as ANP 
personnel? If so, how many ANA and ANP personnel meet CSTC-A readiness 
standards?
    General Lute. Standards for the ANA units are in terms of four 
capability metrics (CMs): CM 1, Full Operational Capability; CM 2, Lead 
with Coalition Force (CF) support; CM 3, Side-by-Side; and CM 4, 
Formed--Not Capable. As of 6 March 07, the ANA units had 49,000 
personnel, including 15,000 personnel at CM 2, 31,000 personnel at CM 
3, and 3,000 personnel at CM 4.
    Standards for the ANP units are also in terms of the same four 
capability metrics. As of 6 March 07, ANP units had 72,000 personnel, 
including 1,000 personnel at CM 2, 20,000 personnel at CM 3 and 51,000 
personnel at CM 4.

    6. Senator Levin. Lieutenant General Lute, the Inspectors General 
report states that the CSTC-A is developing a standard operating 
procedure (SOP) for field mentors, who perform routine readiness 
assessments on ANP regional and provincial leadership, to improve the 
objectivity of their readiness reports. Has the CSTC-A promulgated SOPs 
on readiness assessment for mentors assessing the ANP?
    General Lute. The framework SOP for mentors to use in assessing ANP 
leadership is currently under development.

    7. Senator Levin. Lieutenant General Lute, have similar SOPs been 
issued in connection with training the ANA?
    General Lute. Yes, there is a SOP called the Training and Readiness 
Assessment Tool that has been promulgated for use by the Embedded 
Training Teams (ETTs) to conduct readiness assessments for the ANA.

    8. Senator Levin. Lieutenant General Lute, are all ANP and ANA 
units receiving readiness assessments by field mentors?
    General Lute. Readiness assessments are made for ANA units by the 
ETTs. Readiness assessments will be made for ANP units as we get Police 
Mentoring Teams in place at all levels and the ANP assessment tool is 
completed.

                     u.s. force structure in europe
    9. Senator Levin. General Jones, during your service as the 
Commander of the U.S. European Command, the administration proposed a 
major reduction of U.S. military personnel in Europe. The heart of this 
proposal was a reduction of approximately 47,000 Army personnel and the 
relocation of 3 combat brigades from Europe to the United States. Do 
you believe our forces in Europe should be reduced to this extent?
    General Jones did not respond in time for printing. When received, 
answer will be retained in committee files.

    10. Senator Levin. General Jones, the fiscal year 2008 budget 
proposes to add 65,000 Active Duty Army personnel over the next 5 
years. As part of this increase, the Army proposes to create six new 
light infantry combat brigades. Do you believe it would be in our 
strategic interest to base one or more of these six additional brigades 
in Europe?
    General Jones did not respond in time for printing. When received, 
answer will be retained in committee files.

    11. Senator Levin. General Jones, the training ranges at the 
National Training Center in California and the Joint Readiness Training 
Center in Louisiana are already fully utilized. If the ongoing drawdown 
from four heavy brigades to one Stryker brigade in Europe is fully 
implemented, it seems likely that the Joint Multinational Readiness 
Center in Germany will not be fully utilized. Do you believe the DOD, 
and Congress, should take the availability of this training range into 
consideration, in addition to the strategic interests you addressed 
above, in deciding whether or how soon to draw down our ground forces 
in Europe, and where to base the proposed six new brigade combat teams?
    General Jones did not respond in time for printing. When received, 
answer will be retained in committee files.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                               narcotics
    12. Senator Akaka. Ambassador Edelman and Lieutenant General Lute, 
one of the biggest threats to stability in Afghanistan is clearly the 
growing and trafficking of narcotics. Despite our efforts in 2006, the 
poppy crop for 2006 was significantly higher than for 2005. Narcotics 
sales are being used to fund the insurgency, making them a threat to 
our troops. Corruption fueled by the drug trade is rampant in the 
Afghan government and police force. What near-term and long-term 
strategies are we adopting to reverse the Afghan dependence on an 
economy of narcotics and the widespread corruption in the government?
    Ambassador Edelman. We agree that one of the biggest threats to 
stability in Afghanistan is the growing and trafficking of narcotics. 
While most of the U.S. Government initiatives that seek to reverse 
Afghan dependence on an economy of narcotics and widespread corruption 
in the government are the province of the DOS, U.S. Agency for 
International Development and the DOJ, DOD is playing a supporting 
role. Specifically, in the short-term, DOD does provide transportation 
and other support to U.S. departments and agencies that are responsible 
for countering drug traffickers. In the long-term, DOD has undertaken 
several programs designed to increase Afghanistan's capacity to 
interdict the drug trade, disrupt drug traffickers, and impose 
consequences on corrupt officials. Some of those efforts include the 
joint DOD and DOS program to train and equip the Afghan National Army 
and Afghan National Police; the DOD initiative to train and equip the 
Counternarcotics Police of Afghanistan and the Afghan Border Police, 
the DOD Afghan counternarcotics helicopters program and the DOD 
supported Afghan Border Management Initiative. All these efforts 
should, when completed, enable Afghanistan to deal with the drug and 
corruption problem.
    General Lute. The near-term U.S. Government strategy addresses the 
problem from the perspective of interdiction, alternative livelihoods, 
justice/police reforms, and eradication. An example of the strategy is 
being executed now in State's ``Plan Helmand.'' This plan focuses on 
the central districts responsible for the bulk of poppy cultivation in 
Helmand, the highest poppy-producing province in Afghanistan. The long-
term strategy is to reverse the Afghan dependence on an economy of 
narcotics and the widespread corruption in the government and follow a 
more holistic approach to counternarcotics (CN) as an element of the 
counterinsurgency strategy. There is broad consensus that progress in 
the CN mission is essential to COIN success in Afghanistan: the CN-COIN 
nexus. Successful COIN strategies characteristically focus on drawing 
the population, the center of gravity, away from insurgents and toward 
the government. Developing or strengthening a government that is 
responsive to the people's needs and capable of establishing security 
is a key effort. Successful CN enforcement enables a more stable and 
secure environment for development, economic growth, and effective 
governance. It is clear that counterinsurgency and CN have similar 
objectives, and success in one complements success in the other.

    13. Senator Akaka. Ambassador Edelman and Lieutenant General Lute, 
how do we help the common farmer turn away from drug crops to growing 
legal crops?
    Ambassador Edelman. This question addresses a matter that is more 
properly the responsibility of the DOS and U.S. Agency for 
International Development. DOD's programs described in the answer to 
question 12, help efforts to provide alternative livelihoods by 
building Afghan capacity to provide security.
    General Lute. An effective, long-term CN strategy to dissuade 
farmers from planting drug crops must leverage a multi-pillared 
approach that balances increasing the risk and costs of participating 
in the drug trade with enhancing farmers' access to sufficient legal 
livelihoods. Research shows that the majority of Afghan farmers do not 
grow poppy merely to maximize profits, but as a result of a complex set 
of motivations. These are influenced by availability of credit; access 
to land; alternative employment opportunities; existence of viable 
alternative crops and markets; availability of infrastructure to grow 
and transport produce; and food security. By addressing the underlying 
economic factors that drive farmers to cultivate poppy, while 
continuing to inject risk into the trafficking system through credible 
enforcement and eradication threat, we can help farmers turn away from 
drug crops to growing legal crops.

                      afghanistan/pakistan border
    14. Senator Akaka. Ambassador Edelman and Lieutenant General Lute, 
the Vice President has warned President Musharraf that the Taliban and 
al Qaeda are regrouping in Pakistan's remote border region and has 
strongly encouraged him to counter the threat. The lawlessness of the 
Afghanistan/Pakistan border is clearly a destabilizing threat to both 
countries. What can we do to help the Afghans secure their border with 
Pakistan, besides asking Pakistan to do more?
    Ambassador Edelman. We work closely with both the Afghan and 
Pakistani governments to secure the border. Central to this effort is 
greater cooperation between both countries. Significant progress has 
been made in this regard. Both Afghanistan and Pakistan, for instance, 
have representatives in the Joint Intelligence Operations Center (JIOC) 
in Kabul. The JIOC facilitates the exchange of critical and timely 
information needed by both Afghan and Pakistani units to prevent and 
disrupt insurgent activity. Additionally, Afghanistan, Pakistan, and 
NATO are members of the Tripartite Commission, which is a forum for 
discussing subjects of mutual interest, including border security. 
Additionally, both Afghanistan and Pakistan will hold a joint jirga as 
a means for leaders from both sides to explore ways to reduce violence 
and illegal border crossings. Lastly, we are looking at ways to develop 
Pakistani capability to take action along their borders. In the amended 
fiscal year 2007 supplemental budget, we asked for the authority to 
provide up to $71.5 million of training and equipment to the Frontier 
Corps in the federally administered tribal areas. Strengthening the 
Frontier Corps would enable more vigorous Pakistani action against 
Taliban along the border.
    General Lute. [Deleted.]

    15. Senator Akaka. Ambassador Edelman and Lieutenant General Lute, 
we are currently assisting the Afghan government with developing a 
70,000-troop military by the end of 2008. Considering the long-term 
need for the Afghan government to be able to protect its own borders, 
is this force strength sufficient?
    Ambassador Edelman. The decision to build the Afghan National Army 
to a force of 70,000 took into consideration the threats that 
Afghanistan would face. A part of that consideration included the 
development of the Afghan National Police to a force of 82,000, 
approximately 18,000 of which will be Border Police. When properly 
configured, trained, equipped, and fully fielded, we believe that the 
Afghan National Security Forces (ANSF) increasingly will be able to 
take the lead on protecting their country against insurgents.
    General Lute. The long-term need for the Afghan government to be 
able to protect its own borders is being addressed by the Afghan 
Customs Department (ACD) and the Border Management Task Force (BMTF) 
with DOS's Bureau of International Narcotics and Law Enforcement 
Affairs. The solution does not depend primarily on the size of military 
forces, but rather focuses on civilian security structures. The desired 
end state is a secure and stable environment maintained by indigenous 
security and police forces under the direction of a legitimate national 
government that is freely elected and supports economic development. 
The ACD recognizes and is taking the initiative to improve the economic 
development at the BCPs by working with other ministries to develop a 
comprehensive development plan. The BMTF Border Police Coordinator has 
drafted follow-up recommendations of the ABP's new mobile strategy 
detailing the developing infrastructure, equipping and integrated 
border-specific technology when implementing this new strategy.

    16. Senator Akaka. Ambassador Edelman and Lieutenant General Lute, 
are there plans to continue building the Afghan military after reaching 
70,000?
    Ambassador Edelman. No. Our assessment is that the 70,000 person 
force we are building for the ANA, combined with the 82,000 person 
force for the ANP--both with improved capabilities--will be sufficient 
to enable the ANSF to fulfill their contribution to rule of law, 
stability, and security within Afghanistan based on the current threat 
assessment.
    General Lute. No. The current DOD program is to train and equip 
70,000 troops for the ANA and 82,000 for the ANP. These concurrent 
efforts are the responsibility of the CSTC-A, under the direction of 
Major General Durbin, in close coordination with Ambassador Neuman and 
the State Department.

   coalition forces and an adequate security structure in afghanistan
    17. Senator Akaka. Ambassador Edelman and Lieutenant General Lute, 
in your statement, Ambassador Edelman, you point to a recent ABC poll 
as evidence of increasing stability and confidence in the stability and 
economy of the country. However, in reading the poll, I have found it 
to paint a significantly different picture of the trends in 
Afghanistan. Specifically, it concludes that ``public optimism has 
declined sharply across Afghanistan.'' Many of the poll findings raise 
serious issues.
    For instance, there is strong evidence in the poll of regional 
variations in security levels. Overall, 57 percent of Afghans say that 
international forces have a strong presence in their area. But the 
sense of a strong international force presence ranges from 83 percent 
in the north to just 29 percent in the south. Confidence in the 
international force's ability to provide security is at 67 percent 
overall, but varies widely from 83 percent in the north to 47 percent 
in the south. What is the reason for the inability of the coalition 
forces to provide equal levels of security throughout all regions in 
Afghanistan?
    Ambassador Edelman. The threat level in Afghanistan varies between 
different locations. The Taliban has traditionally been most active in 
the south and east, where we continue to see the most violence. ISAF 
and coalition capabilities are directed at these two regions and we are 
aggressively fighting the Taliban. Additionally, we are coordinating 
our military operations with reconstruction and development efforts 
which allow Afghans to see positive changes in their lives and improve 
their confidence in the central government and its international 
partners. Lastly, we are working to increase the size and capabilities 
of the ANSF. The ANSF, in particular the ANA, are increasingly fighting 
alongside ISAF and coalition forces.
    General Lute. The ultimate goal is for Afghan forces to provide 
equal levels of security throughout all regions in Afghanistan. Until 
that goal is reached, coalition forces support that mission. However, 
each nation has different capabilities and some nations have political 
constraints or ``caveats'' under which its forces operate. Not all 
nations are willing and able to perform the security mission. To 
measure progress we look at both the public's confidence in security as 
well as actual security conditions, as indicated by the number of 
incidents of violence in each of the Regional Commands (North, South, 
East, West and Capital). According to Charney Research, public optimism 
is down from 2005, but has recovered a bit from spring 2006. Optimism 
or ``Country Headed in the Right Direction'' was: 64 percent/March 
2004, 77 percent/October 2005, 44 percent/June 2006, and 55 percent/
October 2006. Perception varies by region. Regional variations also 
exist in actual security levels. Regional Command-South and Regional 
Command-East are the two regions with high incidents of violence. The 
lines of operation that will lead to increased levels of security and 
stability in Regional Command-South and Regional Command-East are: 
civil security, essential services, governance, and economic 
development. The U.S. has a substantial effort ongoing in the civil 
security sector to train the ANP.

    18. Senator Akaka. Ambassador Edelman and Lieutenant General Lute, 
have we provided adequate force levels to secure the country?
    Ambassador Edelman. We continuously evaluate the situation on the 
ground and adjust our troop levels as necessary. The U.S. is the single 
largest force contributor to the ISAF in Afghanistan. U.S. Army General 
Dan McNeill commands ISAF. The U.S. has its highest level of force 
contributions since 2001 with 27,000 personnel in theatre. These 
personnel are divided between the ISAF and Operation Enduring Freedom 
missions. Supreme Allied Commander, General John Craddock recently 
completed a review of the ISAF Combined Joint Statement of Requirements 
(CJSOR), which outlines the forces necessary to provide essential 
security for stability, reconstruction, development and institution 
building. The CJSOR currently has critical shortfalls in terms of 
quantity of troops and key enablers such as helicopter lift and 
trainers. ISAF and the North Atlantic Treaty Organization (NATO) 
Commanders have repeatedly staled that continuing CJSOR shortfalls can 
potentially jeopardize NATO's mission in Afghanistan. The U.S. recently 
increased its contribution, notably in Regional Command East, for which 
the U.S. has responsibility.
    General Lute. [Deleted.]

             relationship between al qaeda and the taliban
    19. Senator Akaka. Ambassador Edelman, I am struck by your 
statement that ``al Qaeda no longer enjoys a safe-haven to plan and 
launch attacks against the United States.'' I assume that you intended 
this statement to mean from within Afghanistan, since Admiral McConnell 
has stated that al Qaeda is reconstituting itself in northwestern 
Pakistan. Can you comment on the relationship between al Qaeda and the 
Taliban and the kind of mutual support they are providing to each 
other? For instance, is the Taliban receiving financial support from al 
Qaeda?
    Ambassador Edelman. My statement that ``al Qaeda no longer enjoys a 
safe-haven to plan and launch attacks against the United States'' 
referred to Afghanistan.
    [Deleted.]

                         united states and iran
    20. Senator Akaka. Dr. Rubin and General Jones, in your statement, 
Dr. Rubin, you commented that a U.S. conflict with Iran would have 
disastrous consequences in Afghanistan. You point out that Iran has 
supported our efforts in Afghanistan, yet I notice that this is never 
mentioned by the administration. Can you both comment on why you 
believe that the U.S. has not been able to build on Iran's cooperation 
in Afghanistan in establishing a dialog with the Iranian government?
    Dr. Rubin. The administration has consistently demonstrated its 
opposition to using our cooperation with Iran as a base for improving 
the relationship. Iran cooperated closely with the United States in 
Afghanistan in the fall of 2001, when the reformist Muhammad Khatami 
was President of Iran. Less than a month after the Government of Hamid 
Karzai assumed authority largely as a result of joint work by the 
United States, United Nations, and Iran, President Bush described Iran 
in his State of the Union message as a member of the ``Axis of Evil.'' 
Iranians understood this as a clear message that the U.S. would accept 
whatever cooperation Iran chose to provide in its own interest but had 
no interest in trying to improve the relationship. Hence Iranians saw 
less benefit in supporting reformist candidates, whose efforts to 
improve relations with the U.S. were futile. This was one of the 
factors leading to the election of Mahmud Ahmadinejad.
    General Jones did not respond in time for printing. When received, 
answer will be retained in committee files.

    21. Senator Akaka. Dr. Rubin, in your statement, you indicate that 
the inability of the Afghan government or the international force to 
curb the safe haven insurgents enjoy in Pakistan seriously undermines 
the credibility of the United States. The administration is clearly 
pressuring the Pakistani government to do more to eliminate the safe 
refuge for terrorists and the Taliban within their borders. What 
additional actions do you feel the United States or the coalition ought 
to be doing to further reduce the ability of the insurgents to use 
Pakistan as a safe refuge?
    Dr. Rubin. Certainly we should not have left Pakistan without a 
United States ambassador at such a crucial time. Moving Ambassador Ryan 
Crocker from Islamabad to Baghdad again shows the administration's true 
priorities: saving face in Iraq is more important than defeating al 
Qaeda in Pakistan, where it is headquartered.
    There is no single solution for this problem. The United States 
needs to engage politically and continuously at a high level to address 
the many conflicts in the bilateral relations between Afghanistan and 
Pakistan, which have poisoned the situation in the region for decades 
and which the administration gives no indication of even understanding, 
let alone addressing at a sufficiently high level. Senator Clinton's 
proposal of a high-level special envoy to focus on this problem would 
be a good start. Dinner parties at the White House are not the answer. 
The entire set of arrangements along the border inherited from the 
British Empire need to be addressed. The United States needs to support 
democratization of Pakistan, provide support to Pakistan's 
international peacekeeping role, promote confidence building measures 
between Pakistan and India in Afghanistan (addressing Pakistani 
complaints about Indian intelligence activities), and act as an honest 
broker between Kabul and Islamabad at the political level, not just on 
military issues through the tripartite commission. The United States 
needs to engage the U.N. and NATO to develop and implement forceful and 
coherent policies toward Pakistan and Pakistan-Afghanistan bilateral 
relations. We should also warm relations with Iran, to demonstrate to 
Pakistan that they do not have a monopoly on relations with us among 
the neighbors of Afghanistan.

                            role of pakistan
    22. Senator Akaka. Dr. Rubin, in your statement you state that 
Pakistan, not Iran, has been the source of terrorism that is directly 
targeting U.S. and allied troops as well as Afghan troops with 
improvised explosive devices, rockets, and suicide bombers. You then 
state that Pakistan needs to do more but is essentially being pressured 
to deal with the consequences of negligent policies of the United 
States. When you state that Pakistan is the source of terrorism 
targeting coalition troops, are you referring to the flow of support 
out of Pakistan's uncontrolled regions? Or, are you stating a belief 
that the Pakistan government is providing this support?
    Dr. Rubin. The Government of Pakistan supported the Taliban from 
its inception until shortly after September 11, 2001. It abandoned open 
support for the Taliban only under extreme pressure from the United 
States at that time. The infrastructure of support for the Taliban, 
consisting of networks of recruitment, training, and financing, has 
been hardly disturbed. The leadership of the Taliban by and large 
enjoys freedom of movement in Pakistan. Its recruitment materials are 
openly distributed. Leaders whom the Pakistani government claims it 
cannot find are interviewed on television. ``Retired'' Pakistani 
military and intelligence officials advise the Taliban. The former head 
of Pakistan's intelligence agency openly and enthusiastically supports 
the Taliban and is frequently invited to address Pakistan military and 
government bodies on the subject. No Taliban leaders are arrested 
except on two occasions: the arrival of the British Defense Minister 
and the arrival of Vice President Cheney.

    23. Senator Akaka. Dr. Rubin, can you elaborate on the ``negligent 
policies'' of the United States that you are referring to in you 
statement?
    Dr. Rubin. I am referring to the entire policy of the 
administration in prioritizing Iraq over Afghanistan and the fight 
against al Qaeda ever since September 12, 2001. It would require an 
entire book to describe this negligence, and I hope you will read it 
when I am done.

    [Whereupon, at 1:16 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
